<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-701, Part 4]
[From the U.S. Government Publishing Office]




                                                  S. Hrg. 111-701 Pt. 4


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3454

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2011 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 4

                                AIRLAND

                               __________

                         APRIL 13 AND 15, 2010

                               __________

         Printed for the use of the Committee on Armed Services


        Available via the World Wide Web: http://www.fdsys.gov/





                  U.S. GOVERNMENT PRINTING OFFICE
62-157                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

                        Subcommittee on Airland

               JOSEPH I. LIEBERMAN, Connecticut, Chairman

EVAN BAYH, Indiana                   JOHN THUNE, South Dakota
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
KAY R. HAGAN, North Carolina         SAXBY CHAMBLISS, Georgia
MARK BEGICH, Alaska                  SCOTT P. BROWN, Massachusetts
ROLAND W. BURRIS, Illinois           RICHARD BURR, North Carolina
EDWARD E. KAUFMAN, Delaware

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
    Department of the Air Force and Department of the Navy Tactical 
                           Aircraft Programs
                             april 13, 2010

                                                                   Page

Architzel, VADM David, USN, Principal Deputy, Office of the 
  Assistant Secretary of the Navy (Research, Development, and 
  Acquisition); Accompanied by Lt. Gen. George J. Trautman III, 
  USMC, Deputy Commandant for Aviation, U.S. Marine Corps, and 
  RADM David L. Philman, USN, Director, Air Warfare, Office of 
  the Chief of Naval Operations..................................     5
Shackelford, Lt Gen Mark D., USAF, Military Deputy, Office of the 
  Assistant Secretary of the Air Force for Acquisition; 
  Accompanied by Maj Gen Johnny A. Weida, USAF, Assistant Deputy 
  of Staff for Operations, Plans, and Requirements, Department of 
  the Air Force..................................................    20

                           Army Modernization
                             april 15, 2010

Lennox, LTG Robert P., USA, Deputy Chief of Staff, Army (G-8)....    77
Phillips, LTG William N., USA, Principal Military Deputy to the 
  Assistant Secretary of the Army for Acquisition, Logistics, and 
  Technology, and Director, Acquisition Career Management........    87
Sullivan, Michael J., Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................    87
Duma, David W., Principal Deputy Director, Operational Test and 
  Evaluation, Department of Defense..............................    97

                                 (iii)
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                        TUESDAY, APRIL 13, 2010

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

    DEPARTMENT OF THE AIR FORCE AND DEPARTMENT OF THE NAVY TACTICAL 
                           AIRCRAFT PROGRAMS

    The subcommittee met, pursuant to notice, at 9:35 a.m. in 
room SR-222, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, Hagan, 
Begich, Burris, Kaufman, Chambliss, Thune, and Brown.
    Majority staff member present: Creighton Greene, 
professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Pablo E. Carrillo, minority investigative 
counsel; Daniel A. Lerner, professional staff member; David M. 
Morriss, minority counsel; and Christopher J. Paul, 
professional staff member.
    Staff assistants present: Jennifer R. Knowles and Brian F. 
Sebold.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Patrick Hayes, assistant to 
Senator Bayh; Gordon I. Peterson, assistant to Senator Webb; 
Perrin Cooke, assistant to Senator Hagan; Roosevelt Barfield, 
assistant to Senator Burris; Sandra Luff, assistant to Senator 
Sessions; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Jason Van Beek, assistant to Senator Thune; and Scott M. 
Clendaniel, assistant to Senator Brown.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. The hearing will come to order.
    I want to extend a welcome to the witnesses. Thank you very 
much for appearing before the subcommittee today.
    Also, welcome to our colleague Senator Scott Brown from 
Massachusetts. I believe this is the first time you've been at 
one of the subcommittee hearings.
    Senator Brown. That's correct.
    Senator Lieberman. It's the first subcommittee hearing 
we've had this session. So, I don't mean to suggest you've been 
guilty of absenteeism. [Laughter.]
    Anyway, it's a pleasure to welcome you.
    Senator Brown. Thank you, Mr. Chairman.
    Senator Lieberman. I look forward to your contribution to 
our work.
    At each of these hearings, I always believe it's important 
to pause for a moment to acknowledge the service, heroism, and 
professionalism of the American military; the people who fight 
our Nation's wars, and do so with such extraordinary valor and 
effectiveness.
    For decades, they have fought with the knowledge that 
American airmen and aviators control the skies wherever our 
country sends them. That confidence is, of course, based on the 
quality of our fighter aircraft, as well, most importantly, as 
the skill of the men and women who fly those aircraft. So, it's 
in that context that we convene this session of the Airland 
Subcommittee to discuss our Nation's military tactical aircraft 
(TACAIR) programs.
    Every year, we have a responsibility to balance competing 
demands for resources to support our military. The decisions we 
make in the face of these demands will help to determine 
whether future generations of soldiers, sailors, airmen, and 
marines will also know that their brothers and sisters in arms 
control the skies.
    To help inform our committee's decisions, we have an 
extraordinary group of witnesses today: Lieutenant General Mark 
Shackelford, Military Deputy to the Assistant Secretary of the 
Air Force for Acquisition; Major General Johnny Weida, 
Assistant Deputy Chief of Staff of the Air Force for 
Operations, Plans, and Requirements; Vice Admiral David 
Architzel, Principal Deputy to the Assistant Secretary of the 
Navy for Research, Development, and Acquisition; Lieutenant 
General George Trautman, Deputy Commandant of the Marine Corps 
for Aviation; and Rear Admiral David Philman, Director for Air 
Warfare in the Office of the Chief of Naval Operations (CNO).
    I'm happy to see General Shackelford, General Trautman, and 
Admiral Architzel again. They are recidivists before this 
committee, but we always like to see them.
    We welcome General Weida and Admiral Philman, for their 
first appearance before the committee.
    The most important issue before us is the recently 
announced cost, growth, and schedule delays for the Joint 
Strike Fighter (JSF) program, which has breached a critical 
Nunn-McCurdy baseline, which is to say that program acquisition 
unit cost and average procurement unit cost have both increased 
more than 50 percent above the original estimate.
    I know that our witnesses know well what this means, 
because the JSF is the cornerstone of tactical aviation 
modernization for each of our Services. Excessive cost growth 
in this program is bound to hurt American air power in the 
years ahead.
    We know that the Department of Navy, for instance, faces 
large gaps between the forces that the CNO has said he needs 
and the forces that will be available to his successors. Two 
years ago, the Department of the Navy estimated that we would 
face a TACAIR shortfall in 2017 that could be as high 125 of 
the fighters needed to outfit our 10 aircraft carrier airwings, 
and 3 Marine Corps airwings.
    Last year, the Navy estimated that the maximum shortfall 
could be nearly twice that large; almost 250 aircraft. This 
year, the estimate is that, absent certain actions by the 
Department of Defense (DOD), the shortfalls could reach 267 
aircraft. Those are big numbers.
    However, the Navy believes that by taking certain actions 
that we'll discuss this morning, such as reducing squadron 
size, conducting service-life extensions on some aircraft, and 
reducing amount of time that aircrafts spend in the depots, 
they could reduce the gap to roughly 150 aircraft.
    I'm grateful that the Department is trying to manage its 
shortfall, and I look forward to hearing more about these 
efforts this morning, but frankly, I'm not satisfied that the 
steps taken are sufficient.
    The Air Force faces similar challenges. In 2008, the Air 
Force projected a potential shortfall of Air Force tactical 
fighters in excess of 800 aircraft around 2025. Last year, the 
Air Force proposed to retire roughly 250 aircraft earlier than 
planned, to achieve operating savings that would be invested in 
other areas. All of this amounts to what our witnesses will 
describe this morning as increased short- to mid-term 
warfighting risk.
    Congress recently received a report to help quantify the 
nature of that risk, and I hope that our witnesses will discuss 
that with us today in greater detail. Of course, I also hope 
that the witnesses will describe the steps the Air Force is 
taking to make sure that cost growth in the JSF program does 
not prevent the Service from addressing this shortfall and 
achieving its modernization goals.
    These questions are all subject to pending decisions 
regarding force structure requirements for the Navy and Marine 
Corps and Air Force TACAIR programs. I must say that, though 
the Quadrennial Defense Review (QDR) was supposed to evaluate 
fighter requirements and capabilities, it didn't reach any firm 
conclusions on TACAIR force structure requirements. So, we're 
left to speculate about whether DOD will be recommending 
changes in requirements at some time in the months and years 
ahead. If DOD does propose significant changes, particularly 
those that redefine requirements so as to explain away force 
structure gaps, our subcommittee, naturally, will expect to 
receive the analysis behind those changes, and will exercise 
our own responsibility to review them carefully.
    So, this is an unhappy story that repeats itself about our 
really extraordinary aircraft program, the JSF, which is that 
it's coming in a lot more expensive and later than any of us 
hoped. I look forward to discussing, with this very excellent 
group of witnesses, how we're going to react to those 
realities.
    Thank you very much.
    Senator Thune.

                STATEMENT OF SENATOR JOHN THUNE

    Senator Thune. Thank you, Mr. Chairman.
    I want to thank you for holding this important hearing, and 
also thank our witnesses for their attendance today, as well 
as, of course, for their selfless service to our Nation.
    On the occasion of today's discussion on combat tactical 
aviation, let me first take a moment to convey my condolences 
to the family of the three servicemen and one civilian who were 
killed and all those who were injured during the crash of the 
Air Force CV-22 Osprey tiltrotor aircraft last Thursday in 
southern Afghanistan. I would appreciate any update that our 
Air Force witnesses can provide on its investigation of that 
casualty.
    There can be no doubt that, among the entire defense 
enterprise, combat tactical aviation presents some of the most 
significant challenges for all of the Services. Perhaps chief 
among those challenges are gaps in fighter capability and 
strike fighter capability that the Air Force and the Navy, 
respectively, are seeing in the intermediate term.
    Important elements of those Services' ability to fill those 
capability gaps are their efforts to hedge against further 
slips in schedule and growth and cost in the JSF program by, 
among other things, extending the service life of their legacy 
tactical fleets. So, I'd like an update on those efforts, as 
well.
    In that context, the need for DOD and the prime contractor 
to execute the Department's plan to restructure the JSF program 
cannot be overstated. The next few months will be very telling 
for the program. That's because, within that period of time, 
key milestones must be met, including achieving first flight of 
the Navy's carrier variant no later than May, delivering Block 
1 software to the flight test aircraft, beginning flight 
training at Eglin Air Force Base (AFB), and completing 400 test 
flights by the end of the year.
    By midsummer, the Department's independent cost estimator 
will have provided a new cost estimate for the program. From 
our witnesses today, I would like to hear about any concerns 
that they may have about the program's ability to execute the 
restructured plan on time and at cost.
    While we're here to discuss combat tactical aviation, I 
would also like to engage the witnesses briefly on the long-
range bomber. From DOD's examination of the requirements 
supporting the long-range bomber, the Department appears 
interested in fielding a family of systems, each designed to 
conduct a specific type of mission originally envisioned for a 
new deep-penetrating bomber.
    With the recently completed Nuclear Posture Review (NPR) 
and the recently signed Strategic Arms Reduction Treaty 
(START), I would like today's witnesses to describe what role a 
next-generation bomber will play in the Air Force's overall 
strategy for developing long-range strike capability.
    Thank you, Mr. Chairman.
    Again, I look forward to hearing from our witnesses.
    Senator Lieberman. Thank you very much, Senator Thune. I 
look forward to working with you again this year, as we have in 
the past, in a real partnership, which obviously goes beyond 
party.
    Admiral Architzel, I think seniority, which, of course, I'm 
a great believer in, suggests that we call on you first.

   STATEMENT OF VADM DAVID ARCHITZEL, USN, PRINCIPAL DEPUTY, 
   OFFICE OF THE ASSISTANT SECRETARY OF THE NAVY (RESEARCH, 
 DEVELOPMENT, AND ACQUISITION); ACCOMPANIED BY LT. GEN. GEORGE 
  J. TRAUTMAN III, USMC, DEPUTY COMMANDANT FOR AVIATION, U.S. 
  MARINE CORPS; AND RADM DAVID L. PHILMAN, USN, DIRECTOR, AIR 
        WARFARE, OFFICE OF THE CHIEF OF NAVAL OPERATIONS

    Admiral Architzel. Thank you, Mr. Chairman.
    Chairman Lieberman and Senator Thune, distinguished members 
of the subcommittee, it's an honor to appear before you today 
to discuss the Department of the Navy's aviation procurement 
programs. Joining me today are Lieutenant General George 
Trautman, Deputy Commandant for Marine Corps Aviation, and Rear 
Admiral David Philman, Navy's Director for Air Warfare.
    With permission of the subcommittee, I propose to keep my 
opening remarks brief and submit a combined statement for the 
record.
    Senator Lieberman. Without objection.
    Admiral Architzel. Thank you, sir.
    The Department of the Navy's fiscal year 2011 budget 
requests funding to procure 206 aircraft: 103 fixed-wing, 100 
rotary, and 3 unmanned aerial vehicles (UAVs). Aviation 
programs represent the Department's greatest warfare 
investment. This year's programs continue recent trends, which 
have steadily increased our aviation procurement.
    In formulating our investment strategy, we are mindful to 
balance cost, schedule, and performance and risk, to ensure our 
ability to meet the warfighters' needs, both today and in the 
future.
    Specifically, we are leveraging stable procurement in 
rotary wing programs with continued procurement of the H-60 
Sierras and Romeos, H-1 helicopters, and MV-22 Ospreys. We're 
establishing a strong technical foundation and putting in place 
the tools to control costs for the P-8A Maritime Patrol 
Aircraft, E-2D Hawkeye, and the CH-53K Heavy Lift Replacement 
programs. We're investing in next-generation technologies and 
opportunities that come from unmanned aircraft systems.
    Our commitment to the JSF program is unequivocal. Now, 
within the framework of the restructured program, it's 
essential that we delivery the cost and schedule performance 
that matches our commitment to the program. While we are 
procuring the F/A-18 E, F, and G series production to include 
pursuing a multiyear procurement for 124 aircraft in fiscal 
year 2010 through 2013, we do so with an absolute commitment to 
the continuing development and ramping-up procurement of the F-
35 JSF.
    The Department has long recognized that to affordably meet 
our requirements also relies upon our ability to manage the 
service life of our aviation fleet. As an example, the P-3's 
sustainment, with Congress' help, we were able to ensure that 
those aging aircraft are able to meet our operational 
requirements while we await the arrival of the more capable 
aircraft.
    Similarly, the Department is aggressively managing service 
life on the legacy F/A-18 A-D aircraft and AV-8 Harrier, until 
their replacement by the JSF. To this end, we are initiating 
further steps to mitigate the impacts of delays associated with 
the restructured JSF program.
    Again, we thank the subcommittee for this opportunity to 
discuss Navy and Marine Corps aviation programs, and we look 
forward to your questions.
    [The joint prepared statement of Admiral Architzel, General 
Trautman, and Admiral Philman follows:]
Joint Prepared Statement by VADM David Architzel, USN, Lt. Gen. George 
     J. Trautman III, Marine Corps, and RADM David L. Philman, USN
                    naval aviation programs overview
    The fiscal year 2011 President's budget implements a 
recapitalization strategy for new capabilities and initiatives, reduced 
operating costs, and sustainment of legacy fleet aircraft that are 
performing magnificently in current operations. We are always aware 
that our decisions on programmatics, budgeting and procurement have a 
direct impact on the young men and women we send overseas to fight and 
win our Nation's wars, and providing the proper weapons systems for 
those warfighters is a charge we take very seriously.
    We continue to work with industry in seeking ways to reduce costs 
in production contracting strategies on the F/A-18 E/F, the H-1, the F-
35B, and F-35C, the MH-60R/S and the MV-22B. The Department of the Navy 
(DoN) continues the development and low rate procurement of the F-35 B 
and C models, E-2D Advanced Hawkeye, CH-53K Heavy Lift Replacement, 
unmanned aircraft systems and new strike weapons capabilities. In 
total, with our fiscal year 2011 funding, Navy and Marine Corps 
aviation will procure 103 tactical and fixed-wing aircraft, 100 rotary-
wing aircraft, and 3 MQ-8 vertical takeoff and landing unmanned aerial 
vehicles (VTUAVs) for a total of 206 aircraft.
              tactical aircraft/tactical aircraft systems
F-35 Joint Strike Fighter
    The DoN is committed to both the short takeoff vertical landing 
(STOVL) and carrier variant (CV) of the Joint Strike Fighter (JSF) as 
they are essential to our long-term Naval and Marine Corps Aviation 
strategy and the Nation's security. The fiscal year 2011 President's 
budget requests $1.4 billion in RDT&E and $4.7 billion in Aircraft 
Procurement, Navy (APN) for 20 JSF aircraft (13 F-35B and 7 F-35C) and 
associated aircraft hardware and spares. These resource requirements 
reflect the F-35 program's restructure recently approved by the 
Secretary of Defense.
    The commonality designed into the joint F-35 program will minimize 
operating costs of Navy and Marine Corps tactical aircraft, and allow 
enhanced interoperability with our sister service, the U.S. Air Force 
(USAF) and the eight partner nations participating in the development 
of this aircraft. The F-35 aircraft will provide combatant commanders 
greater flexibility across the range of military operations. A true 
fifth-generation aircraft, the JSF will enhance precision strike 
capability through unprecedented stealth, range, sensor fusion, radar 
performance, combat identification and electronic attack capabilities 
as compared to legacy platforms.
    It is important to stress that after the extensive review that led 
to the recent F-35 program restructure, no fundamental technology or 
manufacturing problems were discovered, nor were there any changes to 
F-35 performance requirements. It will also add sophisticated 
electronic warfare capabilities, as compared to the legacy platforms to 
be replaced, and will tie together disparate units scattered across the 
battlefield, in real time. All F-35 variants are projected to meet 
their respective Key Performance Parameters (KPPs).
    The F-35B STOVL variant combines the multi-role versatility and 
strike fighter capability of the legacy F/A-18 with the basing 
flexibility of the AV-8B and the potential for electronic warfare 
dominance of the EA-6B. The Marine Corps intends to leverage the F-
35B's sophisticated sensor suite and the very low observable (VLO) 
fifth-generation strike fighter capabilities, particularly in the area 
of data collection and information dissemination, to support the Marine 
Air-Ground Task Force (MAGTF) well beyond the abilities of today's 
MAGTF expeditionary attack, strike and electronic warfare assets. 
Having these capabilities in one aircraft will provide the joint force 
commander and the MAGTF commander unprecedented strategic and 
operational agility. The F-35C CV complements the F/A-18 E/F Block II 
and EA-18G in providing survivable, long-range strike capability and 
persistence in an access denied environment. The F-35B and F-35C will 
provide the Expeditionary Strike Group and Carrier Strike Group 
commanders a survivable, ``day-one'' strike capability in a denied 
access environment with the tactical agility and strategic flexibility 
to counter a broad spectrum of threats and win in operational scenarios 
that cannot be addressed by current legacy aircraft.
    Four System Development and Demonstration (SDD) jets (AF-1, BF-1, 
BF-2, and BF-3) are now in flight testing, while AA-1 has completed its 
flight testing requirements and awaits a live fire test at the Naval 
Air Warfare Center, China Lake. CF-1 is in the run station with an in-
service release engine. CF-2 has recently left the production line and 
is going through system checkout. BF-4 is currently in ground tests in 
Fort Worth and is expected to ferry to Naval Air Station (NAS) Patuxent 
River by May 7, 2010. The remaining SDD jets and ground test articles, 
plus low-rate initial production (LRIP) I, LRIP II, and LRIP III 
aircraft, are in various stages of production. With regard to the 
flight test program, the initial conventional takeoff and landing 
(CTOL) aircraft (AA-1) has demonstrated outstanding performance with 91 
sorties (126 flight hours) flown through March 2010.
    BF-1, the first STOVL flight test jet, has flown more than 40 
sorties, in preparation to its first vertical landing (VL) last month. 
It has demonstrated smooth and positive flight characteristics during 
transitions from conventional flight to slow speed flight and 
accomplished the first STOVL transition to a vertical landing flight on 
the 18th of March 2010. BF-2 has ferried to NAS Patuxent River and has 
completed 20 sorties with more than 34 hours of accumulated test time. 
BF-3 was ferried to NAS Patuxent River in February 2010 and completed 
its initial 14 test sorties and BF-4's first flight occurred last week. 
We have been pleased that the initial STOVL/F-35B test aircraft that 
have arrived at NAS Patuxent River have required little postflight 
work, as this demonstrates that the prime contractor is continuing to 
mature its production line.
    The F-35B structural testing that has been completed will enable 
expansion to the full STOVL envelope--though we have had recent 
challenges with the STOVL door operations we continue to fly as we 
investigate and make any required modifications. F-35C full scale drop 
test was started on March 4 at Vought Aircraft Test Laboratory in 
Dallas, TX. Structural drop testing of simulated carrier landings has 
demonstrated sink rates above those experienced during normal carrier 
landings. Testing continues to investigate variations in aircraft 
attitude, but data thus far has matched well with predictions. The 
mission systems testing completed to date has provided us additional 
confidence in F-35 integrated sensor functionality--and we plan to 
continue to further mature this fifth-generation integrated sensor 
performance during the next 12 months. Additionally, we have recently 
cleared BF-2 to utilize its on-aircraft speech recognition capability 
for flight test, which, when completed, promises to enhance warfighting 
capability and reduce pilot workload. The signature testing completed 
to date has built confidence in the VLO performance as we await the 
first full signature jet to demonstrate overall operational mission 
effectiveness.
    The DoN has taken special interest in the F-35 air/ship 
integration. Initial ship suitability testing has been completed and 
our computational fluid dynamic models are being validated to ensure 
the effects of F-35 propulsion systems on LH and CVN-class ships and 
ship systems are well understood and addressed. To date, there are no 
known air-ship integration issues which we cannot overcome; future test 
events will refine our integration efforts and validate our initial 
analysis. With respect to logistic support for test and deployment, 
dedicated aircraft/ship variant teams are in place, all known 
logistical risks have mitigation plans, and the test and operational 
use of our autonomic logistics and global sustainment (ALGS) systems 
will continue to shape and mature our global sustainment implementation 
plans with our eight partner countries.
    The initial operational capability (IOC) is determined by the 
Service based on both the program's performance and how the Service 
defines IOC. For the Marine Corps F-35B, IOC is defined as a squadron 
of ten aircraft able to execute the full range of TACAIR directed 
mission sets and to deploy on F-35B-compatible ships and to austere 
expeditionary sites and is projected to be 2012. The Marine Corps plans 
to IOC with a multi-mission capable Block 2B aircraft as described in 
the JSF Operational Requirements Document (ORD) CN-3. For the Navy F-
35C, IOC is projected to be 2016 and is based on three items: 
sufficient aircraft quantities, desired capability to conduct all ORD 
missions, to include, but not limited to: air interdiction (AI), 
offensive counter air (OCA), defensive counter air (DCA), close air 
support (CAS), suppression of enemy air defense/destruction of enemy 
air defenses (SEAD/DEAD) and CSAR in a denied, near-peer environment 
better than legacy aircraft; and completion of operational test of that 
capability. The current aircraft procurement rate is critical to 
enabling the necessary training requirements to stand up squadrons for 
both Marine Corps and Navy.
    The F135 propulsion system has begun the transition from 
development to production with the delivery of the first three LRIP I 
engines. Six additional production engines are in assembly and 
deliveries will ramp up to three engines per month by the third quarter 
of 2010. Notwithstanding this significant progress, we continue to 
focus on engine cost. The Office of the Secretary of Defense recently 
chartered a Joint Assessment Team (JAT) to investigate F135 cost and 
cost objectives. The JAT assessed that the F135 engine cost goals are 
achievable with the proper investment in cost reduction initiatives. 
The focus in the coming year will be to ensure the engine manufacturer 
and the government implement the necessary efforts to achieve the cost 
goals. The current LRIP IV engine proposal shows that the engine 
manufacturer has begun to reduce cost in alignment with the JAT 
assessments and recommendations.
F/A-18 Hornet
    TACAIR is made up of 1180 total aircraft, of which 88 percent are 
Navy and Marine Corps Hornets (20 Navy squadrons totaling 400 Super 
Hornets; 17 Navy and 13 Marine squadrons totaling 635 legacy A-D 
Hornets). Super Hornets and legacy Hornets have conducted over 130,000 
combat missions in support of Operations Iraqi Freedom (OIF) and 
Enduring Freedom (OEF) since September 11, 2001. While deployed both 
ashore and at sea aboard our aircraft carriers, F/A-18s have brought 
significant numbers of precision ordnance and laser-guided munitions to 
the fight, and have employed numerous rounds of 20mm ammunition 
supporting forces during strafing runs. These aircraft continue to 
provide vital overwatch and direct support to our troops on the ground 
in Iraq and Afghanistan.
F/A-18 A/B/C/D (Legacy) Hornet
    The fiscal year 2011 President's budget request is $258.0 million 
in APN for the continuation of the systems upgrade programs for the F/
A-18 platform. As the F/A-18 program transitions to the F/A-18 E/F and 
JSF, today's inventory of 635 F/A-18 A/B/C/Ds will continue to comprise 
more than half of the Navy's strike fighter inventory until 2013. In 
order to maintain a tactical advantage, we will procure and install 
advanced systems (Joint Helmet-Mounted Cueing Systems (JHMCS), Multi-
Function Information Distribution System (MIDS) and Advance Tactical 
Forward Looking Infra-Red) (ATFLIR)/LITENING) on selected F/A-18 A/B/C/
D aircraft. The requested funds will support the APG-73 radar 
obsolescence management program and procure APG-79 radars in order to 
replace APG-73 radars in early Block II Super Hornets, each a vital 
piece of the TACAIR mission for the near future.
    These funds will also procure and install centerbarrel 
modifications, which will be a major contributor to extending the 
service life of the F/A-18 C/D fleet from 6,000 to 8,000 hours and 
beyond. The Service Life Management Program (SLMP) continues to monitor 
and improve the health of the legacy F/A-18 A-D fleet through analyses 
of TACAIR inventories and the service life of each airframe.
    The Marine Corps will upgrade 56 Lot 7-9 F/A-18As and 30 Lot 10/11 
F/A-18Cs to a Lot 21 avionics capability with digital communications, a 
tactical data link, JHMCS, MIDS and LITENING. The Marine Corps will 
also upgrade 72 F/A-18D models' APG-73 radars with the Expand 4/5 
upgrade, providing an enhanced synthetic aperture radar (SAR) 
capability. The Marine Corps anticipates these upgrades will enhance 
the current capabilities of these aircraft with the digital 
communications, tactical data link and Advanced Tactical Airborne 
Reconnaissance Systems (ATARS) required for them to remain viable and 
relevant. The Marines expect the F/A-18 (A++/C/D) to remain in the 
active inventory until fiscal year 2022 and in the Reserve inventory 
until fiscal year 2023.
    The Marines are also employing the LITENING targeting pod on F/A-18 
A+/C/D aircraft in expeditionary operations including OEF. When 
combined with data link hardware, the LITENING pod provides real-time 
video to ground forces through Remotely Operated Video Enhanced 
Receiver (ROVER) and Video Scout ground workstations.
F/A-18 E/F Super Hornet
    The fiscal year 2011 President's budget requests $1.8 billion in 
APN-1 for 22 F/A-18 E/F Block II aircraft. The F/A-18 E/F continues to 
transition into the fleet, improving the survivability and strike 
capability of the carrier air wing. The Super Hornet provides a 40 
percent increase in combat radius, 50 percent increase in endurance and 
25 percent increase in weapons payload over the legacy Hornets. The 
program will complete procurement of the 515 budgeted aircraft in 2013. 
Production line shutdown will begin in fiscal year 2013 with the final 
shutdown occurring in fiscal year 2015.
    The APG-79 active electronically scanned array (AESA) radar system 
was installed in all production F/A-18 E/Fs and EA-18Gs beginning with 
Lot 30, and a retrofit program is modifying 135 Lot 26-29 Block IIs 
with APG-79 radars. All 458 Block II Super Hornets will be AESA 
equipped, providing the Super Hornet a significant increase in 
detection range, lethality and survivability over the legacy Hornets. 
AESA squadrons have been successfully deploying since 2008 and are 
highly valued by Fleet Commanders.
    The Super Hornet uses an incremental development approach to 
incorporate new technologies and capabilities--the JHMCS, ATFLIR (with 
shared real-time video), Shared Reconnaissance Pod System and MIDS 
datalink. The F/A-18 E/F fiscal year 2011 budget request also includes 
$84.4 million in APN to implement commonality, maintain capabilities 
and improve reliability and structural safety. The Navy continues to 
explore the possibility of a multiyear procurement for 124 F/A-18 E/F 
and EA-18G series aircraft (fiscal years 2010-2013) with the Secretary 
of Defense.
AV-8B Harrier
    The fiscal year 2011 budget requests $22.9 million in RDT&E funds 
to continue development of the AV-8B Readiness Management Plan (RMP), 
Digital Improved Triple Ejector Racks (DITER), and Engine Life 
Management Plan (ELMP) to include continued Accelerated Simulated 
Mission Endurance Testing (ASMET). The DITER effort will increase the 
digital weapons carriage capability of the Harrier and thereby support 
combat operations more effectively. The fiscal year 2011 budget also 
requests $19.4 million procurement funds for ELMP upgrades and the RMP, 
which addresses aircraft obsolescence and deficiency issues associated 
with sustaining the Marine Corps' AV-8B fleet.
    Today's Harrier--equipped with precision weapons, LITENING 
targeting pods with a video downlink to ROVER ground stations, and 
digitally-aided close air support (CAS) (Marine Tactical System (MTS) 
protocol)--has proven to be an invaluable asset for the MAGTF and joint 
commander across the spectrum of operations. The AV-8B program 
continues to address attrition recovery and other inventory sustainment 
efforts to mitigate significant legacy inventory shortfalls and 
obsolescence issues. The AV-8B continues to be deployed heavily in 
support of OEF and for other emerging operational contingencies; each 
Marine Expeditionary Unit (MEU) that sails does so with embarked AV-
8Bs. In 2009 the Harrier ended a highly successful 6-year rotation in 
Iraq; we then transitioned the aircraft to Afghanistan. There the AV-8B 
is supporting ground forces with its precision weapons, 25-millimeter 
cannon and sophisticated sensor suite. The Harrier has a proven combat 
record, and its weaponry and basing flexibility have been invaluable as 
we deploy it into the fight from the decks of L-class ship as well as 
ashore in the austere Afghanistan environment. Planned capability 
upgrades, obsolescence mitigation and readiness initiatives will ensure 
the AV-8B remains relevant, healthy and sustained through at least 
2022.
    Although the LITENING targeting pod is managed by the AV-8B program 
office, the pod is carried on all three Marine Corps TACAIR platforms. 
Building on its extensive and proven combat record, the Air Force and 
Marine Corps are upgrading the LITENING pod to the G4 (fourth 
generation) standard to support engaged Marine Corps, joint and 
coalition warfighters. The fiscal year 2011 budget requests $72.1 
million in procurement funding for Marine Corps expeditionary LITENING 
targeting pod upgrades, which include enhanced forward looking infra-
red (FLIR) and charge-coupled device (CCD) optics, a laser target 
imaging processor (LTIP), a more powerful video downlink transmitter, 
and improved ground moving target and air-to-air target tracking 
systems.
TACAIR Inventory Management
    In 2009, we estimated the DoN strike fighter shortfall (SFS) to be 
146 aircraft. With the changes in the fiscal year 2011 President's 
budget, the Strike Fighter Shortfall Analysis was updated and the peak 
DoN Shortfall rose from 146 to 177 aircraft--primarily due to the F-35 
delivery ramp reduction of 55 aircraft and removing the assumption of 
aircraft reaching 10,000 flight hours. Today, with the application of 
our management strategies and levers, the peak can be managed to about 
100 aircraft in 2018 by performing service life extension program 
(SLEP) to a number of aircraft.
    We are closely managing the flight hours and fatigue life of our 
tactical aircraft. Since 2004, we have provided guidance and actions to 
optimize aircraft utilization rates while maximizing training and 
operational opportunities. The F/A-18 A-D Inventory Management 
Forecasting Tool is used to project the combined effects of TACAIR 
transition plans, retirements, attrition and pipeline requirements on 
the total F/A-18 A-D aircraft inventory. The model is updated with the 
most recent data and forecasts the strike fighter inventory compared to 
the existing requirements. Critical model variables include JSF 
deliveries, force structure, usage rates, life limits, depot turnaround 
time, fatigue life expended (FLE), catapult launches and arrested 
landings, and field landings.
    Faced with an increased shortfall, the DoN has continued to 
identify further opportunities to reduce its impact. The Marine Corps 
has modified it's F-35 transition plan by transitioning some Hornet 
squadrons earlier and leveraging the service life remaining in the AV-
8B fleet. Management ``levers'' have been identified: accelerating the 
transition of 5 legacy F/A-18C squadrons to F/A-18 E/F; transitioning 2 
additional F/A-18C squadrons to F/A-18 E/F using the remaining 
attrition F/A-18 E/F Reserve aircraft; reducing the Navy Unit 
Deployment Program (UDP) and Marine Corps Expeditionary F/A-18 A+/C/D 
squadrons from 12 to 10 aircraft per squadron. Some of these measures 
are dependent on reduced demand in Global Force Management (GFM) 
requirements.
    We are continuing to perform high flight hour (HFH) inspections to 
extend the service life limits of F/A-18 A-D aircraft from 8,000 to 
8,600 flight hours. Analysis revealed that extensive areas of the 
legacy F/A-18 airframe require SLEP inspections and modifications in 
order to reach the service life goals of 10,000 hours. The F/A-18 A-D 
SLEP engineering development program will complete in 2012. Together 
these efforts can extend the F/A-18 A-D service life and reduce the 
impact of the strike fighter shortfall.
    The 146 Marine Corps AV-8B aircraft (in seven squadrons) currently 
are not challenged by FLE as are the DoN's F/A-18 aircraft. However, 
continued investment in engine sustainment, in avionics and in managing 
airframe component obsolescence are critical to ensuring these aircraft 
remain viable contributors to the TACAIR transition. Continued 
investment in program related engineering (PRE)/program related 
logistics (PRL) in the Operation and Maintenance, Navy (OMN) is 
critical for sustaining the combat relevancy of the DoN's legacy 
platforms through the TACAIR transition.
    The DoN long-term shortfall reduction strategies will be addressed 
in the fiscal year 2012 President's budget development. Currently, 
items under review are the F/A-18 A-D SLEP and opportunities for 
optimizing depot turn around times. We will continue to explore other 
mitigation alternatives. Applying the mitigation levers available to us 
and considering long-term strategies such as SLEP, the DoN believes the 
strike fighter shortfall is manageable.
Airborne Electronic Attack (AEA)/EA-18G Growler
    The fiscal year 2011 President's budget request is $22.0 million in 
RDT&E,N for correction of deficiencies and $1.0 billion in APN for 12 
full-rate production (FRP) EA-18G aircraft. The program completed 
operational evaluation in May 2009. The Fleet Replacement Squadron 
(FRS) has achieved ready for training (RFT) and the first deployable 
EA-18G squadron achieved safe for flight in September 2009. Initial 
operating capability (IOC) was achieved in September 2009 and a 
favorable FRP decision was obtained in November 2009.
    The EA-18G began replacing carrier-based Navy EA-6B aircraft in 
2009 and is currently programmed to continue these transitions through 
2014. A total of 34 aircraft have been procured to date. As directed by 
the Quadrennial Defense Review (QDR), the Navy will procure an 
additional 26 EA-18G aircraft across the FYDP to increase joint force 
capacity to conduct expeditionary electronic attack, increasing the 
program of record to 114. These additional aircraft will be utilized to 
fill the Navy's four expeditionary electronic attack squadrons 
currently using the legacy EA-6B Prowler.
    The Navy is completing an analysis of alternatives (AoA) to 
determine the best path forward for the Next Generation Jammer (NGJ). 
The NGJ will replace the ALQ-99 pods currently flown on the EA-18G and 
EA-6Bs and will provide the Office of the Secretary of Defense (OSD) 
and the Services an opportunity to introduce a comprehensive electronic 
attack capability to the EA-18G as well as all variants of the F-35 
JSF.
Airborne Electronic Attack (AEA)/EA-6B Prowler
    The fiscal year 2011 President's budget request includes $24.3 
million in RDT&E for electronic warfare counter response, $33.8 million 
in APN for common AEA systems and $29.9 million in APN for all EA-6B 
series aircraft. Currently there are 92 EA-6Bs in the DoN to support 61 
operational aircraft in 14 Active component squadrons and one Reserve 
component squadron. This includes 76 Navy and Marine Corps ICAP II 
aircraft and 16 Navy improved capability (ICAP) III aircraft. The 
replacement of Navy EA-6B aircraft with EA-18G was expected to be 
completed in 2012; however, the Navy now plans to complete its EA-6B 
program of record in 2014.
    The Marine Corps currently has 20 operational EA-6B ICAP II 
aircraft in 4 VMAQ squadrons. Overseas Contingency Operations (OCO) 
funds were used to purchase 16 ICAP III modification kits and 
installations. The transition to the ICAP III aircraft began in March 
2010 and is planned to complete in 2013. As the Navy transitions ICAP 
III squadrons to EA-18G, those aircraft will be transferred to the 
Marine Corps. Once the transition is complete, the Marine Corps will 
have 32 ICAP III to support its EA-6B program of record through 2019. 
Aircrew training for the DoN will be conducted at VAQ-129 through 2014. 
Once the Navy has completed its transition from the EA-6B, the Marine 
Corps may be required to establish a Fleet Replenishment Squadron (FRS) 
to support its program of record.
    Marine Prowlers have been employing the LITENING targeting pod in 
expeditionary operations including OEF. When combined with data link 
hardware, the LITENING pod provides real-time video to ground forces 
through ROVER workstations. Additionally, the Collaborative On-line 
Reconnaissance Provider/Operationally Responsive Attack Link (CORP/
ORAL) Joint Combat Technology Demonstration (JCTD) is demonstrating the 
concept of networked, on-demand intelligence, surveillance, and 
reconnaissance (ISR) and electronic warfare from manned and unmanned 
platforms utilizing the link capabilities in LITENING pods.
E-2D Advanced Hawkeye (AHE)
    The E-2D AHE replaces the current E-2C Hawkeye aircraft. E-2D will 
be a critical enabler of transformational ISR capability and one of the 
pillars of theater air and missile defense. Its radar will provide 
enhanced detection and surveillance capability in overland, littoral 
and open ocean environments.
    The fiscal year 2011 President's budget requests $171.1 million in 
RDT&E,N for continuation of SDD and $937.8 million in APN for four LRIP 
III aircraft and advanced procurement for fiscal year 2012 LRIP IV 
aircraft.
    A Milestone C decision was achieved in the third quarter of 2009 
and a contract awarded for two LRIP I aircraft. In fiscal year 2010 
Congress appropriated $742.1 million APN for three LRIP II aircraft and 
advanced procurement for fiscal year 2011 LRIP III aircraft.
T-6B Joint Primary Aircraft Training System (JPATS)
    The T-6 is the primary flight training aircraft for Navy and Marine 
Corps pilots and naval flight officers (NFO), replacing the T-34C. The 
current requirement is for 315 aircraft, of which 161 aircraft have 
been procured and 60 aircraft delivered to date. Of those 60 aircraft, 
6 are the newer T-6B aircraft which is the upgraded avionics variant of 
the T-6A. The fiscal year 2011 President's budget request includes 
$266.1 million to procure 38 aircraft under a USAF contract. The JPATS 
program delivered the first two T-6B aircraft to the Navy in August 
2009. The program is on track for T-6B IOC in April 2010 at NAS Whiting 
Field, FL. Funding requested in the President's budget will also 
support the critical sustainment of the TH-57, the training helicopter 
for Navy and Marine Corps helicopter pilots, and of the T-45, the 
Navy's training jet for future jet pilots and naval flight officers.
                      attack/surveillance aircraft
P-8A Poseidon
    The future of the Navy's maritime patrol force includes plans for 
sustainment, modernization, and re-capitalization of the force. The P-
8A Poseidon is the replacement aircraft for the P-3C Orion. The fiscal 
year 2011 President's budget requests $929.2 million in RDT&E for 
development and $1.991 billion in APN for procurement of seven P-8 
Poseidon aircraft. Fiscal year 2011 development funding will support 
the continued development of the P-8A and associated testing. Fiscal 
year 2011 funds support the procurement of the seven LRIP P-8A aircraft 
which are scheduled to begin delivery in January 2013 and advanced 
procurement for the subsequent LRIP. The program is on track for IOC in 
late 2013 when the first squadron will have transitioned and be ready 
to deploy forward in support of the combatant commander. The P-8A 
program is meeting all cost, schedule and performance parameters in 
accordance with the Acquisition Program Baseline (APB).
    The program completed the interim program review in April 2009 and 
awarded the advanced acquisition contract for LRIP advanced 
procurement. The first five test articles (three flight test aircraft 
and two ground test articles) are on schedule for delivery. Boeing has 
completed fabricating the first five of eight test aircraft. The 
remaining three flight test aircraft will commence fabrication this 
year. The first test flight using T-1, the airworthiness test aircraft, 
occurred on October 15, 2009, in Seattle, WA. After an initial period 
of flight testing T-1 completed its last phase of installation and 
check-out for the aircraft instrumentation system. The program is 
currently undergoing ground testing in preparation for resuming flight 
tests in April 2010.
P-3C Orion
    In fiscal year 2011, $228.0 million is requested to sustain the P-
3C until transition to the P-8A. More than half of this amount ($153.5 
million) is for wing modifications, which will allow airframe 
sustainment to support the CNO's P-3 Fleet Response Plan, as well as 
supporting EP-3E requirements, which are executed within the P-3 
Airframe Sustainment Program. The P-3 is being sustained to keep the 
aircraft a viable warfighter until it is replaced by P-8. Results of 
the P-3 Service Life Assessment Program (SLAP) revealed the need for an 
aggressive approach to P-3 airframe sustainment. The aircraft is well 
beyond planned fatigue life of 7,500 hours for critical components, 
with an average airframe usage of 16,000 hours.
    In December 2007, ongoing refinement of the model used to calculate 
wing stress indicated that the lower aft wing surface (Zone 5) of the 
P-3 aircraft had fatigue beyond standards for acceptable risk resulting 
in the grounding of 39 P-3 aircraft. As of March 31, 2010 a total of 49 
aircraft have been grounded for Zone 5 fatigue. There have been 15 
Zone-5 modifications completed and the aircraft returned to the fleet; 
there are 34 Zone-5 aircraft in work. Current mission aircraft 
availability is 62. Key elements of the sustainment approach are strict 
management of requirements and flight hour use, special structural 
inspections to keep the aircraft safely flying, and increased use of 
simulators to satisfy training requirements. In fiscal year 2011, a 
systems sustainment and modernization budget of $74.5 million is 
requested to continue to address a multitude of mission essential 
efforts to replace obsolete components, integrate open architecture 
technology, and leverage commonality.
    The Navy will continue to closely manage the service life of the P-
3C as the Maritime and Patrol Reconnaissance Forces transition to the 
P-8A Poseidon. Until force levels recover, allocations of aircraft must 
be balanced to meet mission and minimum training while preserving 
remaining P-3C service life. Currently, P-3Cs are meeting combatant 
commander allocations for deployed aircraft.
EP-3 Aries Replacement/Sustainment
    The EP-3E continues to be a high demand ISR asset in current OCO. 
In fiscal year 2011, the President's budget request is $90.3 million in 
APN to address EP-3E signals intelligence (SIGINT) and communications 
obsolescence. This APN request supports the LRIP buy for communications 
intelligence modifications necessary to pace the evolving threat. The 
EP-3E program continues to modify aircraft with multi-intelligence 
capability to meet emergent classified requirements. Modifications are 
necessary to keep the platform viable until the replacement platform 
can be fielded.
    Navy removed funding for EP-X in PR-11 and terminated the program, 
based on the high cost in the Program Objective Memorandum (POM) fiscal 
year 2010 acquisition strategy. Navy and OSD realize the critical 
capability gaps that exist with legacy systems/sensors, which led to 
OSD direction to conduct an AoA for this future airborne ISR 
capability. AoA results are due in April 2010 in order to inform POM-12 
decisions on how this necessary and comprehensive ISR capability can be 
met using either a single material solution or multiple solutions 
(system of systems). Navy will develop an achievable acquisition 
strategy to procure known and affordable technology to satisfy future 
requirements.
    As stated in the administration's proposed fiscal year 2011 budget, 
``Once the Department completes its review, the most efficient and cost 
effective program for replacing the current surveillance aircraft, the 
EP-3, can be selected.'' In the interim, Navy will continue to replace 
obsolete equipment with mission-critical sensor improvements on board 
the EP-3 to support US and coalition forces currently engaged in OCO. 
As a result, the current EP-3 fleet will be capable of performing its 
mission beyond 2020 while the replacement capability is developed and 
fielded.
MH-60R and MH-60S
    The fiscal year 2011 President's budget requests $1.059 billion for 
24 MH-60R aircraft including advanced procurement for 24 fiscal year 
2012 aircraft, and $55.8 million in RDT&E,N for continued replacement 
of the Light Airborne Multi-Purpose System (LAMPS) MK III SH-60B and 
carrier-based SH-60F helicopters with the MH-60R. The $55.8 million is 
to continue development of the Ku-band data link, automatic radar 
periscope detection and discrimination (ARPDD) program, which is a 
fleet-driven capability upgrade to the APS-147 Radar, and Mode V 
interrogation capability in its identification friend-or-foe (IFF) 
system. The MH-60R is used in both anti-submarine warfare (ASW) with 
its dipping sonar, sonobuoys and torpedoes and in the surface warfare 
(SUW) role with its electronics surveillance measures system, multimode 
radar with inverse synthetic aperture radar (ISAR), FLIR system and 
Hellfire missiles. It has demonstrated three to seven times the 
capability in the ASW role and significant increases in its SUW 
capability over legacy systems. The MH-60R program is post-milestone 
III, having received approval for FRP in 2006. The first operational 
squadron, HSM-71, returned from a successful deployment in carrier 
strike group aboard the USS John C Stennis (CVN-74) in July 2009. There 
are currently three operational carrier air wing squadrons and two 
fleet replacement squadrons operating the MH-60R. Two additional 
operational squadrons will transition or standup by the end of fiscal 
year 2011.
    The fiscal year 2011 President's budget requests $548.7 million in 
APN for 18 MH-60S aircraft including advanced procurement for 18 fiscal 
year 2012 aircraft and $38.9 million in RDT&E, N funds for the MH-60S 
to continue development of the organic airborne mine countermeasures 
(OAMCM) (Block II) and the armed helicopter (Block III) missions. The 
MH-60S is the Navy's primary combat support helicopter designed to 
support carrier and expeditionary strike groups. It will replace four 
legacy platforms with one H-60 variant. The basic MH-60S reached IOC 
and FRP in 2002. Armed helicopter configuration reached IOC in June 
2007 and OAMCM is scheduled to reach IOC in fiscal year 2011. HSC-8 
completed its first carrier deployment with Carrier Strike Group aboard 
the USS John C Stennis (CVN-74) from January to July 2009. HSC-9 
operated eight helicopters, including six aircraft in the armed 
helicopter configuration which includes the multi-spectral targeting 
system (MTS) FLIR, Link-16, self defense equipment, two 50 caliber 
crew-served weapons and 8 Hellfire missiles.
    The Army and Navy are executing a joint platform multiyear contract 
that includes both the MH-60R and MH-60S airframes along with the 
Army's UH-60M. The Navy is also executing a multiyear contract for 
integration of mission systems into the MH-60R.
                   light attack and utility aircraft
UH-1Y Venom/AH-1Z Viper
    The H-1 Upgrades Program is replacing the Marine Corps' UH-1N and 
AH-1W helicopters with state-of-the-art UH-1Y and AH-1Z aircraft. The 
legacy aircraft have proven enormously effective over decades of heavy 
use, and as these aircraft reach the end of their service lives we look 
forward to expanding utility and attack helicopter capabilities. The 
new Yankee and Zulu aircraft are fielded with integrated glass 
cockpits, world-class sensors and advanced helmet-mounted sight and 
display systems. The future growth plan includes a digitally-aided 
close air support (CAS) system designed to tie these airframes, their 
sensors and their weapons systems together with ground combat forces 
and fixed-wing aircraft. Low-cost weapons systems currently in 
development, such as the Advanced Precision Kill Weapon System II 
(APKWS II), will provide lethality while reducing collateral damage.
    The fiscal year 2011 budget requests $60 million in RDT&E,N for 
continued product improvements and $827 million in APN for 31 H-1 
Upgrades aircraft (18 UH-1Y, 10 baseline AH-1Z, and 3 AH-1Z OCO 
aircraft). The program is a key modernization effort designed to 
resolve existing safety deficiencies, enhance operational 
effectiveness, and extend the service life of both aircraft. 
Additionally, the 84 percent commonality between the AH-1Z and UH-1Y 
will significantly reduce lifecycle costs and logistical footprint, 
while increasing the maintainability and deployability of both 
aircraft. The program will provide the Marine Corps with 123 UH-1Y and 
226 AH-1Z helicopter models through a combination of remanufacturing 
and new production. This represents an increase of 69 aircraft above 
the previous inventory objective of 280 aircraft. The revised objective 
was driven by the need to increase our active-duty Marine light attack 
helicopter squadrons (HMLAs) from six to nine as part of the Marine 
Corps' directed increase in force structure and manning. This increase 
in active-duty HMLA squadrons started in fiscal year 2009 and will 
conclude with the stand-up of HMLA-567 in fiscal year 2011.
    The UH-1Y Venom aircraft achieved IOC in August 2008 and FRP in 
September 2008. The UH-1Y program was given priority status in order to 
replace the under-powered UH-1N fleet as quickly as possible. AH-1Z 
testing and LRIP continues, with an operational evaluation (OT-II3C) 
starting later this month. The AH-1Z Viper's FRP decision is scheduled 
for the first quarter of fiscal year 2011. 58 AH-1Zs will be built new 
to support the increased inventory objective, which exceeds the 
quantity of existing AH-1W airframes available for remanufacture. As of 
March 2, 2010, a total of 33 aircraft (25 UH-1Ys and 8 AH-1Zs) have 
been delivered to the Fleet Marine Force, and an additional 36 aircraft 
are on contract and in production. To date, all fiscal year 2009 and 
2010 aircraft deliveries have been 30 days or more ahead of contract 
date and the program has not shown any significant impacts from the 
summer 2009 labor strike at Bell Helicopter.
    In 2009, the Marine Corps successfully executed the first UH-1Y 
shipboard deployment, with three UH-1Ys deployed with the 13th MEU. 
During this deployment, those three aircraft flew over 600 flight hours 
and posted mission capable rates in excess of 76 percent, while 
supporting a variety of maritime special-purpose force missions to 
include the rescue of Captain Phillips of the Maersk Alabama from the 
Somali pirates.
    The second UH-1Y deployment, with nine of these aircraft deployed 
into combat in Afghanistan, began in November 2009. In the first 3 
months of that second deployment, HMLA-367 posted UH-1Y mission capable 
rates in excess of 77 percent while flying an average of 40 flight 
hours per aircraft per month. This is more than twice the planned 
utilization rate of 18.9 hours per aircraft per month. In just 3 months 
those aircraft lifted over 800 passengers and 15,000 pounds of cargo 
and responded to more than 650 calls from ground forces for assault 
support and offensive air support. The crews flying these new aircraft 
have not missed a single assigned launch to date and played a critical 
role in providing troop and cargo transport, command and control, 
aerial and armed reconnaissance, armed escort, and close air support 
during Operation Cobra's Anger in the Now Zad valley of Helmand 
Province.
                        assault support aircraft
CH-46E Sea Knight
    The fiscal year 2011 budget requests $17.7 million for CH-46 
sustainment targeted at replacing worn equipment and aircraft 
components that will ensure the health and viability of the airframe as 
we progress through the transition to the MV-22B Osprey. Our medium 
lift evolution to the MV-22B is progressing on schedule, with 50 
percent of our medium lift fleet having begun or successfully completed 
the transition. The CH-46E continues to perform well and is prepared to 
maintain operational relevance through its projected retirement in 
2018.
V-22B Osprey
    The fiscal year 2011 President's budget request includes $2.7 
billion for procurement of 35 V-22s and for continued development of 
follow-on block upgrades. Fiscal year 2011 is the fourth year of the V-
22 multiyear procurement contract. Our multiyear procurement strategy 
supports a continued cost reduction and affordability trend, provides a 
stable basis for industry, and best supports the needs of the 
warfighter. The fiscal year 2011 appropriations will fully fund Lot 15 
and procure long-lead items for Lot 16 under the V-22 multiyear 
contract. Over the past 12 months, Bell-Boeing has continued to 
consistently perform better than required on production contracts, 
delivering aircraft on or ahead of schedule. The Marine Corps continues 
to field and transition aircraft on time.
    The MV-22B Osprey is now combat tested and forward deployed 
supporting combat operations and responding to contingencies around the 
world. As our premier medium lift assault support platform, the Osprey 
brings unprecedented range, speed and survivability to the warfighter, 
in a platform that far exceeds the capabilities of the CH-46E it is 
replacing. The MV-22B has been continuously supporting our marines, in 
combat and in contingencies, since October 2007. During three 
consecutive squadron deployments in support of Operation Iraqi Freedom 
(OIF) (fiscal year 2008-2009), Osprey squadrons logged over 9,000 
flight hours, carried over 40,000 passengers, and lifted over 2 million 
pounds of cargo while flying every mission profile assigned by the 
Multi-National Force-West Commander. The MV-22B also completed its 
first shipboard deployment as part of a marine expeditionary unit (MEU) 
last November, capping its 6-month deployment by flying 510 nautical 
miles from USS Bataan (LHD-5) to Camp Bastion, Afghanistan. The 
shipboard squadron conducted a relief in place with another squadron to 
begin support of OEF.
    The Osprey continues to redefine the speed and range at which the 
MAGTF commander can influence his operational area. The second MV-22B 
shipboard deployment is currently underway supporting humanitarian 
relief efforts in Haiti and follow-on presence in the U.S. Central 
Command area of operations. The CV-22 program has conducted multiple 
SOCOM deployments, including a successful trans-Atlantic operational 
deployment in support of operations in Africa and at locations in 
CENTCOM.
    As we continue to explore the tremendous capabilities of tilt-rotor 
aircraft, we are learning valuable lessons with respect to readiness 
and operating costs. As of December 2009, the V-22 had exceeded 70,000 
total flight hours. More flight hours have been flown on this aircraft 
in the last 2 years than in the previous 18 years combined. Like other 
types of aircraft in the early operational phase of their lifecycles, 
the MV-22 has experienced lower-than-desired reliability of some 
components and therefore higher operations and support costs. Despite 
our readiness challenges, the MV-22 squadron in Afghanistan continues 
to meet mission tasking through hard work and aggressive sparing. We 
are meeting mission, but only at supply, maintenance, and operating 
costs that are inconsistent with our expeditionary nature and cost-
conscious culture.
    Fleet wide, our Block B combat deployable aircraft averaged 
approximately 60 percent mission capable (MC) in Continental United 
States (CONUS) for 2009. With focused logistical support provided to 
our deployed aircraft, however, we average nearly 7 of 10 aircraft 
available on a daily basis in Afghanistan. This compares favorably with 
the 71.6 percent availability over 18 months of operations in Iraq, and 
71.0 percent availability for aircraft in the 22nd MEU. With the 
cooperation and support of our industry partners, we are tackling these 
issues head on, with aggressive logistics and support plans that will 
increase the durability and availability of the parts needed to raise 
reliability and concurrently lower operating costs of this aircraft.
    V-22 capability is being increased and fielded over time via a 
block upgrade acquisition strategy. MV-22B Block A aircraft are now 
used predominantly in training squadrons. 61 MV-22B Block B aircraft 
have been fielded with our operational squadrons and more will continue 
to be delivered under the current MYP. MV-22B Block C aircraft will 
provide additional mission enhancements, primarily in the areas of 
environmental control systems upgrades, weather radar, and mission 
systems improvements. The targeted delivery for Block C aircraft is Lot 
14, in fiscal year 2012.
CH-53K Heavy Lift Replacement Program
    In fiscal year 2011 the President's budget requests $577 million 
RDT&E,N to continue SDD of the CH-53K. In the past year, the CH-53K 
program closed out its preliminary design review (PDR), has begun 
producing long-lead items in preparation for building test articles 
under the SDD contract, and is scheduled to conduct critical design 
review (CDR) in July 2010. In fiscal year 2011, the program transitions 
to assembly of the static and fatigue test articles and of the ground 
test vehicle and continues developmental test activities.
    During fiscal year 2009, the program encountered a schedule delay 
(and associated growth to program cost due to the delay), driven 
primarily by an overly aggressive initial program schedule. It is 
important to note that these delays were not driven by technical 
issues, and the program remains on a sound technical footing as it 
enters CDR later this year. Additionally, the program has corrected the 
planning issues that caused those delays and is now maintaining cost 
and schedule performance. This program is not in danger of breaching 
Nunn-McCurdy thresholds. The requested funds will permit an orderly 
restructuring of the program leading to IOC in fiscal year 2018.
    The new build CH-53K will replace the current legacy fleet of CH-
53D and CH-53E helicopters with an aircraft that provides the 
performance necessary to support our future warfighting requirements. 
The CH-53D Sea Stallion and CH-53E Super Stallion provide unparalleled 
combat heavy lift to the MAGTF and are among the Marine Corps most-
stressed aviation communities. CH-53s, providing vital lift of heavy 
equipment, supplies and troops, are currently deployed in Afghanistan, 
the Horn of Africa and Haiti, and are flying with MEU. Since ramping up 
operations in Afghanistan in May 2009, these aircraft have flown nearly 
11,000 hours, carried more than 62,000 passengers, and moved over 10 
million pounds of cargo in support of coalition forces in Afghanistan 
and the Horn of Africa, while flying well above their programmed rates 
in austere, expeditionary conditions.
    To keep these platforms viable until the CH-53K enters service, the 
fiscal year 2011 budget requests $62.1 million for both near- and mid-
term enhancements, including the Force XXI Battle Command Brigade and 
Below, Integrated Mechanical Diagnostic System, T-64 Engine Reliability 
Improvement Program kits and Directed Infrared Countermeasures. While 
these aircraft are achieving unprecedented operational milestones, they 
are nearing the end of their service life; the CH-53E is approaching 30 
years of service and the CH-53D has been operational for almost 40 
years.
    Ultimately, these aircraft will be incapable of supporting the 
Marine Corps' future warfighting concepts and will be replaced by the 
CH-53K. The new-build CH-53K will fulfill land- and sea-based heavy-
lift requirements not resident in any of today's platforms, and 
contribute directly to the increased agility, lethality, and presence 
of joint task forces and MAGTF. The CH-53K will transport 27,000 pounds 
of external cargo out to a range of 110 nautical miles, nearly tripling 
the CH-53E's lift capability under similar environmental conditions 
while fitting under the same shipboard footprint. The CH-53K will also 
provide unparalleled lift capability under high altitude, hot weather 
conditions similar to those found in Afghanistan, thereby greatly 
expanding the commander's operational reach.
    Maintainability and reliability enhancements of the CH-53K will 
decrease recurring operating costs significantly, and will improve 
aircraft efficiency and operational effectiveness over the current CH-
53E. Additionally, survivability and force protection enhancements will 
increase protection dramatically, for both aircrew and passengers, 
thereby broadening the depth and breadth of heavy lift operational 
support to the Joint Task Force (JTF) and MAGTF commander. 
Expeditionary heavy-lift capabilities will continue to be critical to 
successful land- and sea-based operations in future anti-access, area-
denial environments, enabling seabasing and the joint operating 
concepts of force application and focused logistics.
                       executive support aircraft
VH-71/VXX Presidential Helicopter Replacement Aircraft
    The fiscal year 2011 President's budget includes $94.7 million for 
the settlement of the VH-71 termination, and $65.1 million for 
continuing efforts on VXX, the follow-on program for presidential 
helicopters.
    Receipt of the VH-71 termination proposal is anticipated late in 
fiscal year 2010 with negotiations and the anticipated settlement 
expected in fiscal year 2011. The Navy is currently working closely 
with DCMA in a complex effort to disposition all the assets acquired as 
part of the VH-71 program cancellation. The majority of VH-71 specific 
tooling has been sold back to Agusta-Westland in Europe. The process to 
disposition non-aviation related assets is well underway in the United 
States, and is beginning in Europe. The Navy has begun preliminary 
negotiations with various operators of the EH-101 and other Federal 
entities concerning disposition of VH-71 aircraft and parts.
    VXX activity will include continuing effort that began in fiscal 
year 2010, specifically the AoA, capability based assessments, concept 
of operations development, trade study analysis, specification 
development, system concept development and threat analysis leading to 
a successful Milestone A decision. Following Milestone A and beginning 
the technology development phase, remaining fiscal year 2011 activities 
will focus on the proposed material solutions, specifically, reducing 
technology risk by determining and maturing the appropriate set of 
technologies and demonstrating technology on prototypes.
    The VXX AoA will address all feasible options with a holistic 
assessment of requirements, capabilities, cost drivers, schedule 
implications, and risks. The requirement for a replacement presidential 
helicopter was validated by the Joint Requirements Oversight Council; 
however, the details and specifications on how the requirement will be 
safely and affordably met have not been finalized. As a first step in 
the process to determine how best to satisfy the need to transport the 
President, data will be analyzed and matured by the government study 
team into executable alternatives. This AoA process is underway and 
will support the development of an acquisition strategy, at which time 
cost/capability trades will be made.
VH-3D/VH-60N Executive Helicopters Series
    The fiscal year 2011 budget requests an investment of $43.4 million 
to continue programs that will ensure the aging legacy presidential 
fleet remains viable until its replacement is fielded. Ongoing efforts 
include the Cockpit Upgrade Program (CUP) for the VH-60N and 
Communications Suite Upgrade (CSU), Structural Enhancement Program 
(SEP), and Obsolescence Management Program (OMP) for both the VH-3D and 
VH-60N. Current service life extension analyses for both VH-3 and VH-60 
fleets are underway with results expected in early fiscal year 2011. 
The Trainer Conversion Program will start in fiscal year 2011 and will 
reduce training usage significantly on our VH-3D and VH-60N national 
assets. Future investments in the legacy fleet will be required to 
ensure continued safe and reliable executive transportation until the 
replacement aircraft is fielded.
                                weapons
Joint Standoff Weapon (JSOW)
    The fiscal year 2011 President's budget requests $12.6 million for 
continued JSOW-C-1 developmental activity and $131.1 million for 
production for 333 all-up rounds. While these much needed procurements 
will help meet the fleet's weapons loadout requirements, JSOW continues 
to remain below approved non-nuclear ordnance requirements. Development 
of the JSOW-C-1 variant adds a moving maritime target capability to the 
highly successful baseline JSOW-C, and adds a data link and guidance 
software improvements. The combat-proven JSOW family of weapons 
procurement continues on cost and schedule.
Small Diameter Bomb II (SDB II)
    The fiscal year 2011 President's budget requests $44.1 million of 
RDT&E for the continued development of this joint DoN/Department of the 
Air Force program. SDB II provides an adverse weather, day or night 
standoff capability against mobile, moving, and fixed targets, and 
enables target prosecution while minimizing collateral damage. SDB II 
is of special interest to the DoN, as it will be integrated into the 
internal carriage of both the Navy (F-35C) and Marine Corps (F-35B) 
variants of the JSF. SDB II acquisition consists of a competitive 
development risk reduction phase between two industry teams, with a 
down-select at Milestone B planned for the third quarter fiscal year 
2010.
Direct Attack Moving Target Capability (DAMTC)
    The fiscal year 2011 President's budget requests $21.7 million for 
the completion of production acceptance testing and an initial order of 
700 weapons. DAMTC was originally initiated as a fiscal year 2007 Rapid 
Deployment Capability in response to an urgent requirement identified 
by the combatant commander overseeing operations in Iraq and 
Afghanistan. DAMTC improves the warfighter's ability to attack and 
strike moving targets by leveraging highly successful dual-mode 
systems.
Advanced Anti-Radiation Guided Missile (AARGM)
    The fiscal year 2011 President's budget requests $7.8 million for 
the follow-on development and test program and $54 million for 
production. The AARGM development program transforms the legacy High-
speed Anti-Radiation Missile (HARM) into an affordable, lethal, and 
flexible time-sensitive strike weapon system. AARGM adds multi-spectral 
targeting capability with supersonic fly-out to destroy sophisticated 
enemy air defenses and expand upon the traditional anti-radiation 
missile target set. The program began its formal test program in fiscal 
year 2007 and was approved for LRIP in fiscal year 2008. Initial 
operational test and evaluation (IOT&E) is  scheduled  to  begin  in  
the  third  quarter  of  fiscal  year  2010,  with  IOC  on  the  F/A-
18C Hornet in 2011.
Advanced Precision Kill Weapon System II (APKWS II)
    The fiscal year 2011 President's budget requests $8.8 million of 
PAN,MC for procurement of 600 APKWS II precision guidance kits. The DoN 
assumed program authority for the APKWS II on September 30, 2008. 
Congress appropriated funding and approved a DoN above-threshold 
reprogramming (ATR) request in fiscal year 2008 to complete APKWS II 
SDD. Integrated test completed in January 2010. Milestone-C was 
completed March 29, 2010. IOC is planned for the second quarter of 
fiscal year 2011. APKWS II will provide an unprecedented precision 
guidance capability to our current unguided (and thus less accurate) 
rockets, improving accuracy and minimizing collateral damage. The 
program is on schedule and on budget to meet the needs of our 
warfighters in today's theaters of operations.
Joint Air-to-Ground Missile (JAGM)
    The fiscal year 2011 President's budget requests $100.8 million of 
RDT&E to support the continued development of this critical weapons 
program. JAGM will become the next-generation precision-guided missile 
launched from Navy and Marine Corps fixed-wing, rotary-wing, and 
unmanned platforms. The DoN, in conjunction with the United States Army 
(Executive Service), received formal approval to proceed with the 
development of the JAGM in January 2008. JAGM is the first weapons 
program to be developed under the new competition and prototyping 
strategy, intended to improve program success rates and reduce costs. 
In September 2008, fixed price incentive contracts were awarded to two 
industry teams. During a 27-month technology development phase, these 
two competing contractors will carry their design through a system-
level preliminary design review phase and will conduct ground launches 
of their prototype missiles.
Hellfire Weapon System
    The fiscal year 2011 President's budget requests $109.5 million, 
including $66.0 million of OCO funding, for 1,219 Hellfire all-up-round 
weapons. Hellfire procurements are a mix of thermobaric, blast/
fragmentation, and anti-armor warheads, to provide maximum operational 
flexibility to our warfighters. This procurement quantity will bring 
the inventory total to approximately 50 percent of the requirement, and 
will increase our training assets. While the DoN develops the JAGM, we 
request continued support for legacy Hellfire weapons. Hellfire 
continues to be a priority weapon for current military operations as it 
enables our warfighters to attack targets in the caves of Afghanistan 
as well as to prosecute military operations in urban environments.
Sidewinder Air-to-Air Missile (AIM-9X)
    The fiscal year 2011 President's budget requests $0.9 million for 
RDT&E efforts and $55.2 million for production of a combined 155 all-
up-rounds and captive air training missiles and missile-related 
hardware. The joint Navy/Air Force AIM-9X Sidewinder missile is the 
newest in the Sidewinder family. The Sidewinder is the only short-range 
infrared air-to-air missile integrated on USN/USAF strike-fighter 
aircraft. This fifth-generation weapon incorporates high off-boresight 
acquisition capability and increased seeker sensitivity through an 
imaging infrared focal plane array seeker with advanced guidance 
processing. It also uses an advanced thrust vectoring capability to 
achieve superior maneuverability and to increase probability of 
intercept of adversary aircraft.
Advanced Medium-Range Air-to-Air Missile (AMRAAM) (AIM-120)
    The fiscal year 2011 President's budget requests $2.6 million for 
continuing RDT&E efforts and $155.6 million for production of 101 all-
up-rounds and captive air training missiles with associated missile-
related hardware. AMRAAM is a joint Navy/Air Force missile that 
counters existing aircraft and cruise missile threats. It uses advanced 
electronic attack capabilities at both high and low altitudes, and can 
engage from beyond visual range as well as within visual range. AMRAAM 
provides an air-to-air first look, first shot, first kill capability, 
while working within a networked environment in support of the Navy's 
theater air and missile defense mission area.
Tactical Tomahawk BLK IV Cruise Missile
    The fiscal year 2011 President's budget requests $300.2 million for 
an additional 196 BLK IV weapons and associated support. The Navy 
supports strongly the continued procurement of this combat-proven, 
deep-attack weapon in order to meet ship-fill loadouts and combat 
requirements.
Theater Mission Planning Center
    The fiscal year 2011 President's budget requests $10.6 million 
RDT&E and $88.7 million OPN for continued Theater Mission Planning 
Center (TMPC) development and support. The TMPC is the mission planning 
segment of the Tomahawk Weapon System. TMPC develops and distributes 
missions for the Tomahawk Missile; provides strike planning, execution, 
coordination, control and reporting; and enables maritime component 
commanders the capability to plan or to modify conventional Tomahawk 
Land-Attack Missile (TLAM) missions. Under the umbrella of the Tomahawk 
Command and Control System (TC2S), TMPC has evolved into 5 scalable 
configurations deployed at 125 sites, to include: cruise missile 
support activities; Tomahawk strike mission planning cells; carrier 
strike groups, command and control nodes and labs/training classrooms. 
TC2S version 4.2 was released in March 2009 and has aligned Navy 
Tomahawk strike and mission planning with existing decisionmaker 
operational processes and support tools. Fiscal year 2011 resources 
will continue the development of TC2S versions 4.3 and 5.0 to improve 
joint interoperability and system usability.
                           unmanned aviation
RQ-4 Broad Area Maritime Surveillance UAS
    The fiscal year 2011 President's budget requests $529.3 million 
RDT&E,N to continue SDD of the Broad Area Maritime Surveillance (BAMS) 
UAS and $42.2 million MILCON to begin construction of test and 
evaluation facilities at NAS Patuxent River. The Milestone B decision 
for the BAMS UAS program was achieved on April 18, 2008. The program is 
on schedule and conducted the systems requirement review (SRR) in 
January 2009, SFR in June 2009, integrated baseline review in July 
2009, and the preliminary design review (PDR) in February 2010. The 
BAMS UAS program will meet the Navy requirement for a persistent ISR 
capability as well as providing a communication relay capability. The 
BAMS UAS is a larger Group-5 system which will be a force multiplier 
for the fleet commander, enhancing situational awareness of the battle-
space and shortening the sensor-to-shooter kill chain. BAMS UAS will 
work as an adjunct to the new P-8A Multi-mission Maritime Aircraft 
(MMA) to provide a more affordable, effective and supportable maritime 
ISR option than current ISR aircraft provide. The Navy also procured 
two USAF Global Hawk (Block 10) UASs in fiscal year 2003, for 
demonstration purposes and to perform risk reduction activities for the 
BAMS UAS Program, known as the BAMS-Demonstrator (BAMS-D) program. One 
of the two BAMS-D UASs has been deployed to the CENTCOM theater of 
operations for over a year.
MQ-8 Vertical Takeoff and Landing Unmanned Aerial Vehicle
    The fiscal year 2011 President's budget requests $10.7 million 
RDT&E to continue development of the MQ-8, commonly referred to as the 
Fire Scout UAS and $51.0 million APN for the production of three Fire 
Scout MQ-8B aircraft and for initial spares. The MQ-8 Fire Scout is an 
autonomous VTUAV designed to operate from all air-capable ships, carry 
modular mission payloads, and operate using the Tactical Control System 
and Line-Of-Sight Tactical Common Data Link. The Fire Scout UAS is a 
medium-to-large sized Group 4 system that will provide day/night real 
time ISR and targeting as well as communication relay and battlefield 
management capabilities to support core Littoral Combat Ship (LCS) 
mission areas of anti-submarine warfare (ASW), mine interdiction 
warfare, and anti-surface warfare for the naval forces. The fiscal year 
2011 RDT&E budget request included funding to continue integrating a 
maritime search radar system that will significantly increase 
surveillance capability of the MQ-8B and support Littoral Combat System 
(LCS) developmental testing. While in developmental testing, the MQ-8B 
system is continuing a military utility assessment on the USS McInerney 
(FFG-8) in order to evolve fleet concepts for operation of the system. 
Deploying this system on the USS McInerney has documented lessons 
learned that will provide valuable insight into continued development 
and will reduce LCS developmental and operational test risks. However, 
the program may not be able to complete all operational test objectives 
prior to the end of the USS McInerney deployment. The Navy is 
investigating additional ship schedules to complete OPEVAL and conduct 
follow-on operational testing. The Fire Scout program will also 
continue to support integration and testing as a mission module on LCS. 
The Navy continues to cooperate with the Coast Guard for their ship-
based UAS planning.
Unmanned Combat Air System (UCAS)
    The fiscal year 2011 President's budget requests $266.4 million 
RDT&E for the continuation of the Navy Unmanned Combat Aircraft System 
(NUCAS) efforts to research a large, Group 5, carrier-suitable, long 
range, low observable, penetrating, persistent, unmanned aircraft 
system capability to conduct ISR/strike missions in denied access 
environments. The NUCAS efforts consist of continuation of the UCAS 
carrier-suitability demonstration (UCAS-D), acquisition planning and 
associated technology development. The UCAS-D effort will mature 
technologies associated with unmanned carrier-suitability, including 
launch, recovery, and carrier-controlled airspace integration, to the 
technology readiness levels required for a potential follow-on 
acquisition program. The demonstration will include catapult launch and 
arrested landings aboard an aircraft carrier. Additionally, the program 
will demonstrate autonomous aerial refueling using the same unmanned 
systems from the carrier suitability demonstration. The demonstrations 
will be complete in fiscal year 2013, though we expect needing 
additional technology maturation. Northrop Grumman, prime contractor 
for the UCAS carrier suitability demonstration, is on track to achieve 
first flight in fiscal year 2010.
Small Tactical Unmanned Aircraft System
    The fiscal year 2011 President's budget requests $38.9 million in 
RDT&E ($12.7 million Navy, $26.2 million Marine Corps) and $35.3 
million in procurement ($9.0 million APN and $26.3 million PMC) for the 
Small Tactical Unmanned Aircraft System (STUAS) program that will 
address Marine Corps and Navy ISR capability shortfalls identified in 
the OCO and currently supported by service contracts. The Group 3 UAS 
will provide persistent, ship- and land-based ISR support for tactical-
level maneuver decisions and unit-level force defense/force protection. 
The Milestone B decision to enter engineering and manufacturing 
development (EMD) is scheduled for the next quarter. STUAS is currently 
in source selection for a contract award to coincide with the Milestone 
B decision. An interim commercial off-the-shelf (COTS) solution 
referred to as STUAS Lite, is budgeted in fiscal year 2011 with $5.4 
million in RDT&E and $14.4 million in APN. Fiscal year 2011 PMC is 
planned to procure STUAS systems as an early operational capability.
Marine Corps Tactical UAS (MCTUAS)
    The fiscal year 2011 President's budget requests $0.9 million RDT&E 
and $18.1 million in baseline APN, as well as $8 million in an OCO 
request for continued product improvement, upgrades, and retrofits. 
MCTUAS is the same system as the Army's RQ-7B Shadow UAS, and is a 
Group 3 system procured as an interim replacement for the RQ-2B Pioneer 
UAS until a suitable Group 4 UAS can be fielded in fiscal year 2016. 
The transition to the RQ-7B Shadow began in fiscal year 2007 and the 
Marine Corps procured its thirteenth and final system in fiscal year 
2010. The Shadow UAS provides rapid fielding of a capability that meets 
urgent Marine Corps operational requirements and brings immediate 
interoperability and commonality between Army and Marine Corps unmanned 
aircraft units operating side-by-side in Afghanistan.
                                summary
    Since 2001, the Navy and Marine Corps have been fighting shoulder-
to-shoulder overseas, supporting an extremely high operational tempo in 
two theaters and in numerous contingencies while growing our force, 
introducing new aircraft and systems, and looking beyond the current 
fight to how we will shape the naval aviation structure of the future.
    The fiscal year 2011 President's budget reflects the Navy-Marine 
Corps team's solutions to the challenges we face together. The DoN's 
aviation programs balance sustaining fielded capabilities, as they are 
employed in the OCO and continued forward presence worldwide, and a 
substantive recapitalization effort that will deliver significantly 
better capabilities to the warfighter. The naval aviation team 
continues to work aggressively to identify efficiencies in the 
development, testing, procurement and sustainment of aviation 
platforms, components, and weapons systems in order to provide the 
proper tools to the fleet. USD(AT&L) Dr. Carter recently testified 
that: ``I support, as does the Secretary, the initiatives Congress 
directed when it unanimously passed the Weapon Systems Acquisition 
Reform Act (WSARA) of 2009. Acquisition Reform is one of the Department 
of Defense's (DOD) High Priority Performance Goals presented in the 
Analytic Perspectives volume of the President's fiscal year 2011 
budget. The Department is moving out to implement these initiatives.'' 
Our recapitalization and efficiency initiatives here are part of and 
consistent with WSARA implementation and DOD's acquisition reform goal.
    We thank you again for the opportunity to testify today regarding 
the DoN's aviation procurement programs and look forward to your 
questions.

    Senator Lieberman. Thanks very much, Admiral.
    Now we'll ask General Mark Shackelford if he would make an 
opening statement.

   STATEMENT OF LT. GEN. MARK D. SHACKELFORD, USAF, MILITARY 
DEPUTY, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
 ACQUISITION; ACCOMPANIED BY MAJ. GEN. JOHNNY A. WEIDA, USAF, 
     ASSISTANT DEPUTY OF STAFF FOR OPERATIONS, PLANS, AND 
           REQUIREMENTS, DEPARTMENT OF THE AIR FORCE

    General Shackelford. Thank you, sir.
    Chairman Lieberman, Ranking Member Thune, and distinguished 
members of the subcommittee, thank you for calling this hearing 
and for the opportunity to provide you with an update on Air 
Force modernization efforts.
    I'm joined this morning by Major General Johnny Weida, 
Assistant Deputy Chief of Staff for Airspace and Cyberspace 
Operations.
    Your Air Force is fully engaged in operations across the 
globe, engaged in overseas contingency operations and providing 
support to the combatant commanders to enable them to 
successfully execute their missions.
    In the coming year, we will assess how the fiscal year 2011 
budget aligns with our standing operational requirements, along 
with the upcoming needs of the entire Air Force. The 2010 QDR 
set forth four objectives to guide our current actions and 
future planning: (1) prevail in today's wars; (2) prevent and 
deter conflict; (3) prepare to defeat adversaries and succeed 
in a wide range of contingencies; and (4) preserve and enhance 
the All-Volunteer Force.
    Your Air Force is vectoring to meet these objectives, and 
we are committed to working together to determine the right 
procurement, sustainment, and retirement strategies to ensure 
we are prepared for the current fight, as well as posturing for 
future demands. Dominance of airspace and cyperspace continues 
to be requisite to the defense of the United States.
    Major General Weida and I thank the subcommittee for 
allowing us to appear before you today, and for your continued 
support of the Air Force.
    I request our combined written statement be submitted for 
the record.
    We look forward to your questions.
    Senator Lieberman. Thanks very much.
    Without objection, it will be submitted for the record.
    [The joint prepared statement of General Shackelford and 
General Weida follows:]
  Joint Prepared Statement by Lt. Gen. Mark D. Shackelford, USAF, and 
                    Maj. Gen. Johnny A. Weida, USAF
                            i. introduction
    Chairman Lieberman, Ranking Member Thune, and distinguished members 
of the subcommittee, thank you for calling this hearing, and for the 
opportunity to provide you with an update on Air Force modernization 
efforts and other matters important to our Air Force and to the Nation. 
Your Air Force is fully engaged in operations across the globe, 
including overseas contingency operations (OCO) and supporting the 
combatant commanders (COCOMs) and enabling them to successfully execute 
their missions. In the coming year, we will assess how the fiscal year 
2011 budget aligns with standing operational requirements and future 
needs of the entire Air Force. The Secretary of Defense, in the recent 
2010 Quadrennial Defense Review (QDR), set four objectives to guide our 
current actions and future planning: prevail in today's wars, prevent 
and deter conflict, prepare to defeat adversaries and succeed in a wide 
range of contingencies, and preserve and enhance the All-Volunteer 
Force. Your Air Force is vectoring to meet these objectives, balancing 
risk appropriately, and preparing to prevent, prevail, and preserve 
well into our Nation's future.
    We frame our decisions and recommendations using the 2010 QDR and 
the Air Force's top five priorities, established by the Secretary and 
Chief of Staff of the Air Force. We understand your focus today is on 
the Air Force's priority to modernize our air and space inventories, 
organizations and training. Our rapidly aging aircraft fleet drives our 
urgent need to balance between acquiring new inventory with sustaining 
our current fleet. We look forward to discussing how we can match the 
requirements with available resources in order to execute the National 
Military Strategy.
                   ii. contributions of our air force
    Today, your Air Force flies and fights in air, space, and 
cyberspace--globally and reliably--as a valued member of our joint and 
coalition teams. More than 40,000 airmen are deployed, with over 29,000 
in and around Afghanistan and Iraq, as we unwaveringly do whatever it 
takes to prevail in today's wars. Airmen, soldiers, sailors, and 
marines who cross outside the wire do so with the asymmetric advantage 
of armed overwatch, globally integrated intelligence, surveillance, and 
reconnaissance, combat search and rescue, and aero-medical evacuation. 
In Afghanistan alone, last year your Air Force flew 26,474 close air 
support sorties, a 39 percent increase over 2008. Our joint force in 
the Central Command area of responsibility is sustained by around-the-
clock rapid global mobility operations that included, in 2009, 52,905 
airlift sorties delivering 264,839 short tons of cargo, over 32 million 
pounds of air-dropped cargo, and 1.3 million passengers. In addition, 
sometimes overlooked is the fact that approximately 43 percent of our 
total force is daily engaged in out-of-theater support to COCOMs; a 
remarkable contribution enabled by past investments in technology and 
infrastructure that allow your Air Force to project global vigilance, 
reach, and power while minimizing vulnerability.
    On the home front, since September 11, 2001, your Air Force has 
flown over 57,942 total sorties under Operation Noble Eagle, including 
41,269 fighter sorties, 11,511 tanker sorties, and 1,850 early warning 
sorties. As a testament to the total force, the Air National Guard has 
flown more than 70 percent of these sorties and currently operates 16 
of 18 air sovereignty alert sites. As we continue to accomplish our 
current mission sets and plan for future threats, we must remain 
mindful of the increasing age and costs of operating our air fleet. Our 
Air Force leadership is scrutinizing programs and budgets to find 
acceptable solutions to meet growing demands that are competing for 
limited funds.
                    iii. fighter aircraft shortfalls
    We constantly assess the combat Air Force structure in relation to 
the dynamic security environment and the evolving needs of our joint 
force. At this time, your Air Force does foresee a fighter inventory 
shortfall when we compare force structure to COCOM plans and 
requirements.
    In April 2008 the Air Force informed Congress of a projected 
fighter gap of over 800 aircraft in 2024. Since that testimony, three 
key fighter force structure assumptions have changed. First, during the 
fiscal year 2010 budget cycle the Air Force elected to accept increased 
short- to mid-term warfighting risk and a subsequent smaller fighter 
force in exchange for modernization. Second, the F-35 procurement rate 
was officially increased from 48 to 80 per year. Third, the approach to 
fighter service life computations was refined. The combination of these 
changes significantly reduced the fighter gap. Numerous internal and 
external assessments of the future security environment, including the 
2010 QDR, have determined our current fighter force plans will fulfill 
COCOM requirements with a moderate amount of risk.
               iv. status of combat aircraft acquisition
Fighter Force
    The average age of all combat Air Force aircraft is 21.7 years. In 
August of this year, your Air Force will have been engaged in combat 
operations for over 21 continuous years. The assessment of our 
aircraft's longevity is complicated by the fact that we are currently 
flying the oldest Air Force fleet in our history and using them longer 
and more frequently than was envisioned during their design. This 
presents considerable challenges in a difficult fiscal environment. In 
response, we have conducted an extensive investigation into the service 
life of our fighter aircraft. This is an ongoing effort and will be 
informed by detailed fatigue testing of our A-10, F-15, and F-16 
fighters to better understand the life-limiting factors of these 
aircraft, and the feasibility of extending their service life given the 
economic and operational environment. The work to date has reinforced 
our need to recapitalize our aging fleet by acquiring next-generation 
systems and modernizing selected legacy platforms.
A-10
    The A-10 provides our Joint Force Commanders lethal, precise, 
persistent, and responsive firepower for close air support and combat 
search and rescue. It has performed superbly in Operations Desert 
Storm, Allied Force (OAF), Enduring Freedom (OEF), and Iraqi Freedom 
(OIF). However, the A-10's age and high operations tempo have taken a 
toll on the fleet. The A-10 fleet's aircraft availability rating for 
fiscal year 2010 is 52 percent.
    Your Air Force plans to retain the venerable A-10 fleet beyond 
2030, based on implementation of the proper care, investment, and fleet 
management recommendations specified by the 2006 Fleet Viability Board. 
In fiscal year 2007 the A-10 fleet began a robust depot-level 
modification schedule that runs through the Future Years Defense 
Program (FYDP). This year we begin installing ``thick-skin'' center 
wing panels on 233 A-10s--nearly two-thirds of the fleet, and begin 
improving the fuselage structure. Your Air Force is also modernizing 
347 A-10s to the ``C'' configuration with anticipated completion by 
April of fiscal year 2011. This upgrade includes precision engagement 
modifications to integrate targeting pods and digital data links into 
the aircraft avionics, enabling use of global positioning system-aided 
munitions such as the Joint Direct Attack Munitions (JDAM) and Wind 
Corrected Munitions Dispenser. Also, we integrated a digital data link 
and advanced targeting pods with video downlink and replaced monochrome 
cockpit displays with color multi-function displays. In addition, we 
installed new pilot throttle and stick controls, a moving map 
capability and a mass-memory upgrade. Finally, we integrated beyond 
line-of-sight radios into the A-10 for faster communication with ground 
units, forward controllers, and command and control centers. Together, 
these modifications will allow the A-10 to continue its record of close 
air support excellence over the next two decades.
F-15 C/D
    The F-15 C/D is an air superiority fighter with an average age of 
over 25 years. We project the F-15 C/D fleet is viable until 2025-2030 
and will consider the airframe's service life extension requirements 
following full-scale fatigue testing. This testing is scheduled to 
begin this summer and conclude in fiscal year 2014. Your Air Force is 
managing the fleet through scheduled field and depot inspections under 
an individual aircraft tracking program. For fiscal year 2010, the F-15 
C/D's aircraft availability is 65 percent.
    We continue to modernize our long-term F-15 fleet with active 
electronically scanned array (AESA) radars, infrared search and track 
capabilities, and a more capable aircraft mission computer to boost the 
air superiority capabilities of this aircraft. We expect these efforts 
to successfully enable the 176 F-15 C/D ``Long-Term Fleet'' to operate 
safely and effectively through at least 2025, as determined by the 
full-scale fatigue test.
    In addition, in fiscal year 2010 the USAF reduced F-15C/D force 
structure by 132 permanently assigned aircraft and retired 112 aircraft 
to the Aerospace Maintenance and Regeneration Group at Davis-Monthan 
Air Force Base (AFB) in Arizona. This leaves 199 permanently assigned 
aircraft (250 total active inventory) for fiscal year 2011 and beyond.
F-15E
    The F-15E fleet, with an average age of over 16 years, continues to 
provide support for ongoing operations in Afghanistan and Iraq. Like 
the A-10, the F-15E performed superbly in Operations Desert Storm, OAF, 
OEF, and OIF. In 2009, F-15Es delivered 54 percent of the 2000 lb. 
JDAMs and 29 percent of the 500 lb. JDAMs employed in that area of 
operations. The fiscal year 2010 aircraft availability rate for the F-
15E is 59 percent.
    Your Air Force works hard to improve the F-15E's ability to rapidly 
engage and destroy time-sensitive targets. This includes adding secure 
radios and data links for faster communications with ground units and 
forward controllers. In addition, we integrated the latest precision 
weapons to hit targets accurately and reduce collateral damage. Also, 
your Air Force added a helmet-mounted cueing system that will reduce 
the F-15E's time to engage a target by up to 80 percent. Finally, we 
added the state-of-the-art AESA radar system that advances capabilities 
to identify and engage targets as well as share information with other 
aircraft. Your Air Force plans for the F-15E to be an integral part of 
the Nation's force through at least 2035.
F-16
    Our multi-role F-16 comprises the majority of the fighter fleet. 
There has been a 3.6 percent drop in the F-16 fleet's aircraft 
availability since fiscal year 2005. Drivers contributing to this 
decline are the Falcon STAR (all blocks) structural integrity program, 
341 bulkhead repair/replacement (block 40/50), engine inlet ram (all 
blocks), lower wing skin cracking (blocks 25/30/32), and aft cockpit 
corrosion for the two seat aircraft. We expect these drivers to 
continue to impact aircraft availability through fiscal year 2015. The 
F-16's fiscal year 2010 aircraft availability is 67 percent.
    Extensive flight hours and more stressing mission profiles resulted 
in the need for significant structural modifications to the F-16. This 
upgrade program, scheduled to complete in fiscal year 2013, replaces 
known life-limited structural components and will maintain the original 
design airframe life of 8,000 flight hours. Wing pylon rib corrosion, a 
known problem with the F-16, is an issue we monitor closely through 
inspections every 800 hours. This corrosion can prevent the F-16s from 
carrying pylon-mounted external fuel tanks which limits its effective 
combat range. In partnership with industry, the Air Force has recently 
developed and certified a procedure that repairs affected aircraft at 
the unit in a single day rather than a lengthy overhaul at the depot.
    In other inspections, maintainers have found bulkhead cracks in 
approximately 68 percent (271 of 397) of our Block 40/42 F-16 aircraft. 
170 aircraft have been repaired and 49 aircraft had the bulkheads 
replaced with 13 more in progress. An additional 145 aircraft continue 
to fly with increased inspection requirements to measure crack growth. 
We will continue to monitor this situation closely. Similar to the F-
15, the Air Force will start conducting a full-scale durability test 
for the F-16 in fiscal year 2011 todetermine the modifications required 
to extend the service life of the newer F-16s (Blocks 40-52) beyond 
8,000 equivalent flight hours.
    The Common Configuration Implementation Program is a top F-16 
priority and will enable the maintenance of a single operational flight 
program configuration on the Block 40/42/50/52 F-16s. The Block 50/52 
modification is complete, and the Block 40/42 modification will be 
complete this year. It combines several modifications including a new 
mission computer, color displays, air-to-air interrogator (Block 50/52 
only), Link-16, and Joint Helmet-Mounted Cueing System. The F-16 is 
expected to be a capable element of the fighter force well into 2024.
Fifth Generation Fighters
    Fifth generation fighters like the F-22A and the F-35 are key 
elements of our Nation's defense and ability for deterrence. Hostile 
nations recognize that U.S. airpower can strike their vital centers 
with impunity which enhances all other U.S. Government instruments of 
power. This is the timeless paradox of deterrence; the best way to 
avoid war is to demonstrate to your adversaries that you have the 
capability and will to defeat them.
    The F-22A and F-35 represent our latest generation of fighter 
aircraft. Both aircraft are necessary to maintain a margin of 
superiority that permits our air and ground forces freedom of maneuver 
and attack. The F-22A and F-35 each possess unique, complementary, and 
essential capabilities that provide the synergistic effects across the 
spectrum of conflict. The Office of the Secretary of Defense (OSD)-led 
2006 QDR Joint Air Dominance study underscored that our Nation has a 
critical requirement to recapitalize TACAIR forces. Legacy fourth 
generation aircraft simply cannot survive to operate and achieve the 
effects necessary to win in an integrated, anti-access environment.
F-22A Future Capabilities and Modifications
    The F-22A Raptor is your Air Force's primary air superiority 
fighter providing unmatched capabilities for air supremacy and homeland 
defense for the joint team. The multi-role F-22A's combination of 
speed, stealth, maneuverability and integrated avionics ensures this 
remarkable aircraft accesses and survives high-threat environments. Its 
ability to find, fix, track, and target enemy air- and surface-based 
threats ensures air dominance and freedom of maneuver for all Joint 
forces.
    Similar to every other aircraft in the U.S. inventory, there is a 
plan to regularly incorporate upgrades into the F-22A to ensure it 
remains the world's most dominant fighter in the decades to come. The 
F-22A modernization program consists of two major efforts that will 
ensure every Raptor maintains its maximum combat capability: the Common 
Configuration program and a preplanned product improvement program 
(Increments 2, 3.1, and 3.2). We are approximately at the mid-point of 
this effort.
    As of 2 April 2010, your Air Force had accepted 158 F-22A aircraft 
out of a programmed delivery of 187. We will continue to upgrade the F-
22A fleet under the Joint Requirements Oversight Council-approved 
Increment 3 upgrade designed to enhance both air-to-air and precision 
ground attack capability. Raptors from the production line today are 
wired to accept Increment 3.1. This upgrades the APG-77 AESA radar for 
synthetic aperture radar ground mapping capability, provides the 
ability to self-target JDAMs using on-board sensors and allows F-22As 
to carry and employ eight Small Diameter Bombs (SDBs). Your Air Force 
will begin to field Increment 3.1 in fiscal year 2011.
    Responding to current threat assessments, the next upgrade will be 
Increment 3.2 ``Accelerated'' which will complete development in fiscal 
year 2013. 3.2 ``Accelerated'' is a software-only upgrade and provides 
significant additional electronic protection, Link 16 improvements, and 
a better combat identification capability. In the future, F-22As will 
receive the Increment 3.2 full upgrade, which features multi-function 
advanced data link, improved SDB employment capability, improved 
targeting using multi-ship geo-location, additional electronic 
protection and combat identification, automatic ground collision 
avoidance system and the capability to employ our enhanced air-to-air 
weapons (AIM-120D and AIM-9X). Increment 3.2 should begin to field in 
fiscal year 2016. The current F-22A modernization plan will result in 
34 Block 20 aircraft used for test and training, 63 Block 30s, 87 Block 
35s, and two Edwards AFB-test coded aircraft.
F-22A Procurement Plans
    The F-22A production program is currently delivering Lot 8 aircraft 
ahead of scheduled contract delivery dates at a rate of about two per 
month. Lot 8 Raptors are the second lot of the 3-year multiyear 
procurement contract awarded in the summer of 2007. The Air Force 
completed F-22A deliveries to Elmendorf AFB, AK, and is currently 
delivering to two squadrons at Holloman AFB, NM, with expected 
completion in January 2011.
    When the plant delivers the last Lot 10 aircraft in 2012, we will 
have completed the program of 187 Raptors. The average unit cost for 
the 60 aircraft in the multiyear procurement was $142.6 million. The 
Lot 10 unit flyaway cost is estimated at $153.2 million. This is $10.6 
million higher than under the multiyear procurement due to higher 
material costs for a much smaller lot buy, loss of the multiyear 
procurement savings in parts and labor and inflation.
F-35
    The F-35 program will develop and deploy a family of highly 
capable, affordable, fifth generation strike fighter aircraft to meet 
the operational needs of the Air Force, Navy, Marine Corps, and Allies 
with optimum commonality to minimize life-cycle costs. The F-35 was 
designed from the bottom-up to be our premier surface-to-air missile 
killer. It is uniquely equipped for this mission with cutting edge 
processing power, synthetic aperture radar integration techniques, and 
advanced target recognition. The F-35 also provides ``leap ahead'' 
capabilities in its resistance to jamming, maintainability, and 
logistics support. The F-35 is currently in the 9th year of a 14 year 
engineering and manufacturing development (EMD) phase.
    The F-35 is projected to meet all key performance parameters and as 
of 17 December 2009, AA-1 completed its 91st and final test flight. The 
second F-35A, AF-1, completed its first flight test on 14 November 
2009. The first short takeoff and vertical landing (STOVL) flight test 
aircraft, BF-1, successfully completed several flights leading toward 
the program's first vertical landing, which occurred on 18 March 2010. 
Currently, there are three STOVL flight test aircraft at Patuxent River 
Naval Air Station. As of March 2010, 16 of 19 development test aircraft 
have been produced, including 6 ground test aircraft and 10 flight test 
aircraft. In addition, the F135 conventional takeoff and landing (CTOL) 
engine reached initial service release on 5 March 2010, and the first 
F135 production engine was delivered to the government on 29 January 
2010. The Cooperative Avionics Test Bed continues to provide 
unprecedented risk reduction at this stage in a major weapon system not 
seen in any legacy program. The F-35 program was restructured and 
funded to be consistent with the most recent independent estimates, 
removing $2.3 billion from procurement and adding $1.4 billion to RDT&E 
across the FYDP. In addition, CTOL quantities were reduced by 67 across 
the FYDP. The fiscal year 2011 President's budget provided funding for 
22 CTOL, 13 STOVL, and 7 CV aircraft, as well as 1 OCO CTOL aircraft.
Joint Strike Fighter (JSF) Alternate Engine Program
    Your Air Force's position regarding the JSF alternate engine 
program is that a second engine is unnecessary, too costly, and risks 
diverting resources from production. The fiscal year 2011 Presidential 
budget does not request funding for the development and procurement of 
the F136 alternate engine. The Air Force and Navy continue to execute 
the funding appropriated by Congress in the previous budgets to 
continue the F136 program.
    The Office of the Secretary of Defense for Cost Assessment and 
Program Evaluation estimated that the Department of Defense will have 
to fund approximately $2.9 billion to take the F136 engine to 
competition in fiscal year 2017, including development, directed buys, 
and the necessary logistics support. Continued funding for the F136 
engine carries cost penalties to both the F135 and F136 engines in the 
form of reduced production line learning curves and inefficient 
economic order quantities. The department concludes that maintaining a 
single engine supplier provides the best balance of cost and risk. We 
believe the risks associated with a single source engine supplier are 
manageable due to improvements in engine technology and do not outweigh 
the investment required to fund a competitive alternate engine.
Remotely Piloted Aircraft
    MQ-9A Reaper
    The MQ-9 Reaper is a multi-role remotely piloted aircraft capable 
of providing battlespace awareness, armed over-watch and light strike 
against critical, emerging time-sensitive targets with self-contained 
hard-kill capability. SDD for the first increment began in fiscal year 
2005, and additional SDD efforts are currently ongoing. An interim 
combat capability aircraft deployed to CENTCOM in September 2007 and 
more have continued to deploy. There are 13 U.S. MQ-9 combat air 
patrols (CAPs) supporting Central Command's (CENTCOM) area of 
responsibility (AOR). The MQ-9 has military-standard 1760-based stores 
management capability, GBU-12/AGM-114 Hellfire weapon and 500-lb. JDAM 
(GBU-38) capabilities. As of June 2009, the MQ-9 was designated a Major 
Defense Acquisition Program (MDAP). The fiscal year 2011 President's 
budget requests increased procurement of MQ-9s to achieve 65 combat air 
patrols (CAP). Rapid MQ-9 fleet expansion with concurrent development 
and integration of advanced payloads is stressing its development and 
testing capacity.
    MQ-1B Predator
    The MQ-1 Predator is a medium-altitude, long-endurance, remotely 
piloted aircraft for providing battlespace awareness with the ability 
to provide modest armed over-watch and reconnaissance against critical, 
perishable targets. When the MQ-1 is not actively pursuing its primary 
mission, it acts as the Joint Forces Air Component Commander-owned 
theater asset for reconnaissance, surveillance and target acquisition 
in support of the Joint Forces commander. Airmen made history in March 
2010 when they surpassed the 700,000 flight hour mark in the MQ-1B. The 
last 200,000 Predator hours were flown in just over 12 months. There 
are 28 MQ-1 CAPs supporting CENTCOM's AOR. The MQ-1B is also 
transitioning to a MDAP. The fiscal year 2011 President's budget 
extends the lifetime of MQ-1Bs to achieve 65 CAPs and provides funding 
to continue MQ-1 operations beyond the FYDP.
Missile Programs
    Joint Air-to-Surface Stand-off Missile
    The Joint Air-to-Surface Stand-off Missile (JASSM) is the Nation's 
only stealthy, conventional, precision, launch-and-leave, stand-off 
missile capable of being launched from fighter and bomber aircraft. The 
JASSM achieved operational capability on the B-52, B-1, F-16 and B-2 
and puts an adversary's center-of-gravity targets at risk even if 
protected by next-generation air defense systems.
    The Air Force postponed the JASSM fiscal year 2009 production 
contract due to unsatisfactory flight tests of the Lot 5 JASSM 
production missiles. Of the 10 flight tests, we considered 6 to be 
complete successes. To address issues discovered during the JASSM test 
program to date, we paused fiscal year 2009 missile production to 
incorporate reliability improvements and conducted Lot 7 reliability 
tests which achieved 15 for 16 successful hits. The fiscal year 2011 
President's budget requests funds for the procurement of 171 missiles 
to include the first order of the extended range variant.
    Legacy Bomber Fleet
    The B-1, B-2, and B-52 remain engaged in today's fight while 
retaining an ability to meet future challenges. Air Force bombers have 
been on rotating deployments to Southwest Asia since September 11. The 
bomber aircraft inventory is 162 and averaged at 33.7 years old. Your 
Air Force continues its commitment to future long-range strike 
capabilities as part of a comprehensive, phased plan, valued at $5.5 
billion over the FYDP, to modernize and sustain our bomber force.
    B-1
    B-1 aircraft availability rates remained relatively level for 
fiscal years 2002-2007 with a drop in fiscal year 2008 and fiscal year 
2009 primarily driven by modernization efforts. To mitigate manpower 
shortages and reduced maintenance experience levels, B-1 bases have 
been augmented by a contract field team which will continue through 
April 2011. Manning authorizations have been approved but manning will 
continue to affect the B-1's aircraft availability rating into the 
distant future while personnel are trained and gain experience.
    The B-1s has maintained an unflagging deployed presence since 
September 11, 2001 in support of OEF and OIF. During that time, the B-1 
fleet and its crews have flown more than 6,900 missions and amassed 
more than 70,000 combat hours. In OEF alone, the B-1 has employed 
nearly 40 percent of all munitions while flying only 5 percent of all 
sorties.
    Given the B-1's critical contributions to today's fight and its 
corresponding high operations tempo, your Air Force places great 
emphasis on sustaining the B-1 fleet. B-1 sustainment efforts address 
several issues which, if left unchecked, could critically limit 
aircraft availability and leave a gap in our power projection 
capability. Although these modifications represent a significant 
investment, they are critical to supporting our deployed combat forces 
by ensuring continued B-1 availability.
    Your Air Force's primary B-1 modernization effort is the Fully 
Integrated Data Link (FIDL). FIDL gives aircrew enhanced situational 
awareness and combat effectiveness by incorporating Link-16 data link 
and joint range extension beyond line-of-sight capabilities. FIDL also 
provides the backbone infrastructure for a substantial upgrade to the 
existing cockpit including modern multi-function color displays that 
provide aircrew with a new level of fused data.
    Your Air Force continues to deploy the highly successful laptop-
controlled targeting pod (LCTP) modification for the B-1. Initiated in 
2007 in response to an urgent need request and operational since 2008, 
LCTP provides the B-1 with targeting pod capabilities via the Sniper 
advanced targeting pod (ATP). The B-1 combined with the Sniper ATP 
delivers an unprecedented level of payload precision to the fight. 
Efforts continue to outfit the entire B-1 fleet for Sniper operations 
and provide a moving target kill capability via employment of laser-
guided weapons.
    B-2
    The B-2 is significant to Pacific Command's (PACOM) continuous 
bomber presence to assure allies and support U.S. interests in the 
Pacific. The B-2 Spirit Advanced Technology Bomber provides a lethal 
combination of range, payload, and stealth. It remains the world's sole 
long-range, low observable bomber. It is the only platform capable of 
delivering 80 independently targeted 500-lb JDAMs (GBU-38). While B-2 
availability has steadily increased over the past 5 years, in part due 
to enhancements in low observable maintenance such as the highly 
successful alternate high frequency material program, it faces 
increasing pressures to upgrade avionics originally designed over 20 
years ago. The extremely high frequency satellite communications and 
computer upgrade program (EHF SATCOM and computer upgrade) has three 
increments. Increment 1 upgrades the Spirit's flight management 
computers as an enabler for future avionics efforts. Increment 2 
integrates the family of beyond-line-of-sight terminals (FAB-T) along 
with a low observable antenna to provide secure, survivable strategic 
communication, and Increment 3 connects the B-2 into the global 
information grid. Increment 1 of EHF SATCOM and computer upgrade is in 
EMD and on track to begin procurement in fiscal year 2011 for fleet 
installations beginning at the end of fiscal year 2013. The Department 
is also investing in the B-2's defensive management system to ensure 
continued survivability. This will allow the B-2 to continue operations 
in more advanced threat environments while decreasing the maintenance 
required operating the system.
    We will also replace the B-2's original radar antenna, upgrade 
selected radar avionics and change the radar operating frequency as 
part of the Radar Modernization Program (RMP). We signed the low-rate 
initial production (LRIP) contract for the first six production radar 
kits in December 2008 and contracted the second and final full-rate buy 
for the remaining seven ship sets in November 2009. Also, we bought 7 
radar ship sets during development and are installing in fleet aircraft 
to round out the 20 aircraft B-2 fleet. The developmental units will be 
retrofitted to the final production configuration. This program 
successfully achieved required assets available on 15 March 2010. 
Thanks in large part to congressional support, the RMP acquisition 
strategy was modified to include life-of-type component buys to avoid 
diminishing manufacturing source issues during the production run.
    B-52
    The B-52 Stratofortress is our Nation's oldest frontline long-range 
strategic bomber with the last airframe entering service in 1962. It 
amplifies the consistent message of long-range US airpower in a theater 
like USPACOM where distances drive decisions. Equipped with advanced 
targeting pods, the B-52s can also provide real-time intelligence, 
surveillance and reconnaissance with full-motion video, enhanced 
situational awareness, a demonstrable overwatch presence and precision 
joint fires in support of USPACOM's objectives. In addition to 
supporting the continuous bomber presence at Anderson AFB on Guam, the 
B-52 continues to maintain a high-state of readiness for the nuclear 
deterrence mission.
    Your Air Force has invested in modernization programs to keep the 
B-52 platform viable and operationally relevant. Major B-52 
modernizations include the combat network communications technology 
(CONECT), EHF SATCOM, strategic radar replacement (SR2), and the 1760 
internal weapons bay upgrade programs. CONECT provides an integrated 
communication and mission management system with machine to machine 
data link interfaces for weapons delivery. The digital infrastructure 
provided in CONECT is the backbone for EHF SATCOM and SR2. The EHF 
SATCOM program integrates the FAB-T providing assured, survivable two-
way strategic command and control communications. The SR2 program, 
starting in fiscal year 2010, integrates modern non-developmental radar 
to address systemic sustainment issues, replacing the legacy APN-166 
radar. Finally, the 1760 internal weapons bay upgrade provides internal 
J-series weapons capability through modification of common strategic 
rotary launchers and an upgrade of stores management and offensive 
avionics software. Updated with modern technology the B-52 will be 
capable of delivering the full complement of jointly developed weapons 
and will continue into the 21st century as an important element of our 
Nation's defenses.
Long-Range Strike
    The fiscal year 2011 Presidential budget began funding for 
technology industrial base sustainment in anticipation of a future 
long-range strike (LRS) platform program. This effort develops and 
demonstrates LRS technologies and concepts in support of Air Force 
global strike and global persistent attack concepts of operations. This 
effort will provide capability improvements in the areas of strike 
responsiveness, survivability, lethality, connectivity, and 
affordability. The QDR-directed study will help inform and shape the 
requirements for LRS.
    The fiscal year 2011 Presidential budget adds $199 million in 
fiscal year 2011 and $1.7 billion over the FYDP for LRS. Fiscal year 
2011 investments will reduce technology risk, preserve critical 
technology industrial base skills and refine requirements for a future 
long-range strike platform. Investment areas of interest include 
advanced sensors, electronic warfare and countermeasures, 
survivability, manufacturing readiness, net-ready communications, open 
systems and multi-level security architectures, mission management, 
weapon effectiveness and survivability, and combat identification.
                               v. closing
    Your Air Force stands ready to win today's joint fight and plan for 
tomorrow's challenges. We are committed to working together to 
determine the right procurement, sustainment and retirement strategy to 
ensure we are prepared for the current fight as well as posturing for 
future demands. Dominance of air, space, and cyberspace continues to be 
requisite to the defense of the United States. USD(AT&L), Ash Carter 
recently testified that: ``I support, as does the Secretary, the 
initatives Congress directed when it unanimously passed the Weapon 
Systems Acquisition Reform Act (WSARA) or 2009. Acquistion reform is 
one of the DOD's High Priority Peformance Goals presented in the 
Analytic Perspectives volume of the President's fiscal year 2011 
budget. The Department is moving out to implement these initiatives.'' 
The Air Force TACAIR Program actions described above are consistent 
with WSARA implementation and DOD's acquisition reform goal. We 
appreciate your continued support and look forward to working in 
concert to ensure our decisions enable us to strengthen our Air Force 
to meet future requirements.

    Senator Lieberman. General Trautman, or any of the others, 
would you like to make an opening statement?
    General Trautman. No, Senator. I'll combine my verbal and 
written statement with Admiral Architzel's.
    Senator Lieberman. Okay, thanks.
    Let's proceed to questioning.
    Let me begin with an open-ended question and ask, beginning 
with Admiral Architzel and General Shackelford and anybody else 
who wants to get into this, if somebody were walking in here, 
maybe sitting in the back of the room, not particularly 
experienced in all the details of military acquisition, 
development, construction, et cetera, and asked, ``Why is this 
JSF, which all of us acknowledge is an extraordinary program 
and a great plane, why is it now behind schedule and costing so 
much more than we thought it would cost?'' In my days as 
attorney general of Connecticut, we used to call this the law 
in plain language. In other words, if you can explain to us--
and through us, to the American people--what's the problem 
here?
    Admiral Architzel. Senator Lieberman, if I could start.
    I would say that the JSF program, unlike any we've ever had 
before, is a tremendously challenging program technically. It 
is also one that takes on not one aircraft, but three aircraft 
types.
    Senator Lieberman. Each for the different Services.
    Admiral Architzel. Yes, sir.
    Senator Lieberman. Right.
    Admiral Architzel. From the F-35A for the Air Force, the F-
35B for the Marine Corps short takeoff, vertical landing 
(STOVL) variant, and F-35C, which is the carrier variant for 
the program.
    In the process of developing these aircraft and the 
technology that goes with them, the advancement of the program 
and the technical risks that were encountered did not meet the 
schedule and costs. That was clearly pointed out with a Joint 
Assessment Team (JAT), which was done in 2008, to show that the 
program needed additional time and investment to meet goals. 
That action was taken at the end of 2009 to fund that estimate. 
The continued pressure of slides in the program or not meeting 
expectation of delivery, additional efforts were taken to 
understand the reasons. That was associated with the Joint 
Estimating Team II, an Independent Management Review Team, 
which went into the manufacturing and the ability to ramp up on 
those production areas, as well as an assessment of the 135 
engine, which were all conducted in 2009.
    At the conclusion of those reviews, Dr. Carter pulled 
together a group of senior officials, including General 
Shackelford and myself, to look and analyze, what did we gain 
from those analyses and where we're headed with the program? 
Clear indication was that while concurrency in these programs 
has been there from the beginning, the issue is, do you have 
too much concurrency? When you have too much, do you need to 
take and slow that down somewhat to allow you to have the right 
amount of concurrency?
    Senator Lieberman. Define concurrency for this mythical 
person in the back of the room.
    Admiral Architzel. All right, sir. We are at a point where 
we are building aircraft, we are testing aircraft, and we're 
beginning to field aircraft. There starts to be a concurrency 
not just in that overlap, but also concurrency between the 
various models I mentioned, the A, the B, and the C, as they 
come through. So, the program is built on a certain level of 
concurrency, which is healthy.
    What concurrency can bring you is added learning, it can 
bring you manufacturing stability, it can bring you a lot of 
things that go forward. But, with too much concurrency, you 
need to then take a look and say, ``do we have this right?'' 
The estimate of the Department was that we needed to take an 
additional 13 months in the development phase of the program. 
We needed to put additional funding in that program, which is 
about $2.8 billion to finish that effort. We also took measures 
that we wanted to come through that period, and we needed 
additional test assets that weren't in the plans, so we added 
an additional carrier variant. We took three additional 
airplanes from the limited low-rate initial production (LRIP) 
series, to bring that so we could have additional test assets. 
We also revised the ramp to have the ramp which was in line 
with the Independent Management Review Team's recommendation, 
which is the ramp that we have today in our proposal.
    Senator Lieberman. Excuse me, a second.
    Let me go back to concurrency, because part of the appeal 
of the program, obviously, was that this was a JSF, that this 
was going to be essentially a single plane model. Obviously, 
there'd be some variants there, but that part of the appeal of 
it was that there would be a lot of commonality between the 
planes for the different Services, and so we'd be saving money 
in a host of different ways, and hopefully achieving a speedier 
production. But am I hearing you say that that part of the 
problem is that that didn't work out and that there were unique 
needs of the various Services that are part of the reason why 
this program is now behind?
    Admiral Architzel. I think that in order for this program 
to work effectively, some concurrency had to be built into the 
program.
    Senator Lieberman. Right.
    Admiral Architzel. It's based on that. There's an absolute 
need. In order for the manufacturer to produce the fifth-
generation aircraft we need, we have to have some concurrency 
just to get the learning and the ramp we would need to produce 
this in an economical fashion. A certain amount of that is 
healthy and will get us where we want to go. It's when you end 
up in a situation with too much; basically the restructuring 
will be done with an eye towards slowing 13 months in the 
development phase, and we will then have the ability, with the 
added test assets I mentioned, and with the funding, to get the 
program back on track with the right level of challenge to it 
and with the confidence that both the contractor and we can 
train and be able to support needs as we go forward.
    Senator Lieberman. General, let me ask this question. As 
you look back, did we underestimate at the beginning? At worst, 
were we misled or were we misleading ourselves to think that we 
could turn this plane out more quickly and less expensively 
than we're getting it now?
    General Shackelford. Mr. Chairman, thank you for asking 
that. DOD acquisition is much about setting expectations. In 
2001, when we established the cost baseline for the development 
program, we had a different set of circumstances than we do 
now. But, consider that cost estimating, in spite of it being a 
fairly mature process that we use within the Department, it 
leaves a great deal of potential to make errors in the 
estimate. The process that we follow in DOD acquisition sets an 
expectation with that initial independent cost estimate (ICE) 
that we're measured against, that results now in the Nunn-
McCurdy breach, as you have observed.
    I don't think this is a matter of misleading.
    Senator Lieberman. Right.
    General Shackelford. I think our cost estimating community 
does the best job that they can do, with the tools that they 
have and the people they have, to assess what might be the 
future of a program, when, in reality, they're looking at, in 
this case, more than a decade out into the future, and judging 
what reality might be at that time.
    A year ago, when I was here testifying before this 
subcommittee, what I told you was that over the next year we 
would find out a great deal more about the assumptions that go 
into, for instance, the cost estimate.
    At that time, we were looking forward to having virtually 
all of the flight-test aircraft delivered during calendar year 
2009. That didn't happen. Why might that not have happened? 
These flight-test aircraft, unlike those that are often built 
into legacy aircraft programs, were being built on the 
production line, the same production line that is turning out 
the LRIP aircraft today. That transition, for a contractor, is 
a significant event, in terms of changing focus from 
development into production, and facilitating that production 
line. It comes down to things like efficiency on the production 
line, the provision of the parts to go into the aircraft as you 
go from fabrication into assembly and then final assembly. To 
the extent that you have changes in the design. These would be 
small changes--this is some component that doesn't fit, for 
instance, as they expected it to fit--that result in a certain 
amount of churn that now reflects back on incomplete work that 
now needs to be fixed later in the production line.
    The result of all of that--and there was a great deal of 
change traffic a year ago--is, that production line is very 
unstable at that point, and its predictability is not as sound 
as we would like it to be. The result of that is late delivery 
of aircraft, which, in this particular year would have been the 
year to start the flight test program and have the flight test 
aircraft as productive test assets to verify such assumptions 
that go into a cost estimate as numbers of effective sorties 
per month, number of effective test points per sortie, how much 
progress we could make in the developmental test program, that 
pretty much got stiff-armed by a year.
    Senator Lieberman. Right.
    General Shackelford. So, we're in the same situation now, 
where we expect to get all of those flight-test aircraft 
delivered this year. But, we have found through the production 
of the flight-test aircraft, and then to the LRIP aircraft, 
stabilization and change traffic, a higher rate of available 
parts, and less out-of-station work; in other words, that line 
is starting to mature. It will take a couple of lots of LRIP to 
catch up.
    But, at this point, we've pretty much turned the corner on 
that. Now, we just need to get those aircraft active flyers, 
and that will then help us understand whether the assumptions 
that we have put in to the flight-test schedule, which is 
largely what amounts to the cost estimate for engineering and 
manufacturing and development, to see how valid that's going to 
be.
    Senator Lieberman. Okay, thank you. We'll continue the 
discussion. My time is up.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Admiral Architzel and General Shackelford, in its most 
recent selected acquisition report on the JSF program, DOD 
warned Congress that the overall costs for buying the JSF 
aircraft could increase, yet again, after a new ICE comes out 
in the summer. The magnitude of that revised ICE could raise 
basic questions about the Department's plans for, and the 
commitment of the program's international partners to, the 
program, at least as it's currently envisioned.
    Does either the Navy or the Air Force have a fallback plan 
if schedule slips and cost growth continue in the JSF program? 
If so, what are they?
    Admiral Architzel. The Department has taken extraordinary 
measures now to look in detail at the JSF program, and with the 
restructuring of that program, we firmly believe that we can 
deliver on the program, avoiding future cost and schedule 
impacts. That was not taken lightly, moving forward, mentioning 
all the things General Shackelford has also mentioned, but the 
idea of revising the ramp and then holding to the testing that 
we need to get done, and also resourcing the tests that has to 
happen to go forward. I believe with the maturing of the 
product line, and the moving forward, we will see ourselves 
begin to recapture the progress we need to see on the JSF 
program.
    In terms of alternatives, what we have to look for and be 
mindful of is we do have to maintain a strike fighter base. 
That gets into our maintaining of our legacy fleet of aircraft, 
as well as where we go from there. So, that may be something we 
want to come back to and address how we manage it. Because, 
essentially this is a two-fold effort, if you will; it's 
managing of the fleet aircraft we have today, and it's about 
also ensuring we do everything we can to bring the JSF on in 
the numbers we need, which is to recapitalize our fleet.
    At the end of the day, we absolutely need requirements 
brought by the fifth generation and the JSF. So we are 
committed to that, as we go forward.
    General Shackelford?
    General Shackelford. Senator, likewise, the Air Force is 
committed to the F-35 as the fifth-generation solution for 
recapitalizing our fighter force structure.
    The Air Force, likewise, is committed to the JSF as being 
our solution for recapitalization of our fighter force 
structure. As such, we are putting the proper pressure, in 
terms of bringing that program along in as successful a manner 
as we can, such that we can build a confidence to get the 
production ramp rate up to something that will flow those 
aircraft into the inventory as quickly as we're able to.
    Regarding our legacy systems, we're primarily modernizing 
those aircraft--these would be A-10s, F-15s, F-15Es, and F-
16s--with avionics. We are putting new wings on a large number 
of the A-10. That's a structural replacement; likewise, 
structural repairs on the F-16 fleet, to ensure it can meet its 
8,000-hour service life. But, in general, providing state-of-
the-art avionics capability with weapons capability to match is 
how we are approaching the legacy fleet. But, we're focused on 
that fifth-generation fleet.
    Senator Thune. You touched on it maybe a little bit, but I 
wanted to follow up on something that the Air Force Chief of 
Staff, General Schwartz, recently confirmed, and that is that 
the Air Force has begun stress tests on the fleet of F-16 
Falcons to help determine how to keep several hundred of the 
jets airworthy through the end of the decade, hedge against 
delays in the delivery of the JSFs. Can you shed some light on 
that, and maybe give us some additional information on that 
initiative?
    General Shackelford. Yes, sir. We are doing a structural 
analysis on the F-16, primarily looking at the Block 40 through 
52--the newer F-16s--to extend those as far as we can. Those 
are also the aircraft that have received what's called the 
Common Configuration Implementation Program that upgrades 
displays, puts in Link 16 Helmet-Mounted Cueing System, and 
basically communalizes the avionics architecture across those 
blocks of aircraft.
    The F-16, in particular, is susceptible to bulkhead crack 
issues, typically at the back landing gear and aft into the 
engine mounts. That's been an issue with F-16s throughout the 
life of the fleet. We have a small number of aircraft right now 
that are in repair to fix what we know to be problems there, as 
well as into additional inspections to make sure that they're 
airworthy. But, I'm not anticipating, at this point, an 
additional major structural upgrade.
    Admiral Architzel. Senator, it's essential that we manage 
the fleet of aircraft we have today, that we get the most 
utilization we can out of them, as we begin to ramp up and 
bring forward the JSF. That program takes on the call of not 
just managing the fleet of aircraft, but also extending the 
life of the legacy aircraft we have today. In managing the 
fleet of aircraft, we go about looking at things we can do to 
operationally affect that force. The Navy and Marine Corps, 
both Services are committed to TACAIR integration, to share 
that burden for things like productive ratios of aircraft, to 
the beddown plans for the Marine Corps or, in the case of the 
Navy, in terms of fleet response plan. About accelerating E/F 
squadron changeovers from legacy Hornets to E/Fs, there will be 
approximately five squadrons total; it varies between 
accelerating existing plans to transition to E/F, and also 
taking attrition birds, which were aircraft bought when the E/
Fs were bought for attrition, which we would transition 
squadrons earlier to build that capability in those areas.
    It's also about actively managing, by bureau number, the 
fatigue life of every legacy Hornet. We have the ability to do 
that, and we're doing that now, as well as managing the flight 
hours for each one of those aircraft.
    We also have significant work underway to increase our 
depot efficiencies to get things through, like planned 
maintenance availabilities or high flight-hour inspections, so 
that we can return those aircraft that we do have in the 
pipeline--which is maintenance or upkeep--back to the fleet and 
taskable assets.
    That is the managing-the-fleet-of-aircraft side. Then, on 
the the extending-the-service-life side, we have legacy 
Hornets, a 6,000-hour jet, which, when we brought it on, we 
knew we could actually, with inspections and with knowing how 
we flew the aircraft, get that out to 8,000 hours. From 8,000 
hours, we're looking now at a series of aircraft to see if we 
can do what's called high flight-hour inspection, which would 
give us 600 additional hours on the airplane. That allowed us 
to take what was a strike fighter shortfall, with the numbers 
mentioned before and get to around a 177 fighter shortfall in 
the 2017-2018 timeframe.
    We could then apply additional resources to look how we 
would further mitigate that shortfall. One of those big 
mitigators would be to actually do a service-life extension 
program (SLEP) of a limited number of legacy Hornets. That 
range would be somewhere between 150 and 280; it would depend 
on what we have. That would allow us to continue to draw down 
that shortfall, should we need to do it.
    These steps are taken across the board by the Navy and the 
Marine Corps. The commitment is real. We're going to manage 
this inventory as we go forward, keeping in mind we want 
absolutely to have the ramp sustainment on the JSF so that we 
can bring those planes on and then not have to have further 
reliance on legacy assets as we go forward.
    One final piece I'll mention on the E/F is, we are working 
diligently under our service life assessment program to see 
about taking the E/F to 9,000 hours. That's a funded program 
for the assessment of that. We believe that's a very doable 
objective.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Thune.
    Let me just say, briefly, that Senator Thune's question is 
an important one, and your answers are important, too. There 
has been broad support for the JSF program here in Congress, 
but the TACAIR shortfalls that the Services are projecting are 
very unsettling. As you've acknowledged, yourself, in the moves 
that you're making--and I think you'll hear this much more from 
Congress, as you already have--there will be pressure to 
sustain the fourth generation of aircracft, and improve it 
because the fifth generation is coming on more slowly and more 
expensively than we hoped for. I understand you're both 
committed, and the Services are committed, to the fifth 
generation, but based on the reality that we're facing now, of 
time delays and increased cost and the very unsettling TACAIR 
shortfall, which does represent warfighting risk, then I think 
we have to work with you to do a combination of fourth and 
fifth generation to keep us where we want to be.
    I'm going to just leave it at that for now, and I'll come 
back to it.
    Senator Burris, you're next.
    Thank you.
    Senator Burris. Thank you, Mr. Chairman.
    I'd like to welcome our distinguished panel. I'm pleased 
with the leadership that you've shown over the past years, and 
I want to continue to support you in your continued leadership 
for our great country.
    Gentlemen, I'm a strong supporter of the Federal contract 
competition; and, as such, I supported continued funding of the 
F136 engine last year. This is a fixed-price contract with 
long-term savings for DOD and the American taxpayers, not to 
mention its positive effect in TACAIR readiness. What I want to 
see are savings for the American taxpayers, and competition is 
the only way to effectively garner such savings. When 
contractors compete, the taxpayers win. So, we want to make 
sure that that's a factor.
    How are you phasing in the support of infrastructure as a 
new JSF program without the detriment to the legacy aircraft 
that it will replace?
    Admiral, you want to take a shot first, and then the 
General?
    Admiral Architzel. Senator, with the reference to the 
alternate engine, the Secretary has been unequivocal on the 
position with respect to the alternate engine. The Department 
of the Navy stands in full support of that position on not 
having the requirement for the alternate engine. Spending more 
dollars today on procurement on a second engine for JSF is 
unnecessary and would divert precious funds, as we've already 
talked about, from pressing DOD needs.
    Since 2007, DOD has recommended termination of the 
alternate engine program, and if we were to continue that 
program, estimates are, it would require approximately $2.9 
billion up to 2017, to $2.5 billion in the next 5 years. That 
also would require us to get to the issue; while, in general, 
the Department of the Navy favors competition, where 
appropriate, the question would be whether the offset of the 
procurement investment required to reach that point where we 
could compete that--and the estimate would be around 2017, best 
case, before we could--would there be a payback to the 
procurement offset, which is significant, at a time when we 
really need these precious procurement dollars?
    We also want to emphasize that we need to improve the 
performance on the 135 engine, and that has been undertaken 
with the JAT, which got the assurances and came back and 
reported feeling there will be assurances to that effect. So, 
to your point, understanding the desire for competition, we 
accept and realize there are points when we want to have 
competition, as well. But, in this case, we believe that the 
position is not favorable for us to pursue with a second 
engine.
    General Shackelford?
    Senator Burris. Yes, General?
    General Shackelford. Senator Burris, the Air Force supports 
the Department's position on the alternate engine for the F-35. 
Based on the Cost Assessment and Program Evaluation's (CAPE) 
analysis, the program itself has rated its breakeven point, in 
terms of tipping the scale to go past what's remaining as what 
we've invested, at about $2.9 billion on either side. The 
assumptions that go into cost reductions based on competition 
have changed over time; the change from 2014 to 2017, in terms 
of when that engine might become competitive, assumptions on 
the engine entering the production with basically the same cost 
as the F135, and the same learning curve, are both questionable 
assumptions.
    We believe, as we look out into the future, that the market 
for two engines will exist, just in the Air Force. We would be 
the only recipient of F-35s that would actually have both 
engines. Smaller fleets would drive single-engine 
configurations for both our foreign partners, as well as, we 
believe, the Navy and Marine Corps. The Air Force, buying the 
bulk of the airplanes, would wind up with, potentially, both, 
which drive additional support costs, training costs, spares 
costs, and whatnot. So our assessment is that, given the 
priorities for dollars in today's budget, we're better off 
spending the money, from an F-35-engine perspective, to 
continue to refine the F135 engine, and press on with that as 
the single engine for the F-35 fleet.
    Senator Burris. Gentlemen, the alternative plans to 
compensate for delays in the JSF program have been an added 
cost. What is the projected added cost of alternative plans to 
compensate for the 24-month delay that we're talking about now? 
There's an added cost to it.
    General Shackelford. Senator, are you referring to the 
added cost in the F-35 program itself?
    Senator Burris. That's correct.
    General Shackelford. Yes, sir. By flattening the ramp, 
which we did as part of the restructure of the program, we have 
taken $2.8 billion out of the production funding inside the 
program's funding line and placed that onto the development 
program. So, the dollars themselves are neutral, in terms of 
affecting other programs. They only come out of the F-35 
program, and they are a trade between production dollars and 
development dollars.
    Senator Burris. So, there are no added dollars. You're just 
switching dollars.
    General Shackelford. This is switching dollars in the 
projected funding line of the F-35 program, yes, sir.
    Senator Burris. Will there be a second round, Mr. Chairman?
    Senator Lieberman. I expect there will, Senator Burris.
    Senator Burris. Thank you very much.
    Senator Lieberman. Thank you.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    I had to step out for a quick meeting, but I appreciate the 
opportunity to stay in order and continue on with the 
questioning.
    The F135, I know it's over budget by about $3 billion, and 
I believe it's behind schedule. In looking at the F136 program, 
it's on budget and it's on time and there's a potential to 
offer a fixed-price contract. I know I'm new here, but even 
before I got here, I was concerned, being in the military, 
about pricing and costs. How do I justify, to the people back 
home in Massachusetts, the fact that we're supporting a program 
that's over budget and not on time, versus a plan that's a 
local engine that needs a billion dollars to be finished, is on 
budget, and offers a fixed price? How do I justify supporting 
one program over the other? What do I tell them?
    Admiral Architzel. To your first point about the 135 
engine, part of the restructuring of the program was done to 
look at the 135 with a JAT made up of senior experts, to go and 
look at the progress on that manufacturer to produce that 
engine and could they achieve stated cost-reduction goals? The 
report back from that JAT was that they could achieve that. 
First point.
    Senator Brown. When do they think that'll happen?
    Admiral Architzel. As we progress forward on the 135 engine 
development and procurement service. There's set goals for the 
engine to achieve, in terms of learning curve and coming down 
on cost per engine, and those goals were assessed as achievable 
by the JAT that went up and evaluated that.
    In terms of a second engine procurement, it is 
approximately 3 to 4 years behind where the 135 is today. The 
additional $2.9 billion over the span from now until 2017 is a 
significant amount of money, $2.5 billion in the next 5 years, 
which could be invested in other investment procurement or 
other areas needed to be funded.
    Senator Brown. But, you're using the original baseline 
numbers, correct?
    Admiral Architzel. Yes, sir, those are the numbers that 
were reported from CAPE to us, and also from the estimates from 
the engine.
    Senator Brown. I've always been a strong believer that 
competition is good. When you're dealing with such a program 
with so many dollars, my concern, with the overruns and the 
delays, is that it's always good to have competition to keep 
people focused and moving in the proper direction.
    So, for the record, Mr. Chairman, I want to state that I do 
have those concerns, and I'm doing everything and anything I 
can to find out more and more information as to why there are 
delays and why competition isn't good. I have to be honest with 
you, I haven't found a good reason yet.
    I'd like to shift gears, if I may, regarding the CH-53 
Echos and Deltas. They've flown beyond their programming date 
since 2001, due to their continued deployments. That said, the 
Heavy Lift Replacement Program ran into scheduling delays in 
2009. If you could just give us an update as to whether you're 
confidant that the 53 Kilo is back on track and will it be 
capable of replacing the legacy aircraft, starting in 2018.
    General Trautman. Thank you, Senator Brown.
    You're exactly accurate with regard to the aged CH-53 
Delta, which is now into its fourth decade and still going 
head-to-tail into Afghanistan, and previously into Iraq. We've 
been getting marvelous service out of that particular airplane. 
CH-53 Echo is a newer airplane. That has service life that will 
enable us to bridge to the CH-53 Kilo. We need the Kilo. The 
Kilo is going to be a lifter that will carry 27,000 pounds at 
110 nautical miles, which really fits into our concepts of 
operations today, but even more so in the future, as our 
equipment gets heavier and our need for standoff and deep 
operations increases in the next decade.
    The 53 Kilo program is technically sound. We've worked 
through some challenges over the past 2 years, with regard to 
some center-of-gravity issues that we had initially, some staff 
management issues that we had initially, and I'm pleased to say 
that, in this budget submit, the program is adequately funded 
to move forward at a pace that makes us confident that we can 
bridge to that airplane towards the end of the next decade.
    Senator Brown. Thank you.
    Mr. Chairman, do I have time for one more question?
    Senator Lieberman. Yes, Senator Brown. The timekeeper will 
inform you when your time is up.
    Senator Brown. Thank you.
    The Hueys are currently being replaced by the Yankees, and 
the Whiskey Cobras will soon give way to the AH-1 Zulu. How is 
production and fielding of the Yankee coming along, and where 
do we stand with the Zulu program? General?
    General Trautman. Senator, the H-1 upgrade program is a 
poster-child for troubled early years, just like many of our 
programs are, to include the JSF. But, I'm pleased to say that 
we've given birth to an extremely capable airplane in the UH-1 
Yankee. We declared initial operational capability (IOC) of the 
Yankee in August 2008. We immediately sent it out in a marine 
expeditionary unit deployment for 7 months to western Pacific 
and that detachment did superbly; did so well, in fact, that 
even before we declared material support date with the Yankee, 
we deployed a full squadron into Afghanistan in November 2009. 
That airplane has made a huge difference in Afghanistan.
    The Yankee is far, far more capable than UH-1 November that 
it replaces. We've used it in a variety of mission sets in 
Afghanistan. It's the first time we've had the Yankee serving 
side-by-side with the MV-22 and, I'll tell you, we're 
incredibly pleased with the span of capability sets that the 
Yankee and the MV-22 give to the aviation combat element 
commander there in Afghanistan.
    The good news about Bell is that they've delivered an 
average of 57 days ahead of schedule for the last 18 airplanes. 
Their manufacturing and production process has righted 
themselves a remarkable way over the past 2 years. The quality 
coming off the line is near perfect. We entered into 
operational tests in the AH-1 Zulu, which will be the Yankee's 
partner, 2 weeks ago, and we have high confidence that they'll 
finish operational tests and reach a full-rate production 
decision in the Zulu by the end of this calendar year.
    Senator Brown. Thank you, Mr. Chairman. My time is now up. 
If there is a second round, I just had one more final question.
    Senator Lieberman. Good.
    Senator Brown. Thank you.
    Senator Lieberman. Thank you, Senator Brown.
    We'll now go to Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    I have a few questions. I hate to have to keep banging on 
the 35. But, let me go back, first, to make sure I understand 
something.
    When you said, ``$2.8 billion out of the production will 
move, then, to the development,'' you're doing two things. Make 
sure I'm clear on this. One is, you're reducing down the future 
production, unless you get additional dollars. Am I right about 
that?
    Admiral Architzel. I'm sorry?
    Senator Begich. The question that you answered to Senator 
Burris; you had talked about how you're moving $2.8 billion in 
production dollars and you're shifting it to development 
dollars in the same program.
    Admiral Architzel. No, the $2.8 billion is what it would 
take to finish the research and development. To develop the 
engine would be another $2.9 billion.
    Senator Begich. But, you've shifted that from----
    Admiral Architzel. No, if we were to have to fund those, 
that money would go there, that would not be able to be put for 
other DOD needs or procurement areas. So, it's dollars spent on 
a program that we don't believe we need.
    General Shackelford. Senator, I think you're after the 
production dollars moving over to develop not for the engine, 
but for, how are we paying for the additional development cost 
of engineering and manufacturing development.
    Senator Begich. Right.
    General Shackelford. By flattening out the production ramp 
rate----
    Senator Begich. Let me make sure, because I like to keep 
things very simple. Flattening the production rate means----
    General Shackelford. The progression of numbers of aircraft 
that are purchased each year.
    Senator Begich. Right. Less per year.
    General Shackelford. A flatter increase, fewer aircraft, in 
addition to the previous year. For instance, in last year's 
budget was 30 F-35s. This year is 42. That number would 
continue to increase on an approximately 1.5-to-1 ratio each 
year.
    Admiral Architzel. Senator, if I could, the numbers are 
about the same, one was about development of the alternate 
engine and the second was about flattening of the production of 
the JSF so that we could then use that for additional system 
development and demonstration (SDD) phase costs we have to 
incur. The number happened to be about the same. I was 
addressing what it would take research and development to 
continue and finish the development of the alternate engine. 
This is on the ramp.
    Senator Begich. I'm on the F-35.
    Admiral Architzel. Okay. Thanks.
    Senator Begich. No problem.
    I remember last meeting, I think it was maybe 6 months ago, 
when I was in this room and we had a conversation about the F-
35, and it was indicated that there was trouble on the costing 
of it at that point, but it was not clear. One thing I had 
there which was a very helpful tool; I don't see it here. Maybe 
it was submitted. I don't see it in your testimony. But, I want 
to make sure I understand. The main goal is--and correct me if 
I'm wrong here--the F-35s replace legacy aircraft over time, 
but make sure we have capabilities, in essence. Is that a fair 
statement? I'm trying to keep it simple.
    General Shackelford. Yes.
    Senator Begich. I don't want all the long discussion about 
it, but that's basically what we're trying to do. But, I have 
yet to see, in very simple terms now, where you are on 
schedule--because you're behind--costs more money, which means 
somewhere, something has given, because, based on what I keep 
seeing about the deficit, the money isn't there, over the long 
haul.
    The third thing is, and I like to see things as very 
simple, where the facts are in what we have today, what we're 
going to have tomorrow, what we're going to have next year, the 
year after that, in capabilities. Do you have such a document 
you can share with us? I don't want a 40-page report. It was a 
very interesting chart. It showed exactly what production was 
going to be, how much was it going to be tested, when things 
might come online, and then, at the same time, what you're 
retiring, because that's a big piece of this equation, because 
you have, built into your budget, savings on retirements of 
some of the aircraft. You have modernization that's going on. 
So, how does that fit? Do you have such a chart that shows it 
over the 5 and 10 years?
    Admiral Architzel. We can certainly show you the production 
of the 135 as it goes forward.
    Senator Begich. I want it all together.
    Admiral Architzel. Okay. We could take that and produce 
that for you, sir.
    Senator Begich. Because the 35 is, over time, trying to 
replace certain types of aircraft, so we have great 
capabilities, but not diminishing our capabilities. Correct?
    Admiral Architzel. That's correct, sir.
    Senator Begich. Okay. What I've learned in the Armed 
Services Committee is everything's in silos. What I want to see 
is the whole show in a very simple document. Because the last 
document I saw showed that you had already slipped. I think, as 
Senator Brown pointed out, months, as well as very costly. What 
I'm trying to figure out, as we move down the line, how do we 
keep on the track a very expensive program, and I know there's 
variations in estimates, but I'm going to use mine: it's 
doubled in the cost per unit. It could go up more. To be very 
frank with you, I'm not as new as Senator Brown, but I'm new, 
and my confidence level on the ability to perform on this 
aircraft is low, in the cost end. Maybe it will be a great 
aircraft when it is all completed, but it is very expensive in 
a time when we have very little money. So, help me produce a 
flowchart that shows, over the next 10 years, or 20, not the 
next year, not the next 2, over a long haul. At the end of each 
year, what are we going to have as capabilities? What's in 
test? What's being retired? What does it look like in costing 
for that program, which includes the modernization of certain 
ones, the production of certain ones? Can that be done?
    Admiral Architzel. We can certainly produce that for you, 
Senator.
    Senator Begich. Do you not do that now?
    Admiral Architzel. No, we have that. I just would put it 
all in one document for you, the flowchart. I'm saying we can 
produce that.
    Senator Begich. Okay.
    [The information referred to follows:]

    [Deleted.]

    Admiral Architzel. But, the progress on the program, to go 
where we want to be with the JSF, the restructuring of the 
program also came with emphasis to the program we want to see 
or achieve those very goals you're laying out. How do we 
incentivize the contractor to actually make those goals? 
There's two things that are also embedded in a restructuring 
program, which is to take the award fee, a fee that we can 
take, and then incentivize that to goals and attainable things. 
What do we need to achieve in 2010? What do we need to achieve 
in 2011? If you attain those things, then you will be rewarded 
for that, and if you're not attaining those, then we would look 
to what would happen. Tying that to also, every time you have 
something affecting the 135, we have to be closely coupled to 
what we're doing on the legacy side, to make sure we don't end 
up aggravating our JSF inventory.
    Senator Begich. My time is up. Luckily, she dropped it just 
in time to give me another question. [Laughter.]
    I took advantage of that moment.
    If you could do that on the chart, that would be 
appropriate.
    The struggle I have, always, with DOD is the silo 
movements. As the F-35 gets developed, what I want to make sure 
is, when you make that decision that production is delayed, who 
then makes the decision on the rest of the aircraft to make 
sure you're not retiring it as quickly, or you're doing 
something with it? I want to just understand that, because if I 
don't have that basis, we're going to bang on your head here 
for another hour, probably; we'll ask lots of tough questions, 
then we'll all go away. What I like to see is the whole 
picture, then how those decisions are made, because what I find 
is, I will spend half of my time in the Senate, because I sit 
in these kind of meetings, and then individual meetings with 
generals about their programs, but they all seem to be not 
fully linked up, in my opinion. That's my view. Maybe in the 
Pentagon it's all linked up in some magic box. But, I'll tell 
you, I don't get that picture, so I'm trying to get that 
picture, and I need you to help me.
    Admiral Architzel. Senator, we can do that.
    To have Admiral Philman comment, I think would be helpful 
at this point. When we're talking about acquisition and 
delivering on new aircraft, and we're talking about the legacy 
and the JSF inventory, the CNO in his role to provide and equip 
the services we have, takes his existing operations and 
maintenance money, also is budgeting to the fact that we want 
to maintain those legacies, so that is married directly as 
things happen on the procurement side, they are going to have a 
direct impact over there. I'd like the N88 to comment on that 
for you, sir.
    Admiral Philman. Yes, sir, glad to.
    Senator, we take a holistic view of the whole inventory of 
our aircraft, along with our Marine Corps brethren who serve 
with us on the aircraft carriers. So, the F-35, which we are 
looking forward to, with all the capability it will bring to 
the battlespace, advanced sensors, advanced communications and 
connectivity, and the true stealth, to go very deep, early into 
the fight. We need that. But, until we get there, we will 
continue to work with our Es and Fs, and then modernize and 
sustain our legacy F-18 Hornets. So, we looked at that every 
day, about what aircraft are being retired, which aircraft can 
be extended, and how we manage, almost by each number aircraft 
down to the squadron level, how we can extend the life of those 
things.
    It's called the Service Life Management Program, in which 
the young commanders understand the remaining life on those 
airplanes, what kind of missions they can fly, and which ones 
are better suited for separate missions.
    I'll give you an example. As a young fighter pilot, I would 
go out and do high-performance maneuvering as soon as I got 
into the area. Then we would do some low G or more moderate 
maneuvering later on. As it turns out, we can get the same 
training if we reverse those things. We do moderate maneuvering 
when the aircraft's heavy with fuel, and then, as we get later 
in the flight, we do more dynamic maneuvering.
    Those kinds of things are looked at across the board, the 
numbers of airplanes that exist, the numbers of airplanes we 
need to modify through high flight-hour inspections, or 
potentially SLEP those airplanes, but as well as the airplanes 
that we're going to potentially purchase in the future, and 
what that mix is on the aircraft carrier and on the other 
places we deploy around the world.
    Senator Begich. Very good. Thank you.
    Thank you, Mr. Chairman, for letting me expand there.
    Senator Lieberman. Thanks, Senator Begich.
    Senator Chambliss.
    Senator Chambliss. Thanks very much, Mr. Chairman.
    Gentlemen, thanks for your service. Thanks for your 
leadership.
    Admiral Architzel, we've heard reports about the F-35, in 
testing, breaking cables on the carrier. What kind of report 
can you give us on that?
    Admiral Architzel. I'm sorry, sir. The F-35 breaking----
    Senator Chambliss. Cables on the carriers.
    Admiral Architzel. Sir, I have no knowledge of that report 
or anything. We have not begun to do any real testing. Where 
we're at today on the sea variant is confirming the static 
conditions, the static design of that airplane, which has gone 
very well in areas where we've actually uncovered some things. 
Places to restore static margin and fatigue margin have been 
put in place. That's the recent keel web correction. That has 
actually been implemented on the CF-5, and will be actually 
backfitted into 3. Three is actually in, so you can actually go 
and see that modification in place, and it will be production-
modified as we go forward.
    Senator Chambliss. All right. If what I've asked you about 
is a rumor, and I hope it is, I'd like to put it to bed. Could 
you just follow up in writing on that and just do whatever 
needs to be done and give me a response on that?
    Admiral Architzel. Yes, sir, I will tell you that's 
definitely a rumor but I will follow up, sir.
    [The information referred to follows:]

    The report that F-35 is breaking arresting cables during test is a 
rumor. There have been no incidents of F-35 breaking arresting cables 
during test.

    Senator Chambliss. Thank you.
    Admiral Philman. Senator, if I could?
    Senator Chambliss. Yes, sir.
    Admiral Philman. I believe you're referring to the stresses 
on the keel beam of the aircraft, not the arrested landing, but 
the catapult. That was determined through modeling, that the 
transfer of stresses from the catapult stroke on the aircraft 
carrier would potentially cause some cracking in the main beam 
of the aircraft. That was determined and learned very early. 
Just one aircraft is delivered, and that's actually a test 
model. So, that fix has already been implemented. Any further 
aircraft that will be delivered will have that repair already 
installed, sir.
    Senator Chambliss. Okay. Thank you.
    Admiral Architzel. Those are the kinds of things, Senator, 
that we are finding when you have the keel web structure we're 
talking about. There are other examples that we found in our 
static testing, which has gone forward very well, on all three 
variants, but it's the kind of thing you'd expect to find now, 
and then be able to make adjustments to it.
    Senator Chambliss. Okay.
    Admiral, I want to go back to your numbers on this gap. 
Let's talk about how we're going to fill that. I'm concerned 
about two issues there. Number one, obviously, is the gap 
itself. My understanding is, in 2008, the Navy projected an 
optimistic shortfall of 125 strike fighters by 2017. But now, 
subsequent reports project that may grow to 243 by 2018; 129 
for the Navy and 114 for the Marine Corps. That, coupled with 
the fact that today the Navy, particularly from the very 
important carrier-based operations, have no first-day 
capability in any theater where the enemy has sophisticated 
surface-to-air missiles (SAMs). We know that if we send those 
airplanes in there, we're going to have significant loss. So, 
if you will, address that shortfall for me; tell me how you're 
going to fill that shortfall.
    Admiral Architzel. Senator Chambliss, the Navy had looked 
at their shortfall numbers, and had reached the numbers you 
articulated. As we came into the most recent, which was the 
restructured ramp of the JSF, that put the number back up on 
the order of what you had there for 243.
    I mentioned all the levers that we're looking at doing 
across the Navy and Marine Corps to manage that inventory. 
We're committed to managing that inventory. Things like 
bringing on additional E/F squadrons, productive ratios, 
changing primary mission authorization on some squadrons that 
are expeditionary, and also looking how we manage, as Admiral 
Philman said, bureau number by bureau number, both in terms of 
fatigue life, as well as flying hours, to know we can manage 
that inventory. We're also looking to do things like high 
flight-hour inspections, which will give us additional hours on 
the legacy Hornets we have.
    Ultimately, when it comes down to it, we can inspect our 
way so far, to a point where we believe we can get to about 
177. Then we're going to need to do some SLEPs, which is a POM-
12 issue fund we'll come forward with, to know how many of 
those aircraft we would have to SLEP to get them to 10,000 
hours. To bring our manageable number down in the peak years 
you mentioned, of 2017 to 2018, of about 100 or less of an 
inventory management. Even with that number, we believe we can 
reduce that number some more by further efficiencies, whether 
it be in the depot or other areas we can comment to.
    I would ask General Trautman or Admiral Philman to comment.
    Senator Chambliss. Before you comment, General, you haven't 
mentioned filling it with additional F/A-18s. Is there any 
proposal to do that?
    General, please.
    General Trautman. Senator, I think the current plan is to 
buy another 124 F-18 E/Fs, which will buy out the proposed 
operational requirement (POR) of 515. It's important to 
understand how many airplanes we're talking about here: 635 
legacy Hornets, 515 E/Fs, 680 JSFs, and 150 AV-8s. The Nation 
has spent a lot of money on TACAIR for the Department of the 
Navy. I think it's incumbent upon us to manage these assets to 
the best of our ability, and that's what you're hearing when 
you're hearing us talk about managing these assets. We're 
trying to do it in a way that gets us to the vitally-needed 
fifth-generation strike fighter, the JSF, while also taking 
care of the key issues that face us in the warfighting venues 
that we may encounter over the next decade.
    The reason that these numbers fluctuate so much, sir, is 
because the model is very susceptible to the kinds of 
assumptions that you put in the front end. You can manipulate 
the front end almost any way that you want to manipulate it in 
order to have the number come out to any specific number that 
you want. It's almost impossible to predict 8 years from now, 
how many shortfall airplanes we're going to have, even if the 
ramp on JSFs stay precisely as we think it's going to occur 
today, and that's doubtful. Lockheed's been incentivized to 
beat the ramp that's laid out now, and they think that they can 
give us more tails between now and 2018.
    I'll just give you one more example and then I'll close. In 
fiscal year 2009, the model predicted we would attrite 15 
legacy Hornets. We attrited three legacy Hornets. So, right 
there we made a plus-12 on the kinds of numbers that had come 
in to you in previous sessions and with the numbers that you 
talked about. Believe me, we've spent a lot of time on this 
over the past several months; and the best that we can do is 
what Admiral Architzel said, which is, in about 2018, we'll 
have a shortfall of about 100 jets, given the management levers 
that we intend to apply, and we can take that even lower by 
finding some depot efficiencies. I'm incredibly confident that 
if we can keep the JSF on track, the Department of the Navy can 
manage their TACAIR inventory successfully.
    Admiral Architzel. Senator Chambliss, if I could, one 
point. The 124 aircraft that General Trautman mentioned, he 
indicated E/Fs. Actually, that's a combination of E/Fs and 
Growlers. That's the electronic attack variant. At the time, we 
had approximately 89 aircraft in 2009 that we were going to 
look to continue to finish out with. We ended up with 9 
additional E/Fs and 26 additional EA-18Gs, which is electronic 
variant. That put our number up to 124, as mentioned, to finish 
the procurement in 2013, sir.
    General Trautman. Admiral Architzel is exactly right. I did 
make an error on the 124, but the POR is 515 Super Hornets, and 
that's where we're headed.
    Admiral Architzel. That's true.
    Senator Chambliss. I hope that your optimistic view about 
the F-35 comes to fruition; but with the problems we've seen to 
date, and the IOC date keeps slipping. General Trautman, I 
think you've tested your variant on the F-35, and I don't know 
what kind of confidence you have in that variant right now, but 
that's probably going to continue to be an issue.
    What does concern me is that we're talking about spending 
tax dollars on a fighter that is second or third generation. 
I'm not sure that's the best expenditure of our money. As we 
move forward with this, I hope you're correct that that 
optimistic view of the F-35 ramp production is going to be 
there for us.
    Senator Lieberman. Thank you, Senator Chambliss.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I too, want to reiterate my thanks for your service and 
your leadership. Thank you very much.
    Recently, the Air Force announced plans to transfer 12 C-
130 aircraft from various Air National Guard units to an Air 
Force Reserve unit in Arkansas. This allocation, I understand, 
is intended to avoid the cost of purchasing new aircraft, while 
replacing the older aircraft in an aging fleet. However, the 
plan was not developed in conjunction with the Adjutants 
General, and its effect is, I think, to commandeer the aircraft 
from the Air National Guard without consulting the affected 
State Governors.
    General Shackelford, has the Air Force taken the Air 
National Guard's homeland security roles and responsibilities 
into account as part of this decision to reallocate the Air 
Guard assets? Does the Air Force have a modernization plan that 
does not sacrifice readiness in one component of the total 
force in order to achieve readiness in another unit?
    General Shackelford. Senator, if I may, I'd like to defer 
that to my colleague here.
    Senator Hagan. Sure. Thank you.
    General Shackelford. It's right down his lane.
    General Weida. Senator, thank you for asking that question.
    First of all, the Mobility Capabilities Review Study that 
came out certainly tells us that we have some overmatch in the 
C-130 fleet.
    As to the specific issue that you raise, within a week or 
so we'll have an Air Force position on where to go forward with 
that. We're taking that issue very seriously. We have it on 
board, and, if you will, I'll take that for record and give 
that to you.
    [The information referred to follows:]

    The Air Force Reserve Component formal training unit (FTU) plan, 
coordinated with the appropriate TAGs, temporarily transfers 18 C-130H 
aircraft within the Air National Guard and the Air Force Reserve 
Command to Little Rock AFB in support of the C-130 FTU. This plan 
alleviates the aircraft shortfall present with the necessary retirement 
of Active Duty C-130E model aircraft currently operating in the FTU. 
New C-130J aircraft, purchased to recapitalize the older C-130 fleet, 
cannot be used for legacy C-130H FTU training due to significant 
aircraft differences. With 77 percent of the current C-130H force 
structure residing in the Air Reserve component (ARC), the ARC has the 
only available capacity to assume the mission of building and 
sustaining a qualified C-130H crew force.
    Fiscal year 2011 PC C-130 force structure reductions are based on 
excess capacity identified in MCRS-16, and the Air Force will 
accelerate planned retirements of the oldest C-130s (E model, average 
age--46 years) and retire a portion of the next oldest model (H1 Model, 
average age--36 years) to avoid increasing sustainment and 
modernization cost. The Air Force has a two-pronged approach for 
modernizing our mobility  C-130  fleet;  C-130J  procurement  to  
recapitalize  the  oldest  C-130  E  and  H  model  aircraft  and  the  
Avionics  Modernization  Program  (AMP)  to  modernize  newer  C-130Hs. 
 The  AMP  program  currently  modifies  all  207  ARC  mobility  C-
130Hs  plus  14  Active  Duty  C-130Hs.  As  the  C-130H  fleet  
modernizes,  legacy  C-130  FTU  training  requirements  will  decrease 
 over  time  and  ANG  aircraft  will  transfer  back  to  the  home  
State.
    Homeland security and disaster assistance requests will be met 
utilizing the Global Force Management process to ensure the combatant 
commander receives the most effective airlift platform supporting the 
needs of the State (Title 32) and Geographic Combatant Commander (Title 
10). ANG homeland security missions will be minimally impacted as 
States may negotiate State-to-State agreements to augment airlift 
capabilities as has been done in the past.

    Senator Hagan. North Carolina is obviously one of the 
States that is affected. I'm not sure I understand what you 
mean by overmatch.
    General Weida. Capability areas that we have today in 
excess of the requirement for our warfighting needs.
    If I could follow on, virtually everything we do in the 
Department, we try and take a total-force perspective--Active, 
Guard, Reserve, and, for that matter, civilian. In the Air 
Force, we have a process called our Total Force Initiative 
process, of which we have 142, currently, that our Chief of 
Staff tracks. We'll give you a specific answer on this issue. 
As a matter of fact, the last couple of days, we have talked 
about that in the Department.
    Senator Hagan. I think several of us have sent letters, but 
it's certainly something that's of concern, I'm sure, to the 
States that are affected by this.
    General Weida. I understand, ma'am.
    Senator Hagan. DOD has devoted significant resources, I 
know, to the development of the fifth-generation strike 
aircraft that are intended to operate in environments with 
significant and advanced air defense systems. However, most of 
the flight hours during Operations Iraqi Freedom and Enduring 
Freedom have been in environments without those kinds of 
antiaircraft capabilities, where the performance 
characteristics of the fifth-generation fighter aircraft aren't 
necessarily required. Are any of the Department's unmanned 
aviation programs, such as the RQ-4, the MQ-8, the MQ-9, or the 
unmanned combat air systems, being developed with the goal of 
providing a lethal, precise, persistent, and responsive 
platform that has the ability to perform armed reconnaissance 
strike in close air support in a manner that could reduce the 
reliance on the fifth-generation aircraft in these 
semipermissive environments?
    Admiral Architzel. Senator Hagan, I think it's an excellent 
question, and it is one that the Department of Navy is pursuing 
actively. On the requirement side, if I could, I'll turn to 
Admiral Philman to address this.
    Senator Hagan. Thanks.
    Admiral Philman. Yes, ma'am. We take very seriously how we 
can get the most capability to the warfighter with the least 
amount of usage. We don't want a high-end aircraft doing 
something that we could be doing with something smaller or less 
expensive, certainly.
    We are looking at all those aircraft, vertical aircraft, as 
well as long-dwell broad maritime sensor bands, which is a 
variant of Global Hawk for long-dwell sensing over the ocean as 
well as being a low-hanging satellite to maintain connectivity 
with the carrier strike groups and other strategic systems. 
Related to our P-8, our maritime patrol aircraft. So, the 
program has fewer of those aircraft, with the expectation that 
the long-staring surveillance will be done by an uninhabited 
aircraft, then, when the real work needs to be done by humans, 
can be brought in with the P-8. That's one example.
    The Navy Unmanned Combat Air System you mentioned is a 
demonstration to prove that we can do unmanned aircraft off the 
aircraft carrier. That demonstration will prove itself by 2013, 
with launches and recoveries aboard the aircraft carrier, as 
well as airborne refueling. But, that is a shape; it's not a 
real program yet. What we learn from that will be transferred 
into other systems that we could use from the aircraft carrier 
or ashore that will do just those things.
    Everything is to be a multiuse system. Is it a striking 
airplane with some ISR, or is it mainly a surveillance system 
that could also have some striking capability? So, we'll look 
very closely at that. We do procure with some forethought.
    Senator Hagan. Thank you.
    Also, on April 2, 2010, a press release from the U.S. Fleet 
Forces Command announced that various delays have pushed the 
outlying landing field's timeline to the point that it will now 
coincide with the commencement of the Environmental Impact 
Statement (EIS) process for home basing of the F-35C Navy JSF.
    Admiral Architzel, when do you anticipate collecting the 
sufficient testing data from the F-35C in order to conduct the 
EIS process?
    Admiral Architzel. Senator Hagan, let me begin, then I'll 
turn it back over to Admiral Philman. We've already begun 
collecting the environmental data through our testing, both at 
Fort Worth, and the STOVL aircraft at Pax River. That will feed 
into the models that will ultimately populate the plan.
    I'd like Admiral Philman to talk more about the EIS.
    Senator Hagan. Admiral, let me ask one other question while 
you're answering this one, too.
    Is consideration being given to home-basing the F-35C 
squadrons in a manner that differs from the current 
concentration of the F/A-18s in order to address the training 
capacity limitations at Fentress and obviate the need to 
establish additional landing fields to support the squadrons 
based at Oceana and the Chambers field?
    Admiral Philman. Ma'am, as was mentioned, we're still 
gathering the data so we can make a determination on what the 
impact to the environment will be, in every combination of 
existing bases, as well as some others that aren't 
traditionally master jet bases.
    That study is still going on within the Department of the 
Navy, so that we can bed down our aircraft in the most 
efficient way, capturing the training ranges, the existing 
infrastructure, and the logistics that can be most efficiently 
used.
    Regarding the outlying field, if you bring more airplanes 
or we have to do the carrier landings, we will have to give 
that some consideration. The Fentress airfield does not meet 
our complete need in the type of landings that it requires us 
to do. It's not completely representative of the aircraft 
carrier landing environment. So, either at Oceana or at another 
place, there will probably be an additional field needed. That 
has not yet been determined, but the requirement does exist, 
ma'am.
    Senator Hagan. Thank you.
    Thanks, Mr. Chairman.
    Senator Lieberman. Thanks very much, Senator Hagan.
    Senator Kaufman, good morning. We have a really outstanding 
turnout this morning, which, I think, testifies to the interest 
in, and concern about, our TACAIR programs.
    Senator Kaufman.
    Senator Kaufman. As a brand new member, being here for 2 
weeks, I just want to follow up on Senator Hagan's comment to 
General Weida. I know you're studying this shift to the C-130s 
right now. I know you understand better than anyone how 
important that is to our homeland security and what a big 
portion of our total lift is involved in the Air National 
Guard. I just wanted to encourage you to take a hard look at 
that, and talk it over with the Air National Guard folks, which 
I know you'll do. I look forward to that.
    General Weida. Absolutely, sir.
    Senator Kaufman. I want to thank you all for your service. 
It's hard to come up with new words to express how impressed I 
am with our armed services today, and what a great job they're 
doing. I just got back from Afghanistan, Pakistan, and Iraq, 
and I want to tell you I wish every American could go over 
there and just spend a day with anything from the lowest 
ranking officer to the top and just watch what they do--the 
quality of their work, the courage, the way they follow 
through, the high morale, and the ability to do their job, just 
in so many ways. So, as a new member of this committee, I just 
want to tell you, I'm proud to be on this committee and I'm 
very, very proud of our armed services.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thanks, Senator Kaufman. Thanks for what 
you said. I know every member of the committee agrees with 
that. I appreciate your saying it.
    We'll do a second round. Let's try to keep it within 5 
minutes, if we can, this time.
    I just want to make a statement. There have been a few 
references to the F136 alternate engine being a fixed-price 
contract. My own understanding of this is that the F135 and 
F136 are both developmental cost-plus programs now. Although, I 
gather GE has offered to make it a fixed-price contract, and I 
gather that Pratt Whitney has essentially done the same, as we 
go after the developmental stage. Am I right?
    General Shackelford.
    General Shackelford. Senator, those type of development 
programs invariably, in the past, have started out as cost-plus 
contracts.
    Senator Lieberman. Right.
    General Shackelford. As soon as we have confidence in the 
design baseline and the productability of the engines, we move 
as quickly as we can to fixed-price.
    Senator Lieberman. Got it. That's what we can expect to 
happen here.
    General Shackelford. That's where we are.
    Senator Lieberman. Let me focus in on one aspect of time 
delay for the JSF, and that is the potential delays in the 
estimated dates for IOC. I thought I'd ask General Trautman, 
General Weida, and Admiral Philman on this one. If each of you 
would define what IOC means for your Service. When, under the 
new plan, do you think your Services will achieve IOC?
    General Trautman?
    General Trautman. Senator, I'll go first, since our IOC is 
projected to occur first, in December 2012, 2 years and 9 
months from now. We realize we have a lot of work to do between 
now and December 2012. We're not naive about what it will take 
to stand up an IOC of our first squadron.
    First and foremost is that our industry partner is going to 
have to deliver, going to have to come to the fore and deliver 
the airplanes on time and create the sorties that generate the 
test points that are demanded of us.
    But, as we perceive December 2012 now, we think we'll have 
a squadron of 10 aircraft in the Block 2B configuration, as 
described in the JSF operational requirements document. That 
will give us a STOVL-capable airplane, very low observable 
capability, which will enable us to go places that none of our 
airplanes can go today, longer range that the Super Hornet, and 
with fused computing power and sensors on board that will 
enable us to operate across the range of military operations, 
either from sea or from an expeditionary environment.
    Now, that's not the final configuration of the Marine Corps 
F-35B. We intend to do the block upgrades and software right 
alongside our Navy and Air Force partners as they move into 
Block 3A, Block 3B, and Block 3C. So, by the time we get to 
2014, which is our first planned deployment of F-35B, we'll 
have a Block 3C airplane, if the program stays on track as 
currently laid out.
    People wonder, why did the Marine Corps' IOC not change 
when we had the restructuring of the program?
    Senator Lieberman. Right.
    General Trautman. The answer to that is that everything 
that we need for our initial operational squadron was procured 
in 2008, 2009, and 2010. That includes 5 test airplanes, 15 
airplanes for our fleet-readiness squadron, which just stood up 
last week, and our 10 planes for our initial squadron. What the 
restructure did do, it slowed down the ramp of our subsequent 
squadrons beyond that first squadron. For example, our second 
squadron will now stand up 6 months later than it originally 
projected. So, that's where the impact of the restructure hits 
the Marine Corps.
    If we reach December 2012 and we have not accommodated all 
of the things that we need with regard to training, aircraft 
capability, logistics support, and shipboard compatibility, we 
will not declare IOC. We will wait until we attain those 
objectives.
    Senator Lieberman. Okay. I think I'll focus in on my 
followup question, too, because I'm concerned--and I know you 
know others are--about risks of declaring that you have IOC 
before the JSF has received all of the capabilities intended. I 
want you to come back and respond to that concern, that by 
accepting the JSF in the Block 2B configuration, as compared to 
the Navy and the Air Force, which we're going to wait for the 
Block 3 configuration, are you assuming that they hit the Block 
2B capabilities by December 2012, are you accepting a risk that 
really is forced on you by this process that hasn't worked well 
and by the fact you want these planes?
    General Trautman. We do want these planes. But, it's the 
opposite of accepting risk. We're replacing an AV-8 squadron 
with a far, far more capable platform. The F-35B, at the Block 
2B configuration, will be able to carry two AIM-120 missiles 
and either two 1,000-pound Joint Direct Attack Munitions or two 
500-pound laser-guided bombs initially. Then it will grow from 
there, with external stores becoming capable in the subsequent 
months. This airplane will be so far more capable than the AV-8 
squadron that it replaces that it's an easy decision for the 
Commandant to make, with regard to standing up this squadron.
    We have to have all the testing done. If the testing isn't 
done, if we haven't validated that all risk is mitigated, we're 
not going to do something foolhardy, obviously.
    Senator Lieberman. Okay. You've answered my question. I was 
going to ask the question, which you might say is in the 
extreme, which is whether you're confident that combatant 
commanders would essentially accept the JSF in the Block 2B 
configuration. I take it what you're saying is, it's not up to 
Block 3, but there's no question that they would be happy to 
have those plane flying.
    General Trautman. It will be the only very low observable 
airplane that can come off any ship for several subsequent 
years.
    Senator Lieberman. Right.
    General Trautman. The reason we want to do it is precisely 
the kind of combatant commander need that may prevail 
subsequent to that standup.
    Senator Lieberman. My time is actually up, so I'm going to 
ask Admiral Philman and General Weida, if you could give a real 
quick answer to the question of IOC.
    Admiral Philman. Yes, sir. For the U.S. Navy with the F-
35C, which is a tailhook variant, in December 2016, with the 
requisite number of aircraft, 10 for the squadron, the Block 3 
capability delivered and that capability was then tested and 
vetted and is ready for deployment.
    Senator Lieberman. General?
    General Weida. Sir, for the Air Force, IOC criteria is 
spelled out very specifically in Operational Requirements 
Document (ORD), Change 3, dated August 19, 2008. It's the Major 
Command, Commander of Air Combat Command, that sets that, and 
there's a very specific criteria. The large pieces are Block 3 
initial operating test and evaluation complete, 12 to 24 jets 
capable of conducting anti-access, offensive counter-air SEAD-
and-DEAD mission, pilots' maintenance support, logistics, 
equipment, trained and ready, and mission ready.
    As far as a date, our best estimate right now, based on all 
that we know, is first quarter of 2016 for IOC. But, again, it 
is the Commander of Air Combat Command taking all into account.
    Senator Lieberman. Okay. Thank you.
    Admiral Architzel. Senator Lieberman, if I could, sir. One 
additional comment, only from the aspect of, how are we going 
to assume for General Trautman, for example, the confidence 
that he has? One area we had concern, across all variants, was 
our development of the software and coming on board with that. 
Part of the restructured program was actually to add an 
additional software integration line which reduced some of the 
risk on our software upgrade as we go forward. In addition, we 
added that goal in support of looking at this for software 
Block 2.0 to measure the company against that performance in 
fiscal year 2011, which would also add to supporting the IOC 
for the Marine Corps to have that Block 2 capability.
    Today, we're flying Block 0.5, and we are testing Block 1. 
We are coding Block 2, and we're developing Block 3. That's 
where we are across the board on these software developments. 
Addressing that very issue is what's been done, sir.
    Senator Lieberman. Okay. That's helpful, because it is the 
software, less than the goal in the software, that was my 
concern.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. Mr. Chairman, I 
think the great turnout among Senators at the subcommittee this 
morning is the inspiring leadership of the chairman. 
[Laughter.]
    Senator Lieberman. Yes. Thank you.
    Senator Thune. General Shackelford, the recently released 
2010 NPR calls for keeping in place the Nation's so-called 
nuclear triad, which is comprised of bomber aircraft, 
intercontinental ballistic missiles (ICBMs), and nuclear-armed 
submarines. Against that backdrop, what is the Air Force's 
strategy for developing long-range strike capability? What role 
in that strategy will a next-generation bomber play, in your 
view?
    General Shackelford. Senator, if I may, I'll defer to 
General Weida.
    Senator Thune. General?
    General Weida. Sir, first and foremost, I will tell you 
that your Air Force has been part of the team looking at both 
the NPR and its development and has also been integral to the 
team that has been part of the negotiating of the new START; 
and so, all along, looking at the Air Force equities to ensure 
that for two out of the three legs of the triad, we felt we 
were in a good position to go forward.
    To start with, a new START as it pertains to the next-
generation long-range strike platform; first of all, the treaty 
is only a 10-year treaty, with a 5-year extension. The new 
bomber will be outside that treaty, so it will probably be 
covered by a different set of circumstances. But, in either 
case, we'll take a whole family-of-systems look at that new 
long-range strike platform, with our other legacy assets, when 
we make force-structure decisions.
    Senator Thune. What does that family of systems mean, with 
regard to the follow-on bomber?
    General Weida. Great question, sir, and thank you for 
asking it. For QDR-10, the Secretary of Defense asked us to go 
back and look at this so-called family of systems, and most 
people think and focus on just the long-range strike platform 
itself. But, this capability is in a threat scenario, that 
anti-access, very difficult threat scenario. As we looked at it 
very carefully during the QDR, in order to be successful in 
that environment requires a whole set of capabilities, long-
range strike being one, some kind of early warning platform, 
some kind of ISR platform, some kind of standoff missile, and 
conventional prompt global-strike capability rolled into that 
concept. Although we have done a lot of previous studies on 
just the long-range strike platform, this study is a little 
broader look at how we attack this anti-access problem 
holistically.
    The other thing that I would add, since I have my Navy 
colleagues here at the table, is, we were also tasked, out of 
QDR-10, to come up with what we call the air-sea battle 
concept, to work with our Navy compatriots in that very 
difficult scenario, and come up with a way we would operate 
more efficiently to get together as a joint team.
    Thank you, sir.
    Senator Thune. Let me ask you, with regard to the START, 
because my understanding is, right now we have 44 nuclear-
capable B-52 bombers, 16 nuclear-capable B-2 bombers, 450 ICBMs 
based on land, and 336 based on submarines. That gives the 
United States a total of 846 launchers, and the Treaty permits 
800 launchers, but says that only 700 may be deployed. If you 
add up the ICBM and submarine-based missiles, you have 786 
right there. Tell me, if the number of deployed launchers is 
700, might there be a tendency to rely more on the most 
responsive and survivable-type launchers, and less on B-2s and 
B-52s? How does this impact the triad? Explain to me, if you 
could, the distinction between deployed- and nondeployed-type 
launchers.
    General Weida. Yes, sir. I'd start out answering that 
question by saying that, all along, during negotiation of the 
new START, that the Services worked very closely with the 
negotiating team so that we looked at all options, as it would 
pertain to force structure and the required capability that the 
Commander of Strategic Command would ask from the Air Force. As 
different numbers were proposed and eventually agreed upon, we 
were part of that team, and we felt comfortable that, going 
forward, we could maintain our strategic deterrent posture with 
our nuclear forces and focusing, for the Air Force, on two out 
of three of those legs.
    Now that we finally have an agreement, we'll further refine 
that to look at the exact force-structure implications that we 
need to fit in within the 700 deployed strategic vehicles, and 
then the larger number--800--of nondeployed strategic vehicles. 
The difference between the two just is how they're postured and 
ready to go, whether they are mated with weapons or not, and 
their location and condition.
    There are a range of possible courses of actions to get to 
that final force structure between the three legs of the triad. 
We're not at that point yet. In the next weeks and months, 
we'll work very closely with General Chilton, the Commander of 
Strategic Command, because he has the overall responsibility to 
set the requirement and do the warfighting analysis to see 
exactly what we need.
    Senator Thune. You don't see the triad being in any 
jeopardy?
    General Weida. From the Air Force perspective, no, sir.
    Senator Thune. That's comforting, from the Air Force 
perspective, but I'm not sure.
    I think that's all. I'm out of time, Mr. Chairman.
    Senator Lieberman. Thanks, Senator Thune. Thanks for 
raising that important question.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    Gentlemen, I've been sitting, listening to all this great 
testimony, and I just want to be a little pessimistic here. 
Because, as I hear all of the excellent testimony, I'm just a 
little bit concerned about the delays that are involved in the 
production of the F-35. I hear the testimony on the IOC, that 
it's going to be put in place on this timetable and on this 
schedule. I just wondered if we don't have something here that 
we're asking software or the technology to be so sophisticated 
that we get to the end of the line and all of this cannot be 
integrated to replace those other three legacy aircraft that 
we're talking about. I'm just wondering, what is the backup 
plan in case we get to the point where the software won't 
really do what the engineers or all of the planners have 
anticipated and we run into a problem of trying to scale back 
or adjust and make adjustments? Have any backup plans been 
taken into consideration during all of this planning and the 
delays that we're running into and what venture to say is going 
to be some cost overruns involved here. Any thought given to 
that? Admiral, you probably want to take a shot at it; and, 
General Shackelford, you may want to take a shot at this. But, 
listening to the testimony, this is just a gut reaction that 
I'm getting, and want to make sure that we have something in 
our backup plan, if the F-35 runs into all these other 
technical difficulties; this is not going to integrate with 
that and this software piece won't meet in with that, because 
we're trying to ask this plane to do quite a few things, 
whether it's (a), (b), or (c). They're going to have to do all 
of these various functions. I don't want to wish anybody bad 
luck, but I just wonder. Have you got any backup on that?
    Admiral, would you like to take a shot at this?
    Admiral Architzel. Senator Burris, I thank you for that 
question, and I understand the concern you're raising and 
appreciate it. We have taken the strides to restructure the 
program to address a lot of areas within it that have been not 
performing to expectations. However, there are many, many 
assets of the program that we have not discussed that are going 
along extremely well. In the area of seeing how we're matching 
to our model expectations, in terms of growth, and in terms of 
developing the systems that will go forward in the future to 
get us that fifth-generation fighter across the board, as well 
as the progress on this aircraft, in terms of getting the 
flight vehicle itself to the point where we're confident in it 
being able to sustain and go forward. By that, I mean the 
greatest risk, in my mind, would be to the flight vehicle. We 
have seen significant progress and very good, excellent 
progress, in terms of static-load testing on all three 
variants. I believe we will continue to see the progress on the 
mission side, as we go forward.
    We do need to get the aircraft into test, no question about 
it. We need to get into the tests so we can expand the envelope 
so we can then get into bringing on the software development I 
mentioned, which was to get additional line that could take an 
expanded software integration line that would allow us to get 
to this Block incremental release of software, so we can show 
that capability to you. That all has to happen. We're going to 
proceed on the restructured plan to do that.
    To your point about a fallback plan, sir, I would just say 
that we need to maintain our legacy capabilities, through 
modernization and obsolescence, to make sure that we have that 
capability to fall back on. I would turn it to General 
Shackelford.
    Senator Burris. So, you're going to keep our legacy planes 
operative.
    Admiral Architzel. We absolutely will ensure we have a 
combat-ready force as we go forward, with full expectation that 
we need that fifth-generation capability, but we are going to 
ensure we maintain the forces that we need today for the 
Department of the Navy, sir.
    Senator Burris. General?
    General Shackelford. Senator, within the F-35 program, you 
could generally think of two areas that we need to come to a 
good understanding. One is the structural capability of the 
airframe. The other one is the avionics, or the software, as 
you refer to. We're well along the path of confirming that the 
structures for all three variants are sound. We have high 
confidence at this point that we don't have a fundamental flaw 
in the structure of the airplane itself. We would expect to get 
that confidence early in the program.
    The software comes over time. In order to mitigate the 
complexity of this software, the program is built around an 
unprecedented level of software integration laboratories, 
including a flying test bed that integrates all of those 
systems together on a flying platform. Granted, it's not in the 
aircraft, but it's wired true to form for distance, cable 
lengths, positions of antennas, and whatnot, to what will be in 
the actual aircraft. As we progress through the software 
coding, software maturation, through the laboratory 
infrastructure, through the flying test bed, and finally on to 
the aircraft itself, it's a matter of verifying the capability 
by the time we actually get it on the aircraft.
    Senator Burris. Pardon me, General. My time has expired. 
But, you said it's going to have to be tested. Is the test 
period factored into our schedule?
    General Shackelford. Yes, sir, by all means. In addition, 
we have a strong focus on what's called mission systems flight 
testing, which is the testing of that software.
    General Trautman. Senator, do I have time to add one point 
to your question?
    Senator Burris. Sure.
    General Trautman. What's lost in the discussion about the 
cost growth of the program over the past couple of years is the 
fact that, after rigorous analysis, everyone who has looked at 
this program has found no technical, manufacturing, or 
performance issues associated with these jets. That's a level 
of confidence that in every other program that I've ever been 
involved in, we did not have. The STOVL variant of the JSF has 
been flying since June of last year. Since November of last 
year, we've had three STOVL variants at Patuxent River. They've 
been generating sorties since January 1. They've generated test 
points ahead of the plan. We hovered the airplane, we did a 
short-takeoff roll of 700 feet last month. We just rolled off 
the flightline the first mission systems STOVL airplane that's 
built from the ground up with all mission systems incorporated.
    So, there's a lot of optimism on the technical side of this 
airplane, as we have to press the manufacturer to control costs 
and meet the production delivery schedules.
    Senator Burris. You hope they don't cut corners?
    General Shackelford. Absolutely. You're right.
    There are good quality-assurance measures in place to 
ensure that doesn't occur.
    Senator Burris. Thank you.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thanks, Senator Burris. We appreciate 
it.
    Senator Begich.
    Senator Begich. Mr. Chairman, thank you very much.
    Thank you for your willingness to put together something 
very visual for me, a chart showing the whole schedule, but let 
me ask you one or two quick questions.
    You talked about incentives for the contractor, to make 
sure they meet the schedule and the quality that you're looking 
for. Can you describe what those might be?
    Admiral Architzel. Senator Begich, yes, I'd be happy to, 
sir. For example, in fiscal year 2010 we said we wanted to see 
the STOVL vertical landing. By the way, that's been 
accomplished at Pax River. Next was to see the first carrier 
variant (CV) flight by May, or no later than June. That's on 
track to go forward with that CV-1 variant. There are 11 test 
aircraft delivered to Pax River and Edwards, on track to 
produce that, as well, sir. But, the 1.0 software, which we 
need to be able to train and fly at Eglin as we go forward; to 
have 400 test flights accomplished during the course of 2010. 
We're on a glide slope today of somewhere around 180 already 
this year, which puts us on that glide slope to meet that 
requirement. Additional LRIP deliveries to Eglin, at least 
three for fiscal year 2010. When we go to Eglin, to be able to 
bring on the Automic Logistic Information System (ALIS) at that 
time, as well.
    There are similar metrics within fiscal year 2011. Some of 
those involve initial STOVL developmental testing on the L-
class ships; land-based catapult and arresting-gear launches at 
Lakehurst, which is our land-based facility for aircraft launch 
and recovery equipment; Block 2 software release; completion of 
the static testing is ongoing on all three variants.
    Senator Begich. If I can interrupt you, Admiral.
    Each stage that you've identified, is it that there's an 
incentive built in for them to meet that, or that's their 
requirements, in the scope of the contact, that they must meet 
this, and if they don't, there's a penalty?
    General Shackelford. Senator, we, as part of the 
restructure, withheld what would become $614 million of 
available award fee under the previous contracts.
    Senator Begich. $614 million?
    General Shackelford. Yes, sir. Those dollars are being 
realigned into performance incentives, of which there are 23 
items that take place over the remainder of the development 
contract, that are tied to receipt of those dollars.
    Senator Begich. Let me make sure I understand that. Within 
the contract, you have about a $614 million incentive bonus 
built in for certain achievements metrics that they meet.
    When they bid on this, or when they came in for the 
contract, was that part of the equation at the front end?
    General Shackelford. No, sir.
    Senator Begich. That leads me to the next question, if I 
could just hold you there, and then you can elaborate from 
here.
    Assuming they said, ``Here's what we're going to do. Here's 
the scope of services we're going to provide. Here's the 
timetable we'll provide them.'' Assuming the contractor laid 
out some of that in early stages, they probably had some 
timeliness, and if they didn't meet those timelines, put the 
bonus aside for a second, were there penalties that would 
reduce the contract? In other words if I'm bidding to provide 
you this glass of water today, and you say, ``provide it,'' and 
I say, ``I'm going to provide that for $1, a year from now,'' 
and, later in the contract, there's a bonus if I provide it in 
9 months, I get a little bonus for it, but if I don't provide 
it in a year, you still pay me. Is there a deduction?
    General Shackelford. Yes, sir.
    Senator Begich. Okay.
    General Shackelford. The previous contract was structured 
as an award-fee contract, which is, by nature, subjective; fee 
is another word for profit.
    Senator Begich. Right.
    General Shackelford. That's based on a scale of performance 
that is more subjective in nature, as opposed to the specific 
performance incentives that we're talking about now.
    Senator Begich. Go ahead.
    General Shackelford. As you came to the end of each award-
fee period, which would typically be 6 months or a year long, 
there would be a potential for some maximum fee, and they would 
receive a percentage of that, based on the subjective 
assessment of their performance.
    Senator Begich. Yes.
    General Shackelford. Now there'll be specific events, that 
are under negotiation right now with Lockheed as part of the 
restructure, that if they don't achieve those events within a 
timeline that they negotiate as part of the restructure, they 
don't get any funding.
    Senator Begich. Is it fair to say that it's not; I know the 
word I used was incentive. It was really, ``Here's the scope. 
If you don't make it, we're not paying you this money.''
    Admiral Architzel. That's right.
    Senator Begich. Is that a better way to say it? It is an 
incentive, but it really is part of the overall contract.
    Admiral Architzel. Yes, sir. It's tied to achievable 
milestones, I just enumerated some of them, but there could be 
many more that could be outlined within there. Then the 
contractor performs to that. If he does, he's eligible to earn 
fee. If he doesn't, he's not eligible to earn that fee.
    Senator Begich. So, the restructuring created a different 
kind of scheduling of the resources you had available to 
provide to the contractor. You just scoped it out over a period 
of time, but with these milestones they have to meet, and if 
they don't meet them, that chunk of money isn't paid to them.
    General Shackelford. That's correct.
    Senator Begich. Or you end up in some negotiations with 
them, but the idea is that this is a way to hold their feet to 
the fire in production of the levels you need to get to.
    Admiral Architzel. Right.
    Senator Begich. For example, the 2012, which is the 
earliest date. Is that a fair statement?
    Admiral Architzel. Another way to look at it would be a 
cost-plus environment, we are looking, when we can, to 
transition to fixed-price contracts.
    Senator Begich. Which we love. &
    Admiral Architzel. But, we have to look for the proper time 
to execute that. That's part of this, as well, moving from a 
cost-plus to a fixed-price environment.
    Senator Begich. Very good. Thank you very much for that 
explanation.
    Thanks.
    Senator Lieberman. Thanks, Senator Begich.
    I have a few more questions, actually both for General 
Shackelford.
    General, last year, you testified to this subcommittee that 
paying for the F136 alternate engine program from within the 
JSF program could force you to buy fewer JSF aircraft over the 
Future Years Defense Program (FYDP). At that time, you said, 
``Over the 5-year period--it would be 53.'' In other words, 
continuing the F136 program could actually exacerbate the 
strike fighter shortfall in the Navy in the near term and could 
have adverse affects on the Air Force inventory posture, as 
well. I wanted to ask you whether those projections are the 
same or whether you've in any way updated your estimate about 
how many JSF aircraft would fall out of the production plan 
over the FYDP if we continue the F136 alternate engine program?
    General Shackelford. Senator, a year ago, as we were 
looking forward to the potential to fund the remainder of the 
development program on the F136--our fear was that having those 
dollars taken out of the F-35 program funding line, to fund 
that engine, would come at the expense of production assets. 
Given the dollar figure a year ago, which escapes me at the 
moment, that equated to 53 aircraft to go pay for that across 
the different variants.
    We have not looked specifically at a production offset 
number to compare to that 53. We can take that for the record 
and estimate that, if you would like.
    Senator Lieberman. I'd appreciate it if you would. Thank 
you.
    [The information referred to follows:]

    At the time I testified last spring, the program office had 
estimated that 53 aircraft would have to be forsaken to fund the 
alternate engine program. Since that time, the Office of the Secretary 
of Defense Cost Assessment and Program Evaluation (CAPE) has estimated 
that it would take $2.9 billion to complete alternate engine 
development and put the alternate engine program in a competitive 
position for production. CAPE did not estimate how many aircraft would 
have to be forsaken to fund the alternate engine since the Department 
has not intention of foregoing aircraft in favor of the alternate 
engine program.

    Senator Lieberman. Second brief question about the Joint 
Surveillance and Target Attack Radar System (JSTARS). I've been 
a big supporter of JSTARS, and it's really a workhorse program 
of the Air Force which the other Services, particularly the 
Army, depend on a lot. I know that the Air Force is planning to 
conduct an analysis of alternatives (AOA) on the best ways of 
achieving moving target indicator (MTI) capability. I wanted to 
ask you this morning, General, when will the Service be able to 
provide this committee with the results of that AOA regarding 
MTI capability?
    General Shackelford. Sir, that AOA is just getting underway 
now and runs out until approximately the middle of next year. I 
would estimate we might have something preliminary to say about 
it next spring when we come back here.
    Senator Lieberman. Good.
    Finally, in that regard, will the Air Force continue the 
JSTARS re-engineering programs and the Multi-Platform Radar 
Technology Insertion Program (MP-RTIP) development in the 
meantime, while you're completing the AOA?
    General Shackelford. Yes, sir, we are planning and 
executing the completion of the development program of JSTARS 
re-engineering, as well as buying a total of four ship sets 
under the present budgets. As we look at MP-RTIP, we're 
continuing with MP-RTIP development for the Global Hawk 
platform. The drawback to both of those sensors--the size of 
the Global Hawk platform, as well as the frequency and 
capability for geolocation of the APY-7 that's in the JSTARS--
are what are at question under this AOA to meet today's need 
for dismount detection and tracking.
    Senator Lieberman. Good enough. Thank you. I'll follow 
those developments with some interest and look forward to 
working with you on them.
    Thank you.
    Senator Thune.
    Senator Thune. Just a couple of quick questions, Mr. 
Chairman.
    This is to Admiral Architzel. You talk about milestones to 
make sure the JSF program in on track. I guess the question I 
have is, what specific milestones should we, as Members of 
Congress, expect in this next year in order for us to know that 
the program is on track and that it's going to be successful? 
What should be our expectation, as Members of Congress, this 
year?
    Admiral Architzel. Senator Thune, I appreciate the 
question. I would look for some very key things that are in 
fiscal year 2010, which is, we should see the CV variant first 
flight no later than June. We have put additional test assets, 
or we will, into the SDD program. We need to start seeing 
progress; continued movement in the actual flight test to 
gather the data we need to gather, in terms of flight tests. We 
really are at the very beginning of that. We need to see that 
those assets show up at both Patuxent River, which they are, in 
the STOVL category today, and also at Edwards. I would look to 
that, and when those aircraft arrive. I'd look at the measures 
that say we do the software development that's going to allow 
us to be moving towards Eglin for advanced training in an 
envelope that allow the pilots to be able to train when they 
get to Eglin in the future. Those are some very key things. 
Also, with the ramp for the LRIP, that we want to see in the 
aircraft, going forward. There's some very discernible things 
this year that we can see that we should be looking for, and in 
that aspect, I would say that we're on path for the development 
of the aircraft, that we have the test program moving along in 
the profile we need it to be on, that you see the maintenance 
training for the maintainers that's going forward, that will 
have to be there to support both, especially at Eglin AFB.
    Senator Thune. Yes.
    General Shackelford or General Weida, could you give me, 
coming back to START for a minute, an example of a nondeployed 
launch vehicle? I asked General Cartwright, last summer, what 
was the bare minimum number of launch vehicles that we needed 
in order to not get below a level that would be harmful. At 
that time, I think the answer was 800. Now, there's a 
distinction made in the START, that was signed by us and the 
Russians, for 700 deployed and 800 nondeployed. Give me an 
example of a nondeployed launcher and how that sort of 
distinction was made and the two different numbers arrived at.
    General Shackelford. I think the best thing, sir, that I 
could offer you is, the treaty guys for the Air Force work for 
me. I think it will be best if we just come and give you a 
briefing or take, for the record, a specific question and lay 
that out for you, because there's a specific example for each 
type of asset. If you'll allow, I'll do that.
    [The information referred to follows:]

    The new Strategic Arms Reduction Treaty provides three central 
limits: 1,550 for deployed warheads; 700 for deployed intercontinental 
ballistic missile (ICBMs), deployed submarine-launched ballistic 
missiles (SLBMs), and deployed heavy bombers; and 800 for deployed and 
nondeployed ICMS launchers, deployed and nondeployed SLBM launchers, 
and deployed and nondeployed heavy bombers. These limits are based on a 
rigorous analysis conducted by Department of Defense planners in 
support of the 2010 Nuclear Posture Review. Limits provide flexibility 
for parties to organize their force structure and provide for 
maintenance and testing.
    Examples for nondeployed ICBM and SLBM launchers include test 
launchers, training launchers, and launchers at space launch 
facilities. Additionally, when ICBMs or SLBMs are removed from the 
launchers for any reason--for example, for maintenance--then both the 
missile and launcher become nondeployed for purposed of the treaty. 
Heavy bombers equipped for nuclear armaments, by definition, become 
nondeployed when they are located at a repair facility or production 
facility, or if they need the treaty's definition of a test heavy 
bomber.

    Senator Thune. All right.
    One final question, and that is, how does the potential 
nuclear JSF fit within the new launcher limits in the START?
    General Weida. Sir, that does not apply, as far as I know. 
It is a dual-capable aircraft, but it's not a strategic nuclear 
weapon. I'll take that for the record, and come back to you.
    [The information referred to follows:]

    Only those bombers with a range greater than 8,000 kilometers or 
equipped for long-range nuclear Air-Launched Cruise Missiles meet the 
treaty definition of ``heavy bomber,'' which are subject to the 
provisions of the New Strategic Arms Reduction Treaty (START). The 
Joint Strike Fighter (JSF) does not meet either of these criteria. 
Therefore, the JSF does not count against the limits of the New START 
treaty, and the requirement to include dual capable aircraft 
capabilities in the JSF are not impacted by this treaty.

    Senator Thune. Okay. Thank you.
    I think that's all I have, Mr. Chairman.
    Thank you all very much for your leadership, and for your 
great service to our country. Thank you for being here today.
    Senator Lieberman. Thanks very much, Senator Thune.
    My staffer, Creighton Greene, just reminded me that next 
Thursday--it hasn't actually been noticed yet--we have a full 
Armed Services Committee hearing on the NPR. I'm sure some of 
these questions will come up at that time.
    I want to thank the witnesses, obviously for your service, 
but for your testimony this morning. This has been a very 
informative, productive hearing. I appreciate your direct 
responses to the questions. As I said earlier, there's 
obviously a lot of support for the JSF program in the Senate, 
and particularly on this committee, and there's a lot of 
concern about the delays and the cost increases, and we 
appreciate all you're trying to do to close the gap, 
particularly in the light of the TACAIR shortfall that we're 
projecting for the Services.
    So, I thank you very much.
    We look forward to legislating in a way that's constructive 
this year.
    If you have no further statements, the hearing is 
adjourned.
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator Joseph I. Lieberman
                   joint strike fighter affordability
    1. Senator Lieberman. Admiral Architzel and General Shackelford, 
the Independent Manufacturing Review Team (IMRT) that reviewed the 
Joint Strike Fighter (JSF) program last year observed that, 
``Affordability is no longer embraced as a core pillar'' for this 
program. Taken at face value, this statement is of course quite 
stunning. Why should Congress, or the Department of Defense (DOD) for 
that matter, continue to support a program that has lost the 
affordability goal upon which it was sold as the solution to 
modernizing all three components of our tactical fighter force 
structure?
    Admiral Architzel. A core JSF program pillar is affordability. The 
context of the IMRT discussion was prior to the recent F-35 program 
restructure and a change in program management. The IMRT helped shape 
DOD's decisions with regard to the overall program restructure. I can 
assure you that understanding and controlling all developmental, 
production, and support costs is a priority for the Department of the 
Navy, and we will continue to pursue all methods at our disposal 
towards making the F-35 air system affordable. F-35 is a core 
capability required by the joint warfighter and the Department of the 
Navy fully supports both the F-35B and F-35C variants for deterrence 
and strike from the sea, and we request continued congressional support 
for this vital program.
    General Shackelford. Affordability does remain a key pillar of the 
Department, and we remain convinced that close partnership and clear 
accountability are required with the JSF contractors. We are pursuing a 
number of items to retain affordability including production 
improvements, outsourcing to both foreign and domestic low-cost 
sources, a new wing manufacture line and a new engine final assembly 
line that will decrease span and touch time, and normal learning curve 
improvements.

    2. Senator Lieberman. Admiral Architzel and General Shackelford, 
what specific actions has DOD taken, or will take, to restore 
affordability as a core pillar of the JSF program?
    Admiral Architzel. The Department of the Navy is working closely 
with independent cost estimating teams from the Office of the Secretary 
of Defense (OSD) and other groups to balance program office and 
contractor estimates, which are typically more success oriented. Our 
objective is to continuously focus on F-35 cost drivers and take the 
necessary managerial action to lower cost and make the program more 
affordable. The Department is working collaboratively with the Air 
Force to pursue the use of fixed-price contracts for F-35 aircraft 
production; invest in targeted cost reduction initiatives (e.g. F135 
engine to reduce propulsion unit production costs); challenge F-35 
contractors on their assumptions/current cost estimates to find 
development and production cost savings; use concurrency as a strategy 
for affordability without increasing risk; and challenge our technical 
teams to investigate and bring forth cost avoidance opportunities via 
redesign and life-cycle support strategy changes.
    The Department has also strengthened the Navy's Center for Cost 
Analysis by increasing its role and visibility within the Department. 
We have made the cost leadership position a Deputy Assistant Secretary 
reporting directly to the Assistant Secretary of the Navy for Financial 
Management and Comptroller and we are adding more professional 
expertise and oversight to enable more accurate cost estimates early in 
a program's development, life-cycle support, and upgrade phases.
    General Shackelford. Affordability does remain a key pillar of the 
Department, and we remain convinced that close partnership and clear 
accountability are required with the JSF contractors. We are pursuing a 
number of items to retain affordability including production 
improvements, outsourcing to both foreign and domestic low-cost 
sources, a new wing manufacture line and a new engine final assembly 
line that will decrease span and touch time, and normal learning curve 
improvements.
    Additionally, we are restructuring $614 million in system 
development and demonstration (SDD) award fees, revising the SDD 
contract structure, and revising the low-rate initial production (LRIP) 
contract to reward measurable progress against significant schedule 
events and ensure event-based fees are paid only if the events are 
accomplished in time to support the restructured schedule. Finally, we 
are pursuing fixed-price type contracts as soon as is feasible to 
remove cost uncertainty from the program.

    3. Senator Lieberman. Admiral Architzel and General Shackelford, is 
this lack of focus a major reason for the forthcoming Nunn-McCurdy 
breach on this program?
    Admiral Architzel. The results of the formal F-35 Nunn-McCurdy root 
cause investigation  and  analysis  are  not  yet  fully  known.  After 
 completion  of  the  formal  F-35 Nunn-McCurdy process, receipt of the 
findings from the five statutorily mandated Integrated Product Teams, 
the results will be presented to Congress by the OSD in accordance with 
the prescribed Nunn-McCurdy timelines. Currently, DOD is investigating 
all potential causes for the F-35 Nunn-McCurdy breach, including 
potential cost control and program affordability lapses, as well all 
other potential issues that drove the program to this critical breach.
    General Shackelford. Contributing factors to the JSF Nunn-McCurdy 
breach include increased material costs, particularly titanium, 
underestimation of labor and overhead rates, significant production 
delays of test aircraft, and decreased commonality among the three 
variants. In addition, the Office of Performance Assessments and Root 
Cause Analysis will conduct a root cause analysis of the F-35 program. 
The root cause analysis will consider the underlying causes for 
shortcomings in cost, schedule, and performance including the potential 
role of unrealistic performance expectations; unrealistic baseline 
estimates for cost and schedule; immature technologies or excessive 
manufacturing or integration risk; unanticipated design, engineering, 
manufacturing, or integration issues arising during program 
performance; changes in procurement quantities; inadequate program 
funding or funding instability; poor performance by government or 
contractor personnel responsible for program management; or any other 
matters.

    4. Senator Lieberman. Admiral Architzel and General Shackelford, 
how soon will we know how much the JSF program has breached its 
baseline estimates?
    Admiral Architzel. In accordance with Section 2433 of United States 
Code Title 10, the Chief of Staff of the Air Force reported on March 
25, 2010 that the F-35 program exceeded the Nunn-McCurdy critical unit 
cost breach threshold by more than 50 percent for program acquisition 
unit cost (PAUC) and average procurement unit cost (APUC) over the 
original baseline estimate.
    In April 2010, the Office of the Secretary of the Defense submitted 
the F-35 Selected Availability Report (SAR). Details of the breach 
within the SAR are as follows:

    1.  Compared to the original APB, the F-35 Program PAUC and APUC 
increased 57.15 percent and 57.24 percent, respectively.
    2.  The F-35 increases are partially due to historical increases 
previously reported in the December 2003 SAR (26.2 percent and 21.7 
percent for PAUC and APUC, respectively, including programmatic 
changes), in the December 2005 SAR (32.8 percent and 31.3 percent for 
PAUC and APUC, respectively, including programmatic changes), and in 
the December 2007 SAR (38.38 percent and 38.01 percent for PAUC and 
APUC, respectively, including programmatic changes).
    3.  Consistent with Nunn-McCurdy recertification requirements, a 
complete independent cost estimate is in process. DOD expects this 
analysis will result in increases to the stated PAUC and APUC 
estimates.

    General Shackelford. The F-35 December 2009 Selected Acquisition 
Report, which was submitted to Congress on April 2, 2010, states the 
PAUC and the APUC breached the Milestone B cost estimates by 
approximately 57 percent.

        joint strike fighter initial operating capability dates
    5. Senator Lieberman. General Trautman, Admiral Philman, and 
General Weida, there has been much discussion about the potential 
delays in the estimated dates for initial operating capability (IOC). 
Would each of you define what IOC means for your Service, and when, 
under the new plan, your Service will achieve IOC?
    General Trautman. The Marine Corps JSF December 2012 IOC is based 
on the need for a very low observable STOVL-capable airplane, which 
will enable us to go places that none of our airplanes can go today 
either from the sea or from an expeditionary environment. Everything 
that we need for our initial operational squadron was procured in 2008, 
2009, and 2010. If we reach December 2012 and we have not accommodated 
all of the things that we need with regard to training, aircraft 
capability, logistics support, shipboard compatibility, we will not 
declare initial operational capability (IOC); we will wait until we 
attain those objectives. In general terms the Marine Corps IOC is 
defined as 1 squadron of 10 F-35B aircraft with required spares, ground 
support equipment, tools, technical publications, and a functional 
Autonomic Logistic Information System (ALIS) including peripherals. The 
squadron is manned with trained and certified personnel capable of 
conducting autonomous operations. F-35B aircraft in a Block 2B software 
configuration with the requisite performance envelope, mission systems, 
sensors, and weapon clearances with the qualifications and 
certifications required for deploying on F-35B compatible ships and to 
austere expeditionary sites. The squadron as equipped and trained will 
have the ability to execute full range of TACAIR directed mission sets.
    Admiral Philman. The definition of the Marine Corps F-35B IOC 
(December 2012) is as follows:

    1.  One squadron of 10 F-35B aircraft with required spares, ground 
support equipment, tools, technical publications, and a functional 
Autonomic Logistic Information System (ALIS) including peripherals.
    2.  A squadron manned with trained and certified personnel capable 
of conducting autonomous operations.
    3.  F-35 aircraft in a Block 2B software configuration with the 
requisite performance envelope, mission systems, sensors, and weapon 
clearances documented in Lockheed Martin 6.1 program schedule and JPO 
V15 test schedule.
    4.  Home base supporting infrastructure and facilities ready and 
capable of supporting and sustaining operations.
    5.  Qualifications and certifications required for deploying on F-
35B compatible ships and to austere expeditionary sites.
    6.  Ability to execute full range of TACAIR directed mission sets.
    7.  Joint Program Office and F-35 contractor procedures, processes, 
and infrastructure capable of sustaining operations of the IOC 
squadron.

    The definition of Navy F-35C IOC (early calendar year 2016) is as 
follows:

    1.  Sufficient aircraft quantities (10 PAA).
    2.  Completion of operational test (all mission capabilities).
    3.  Delivery of all necessary mission planning capability with 
trainers, spares, support equipment, and publications (ALIS).
    4.  Trained aircrew, maintainers, and support personnel.
    5.  Capability to conduct all operational requirements document 
(ORD) missions, to include air interdiction (AI); offense counter-air 
(OCA); defensive counter-air (DCA); close air support (CAS); 
suppression of enemy air defenses/destruction of enemy air defenses 
(SEAD/DEAD) in a denied, near-peer environment; and combat search and 
rescue (CSAR).
    6.  Joint Program Office and F-35 contractor procedures, processes, 
and infrastructure capable of sustaining operations of the IOC 
squadron.

    General Weida. The Air Force's definition for IOC for our planned 
fleet of F-35As is found in the August 2008 JSF ORD Change 3. In the 
ORD Change 3, IOC for the Air Force is defined as ``being attained when 
the MAJCOM/CC determines the unit is operationally war ready. IOC 
planning factors will include sufficient assets to meet the unit DOC 
[designed operational capability statement], facilities/infrastructure, 
operations and maintenance trained/equipped personnel, ALIS support for 
peace time/combat operations, completion of an independent assessment, 
a verified OFP and verified tech orders and manuals. IOC declaration 
will be at the discretion of ACC/CC.''
    What this means is that the Air Force will be able to declare IOC 
with the F-35As after completion of the program's Block 3 upgrade 
initial operational test and evaluation, which validates required 
warfighting capabilities. It's estimated, based on the currently 
predicted completion timeframe of the Block 3 IOT&E, the Air Force will 
have its first opportunity to declare IOC with the operational fleet of 
F-35As in second quarter calendar year 2016.

    6. Senator Lieberman. General Trautman, Admiral Philman, and 
General Weida, what are the risks of declaring IOC before the aircraft 
may have received all of the capabilities intended? I am particularly 
concerned in this regard with the Marine Corps' intent to accept the 
JSF in its Block 2B configuration, when the Air Force and Navy plan to 
wait for the Block 3 configuration.
    General Trautman. The Marine Corps plans to IOC with a multi-
mission support capable Block 2B aircraft as defined in the JSF ORD 
change 3. With the recent program restructuring, IOC is projected to be 
December 2012 for the Marine Corps. This is based on operational 
requirements and the associated metrics that encompass capabilities, 
equipment, training, and support. We will track and measure the 
progress of the program to meet the Marine Corps requirements between 
now and December 2012 and ensure the Marine Corps has all the elements 
required for operational use of the F-35B. An IOC declaration will be 
dependent upon meeting these requirements.
    The F-35B Block 2B is far superior to any aircraft in the Marine 
Corps inventory. With VLO survivability, a powerful integrated sensor 
suite, fused information displays, interoperable joint connectivity, a 
precision weapon capability, and self protect anti-air weapons it is a 
total package of capabilities that will revolutionize our expeditionary 
Marine air-ground combat power in all threat environments while 
enabling joint interoperability and reducing the reliance on supporting 
aircraft, tankers, and electronic warfare jammers. It is important to 
note that subsequent to IOC these aircraft will continue to be upgraded 
as the Block 3A, B, and C capabilities are released for operational 
use. The same capabilities that will be resident in the F-35A and F-35C 
aircraft when the Air Force and Navy reach IOC.
    Admiral Philman. The Marine Corps plans to IOC with a multi-mission 
support capable Block 2B aircraft as defined in the F-35 ORD (Change 
3). With the recent program restructuring, the Marine Corps F-35B IOC 
is still planned for December 2012. This is based on operational 
requirements and the associated metrics that encompass capabilities, 
equipment, training, and support. The Department will track and measure 
the progress of the program to meet the Marine Corps requirements 
between now and December 2012 and ensure the Marine Corps has all the 
elements required for operational use of the F-35B. An IOC declaration 
will be dependent upon meeting these requirements.
    The F-35B Block 2B is far superior to any aircraft in the Marine 
Corps inventory. With low observable survivability, an integrated 
sensor suite, fused information displays, interoperable joint 
connectivity, a precision weapon capability, and self protect anti-air 
weapon it is a total package of capabilities that will revolutionize 
our expeditionary Marine air-ground combat power in all threat 
environments.
    It is also important to note that following the Marine Corps IOC, 
initial F-35 aircraft will continue to be upgraded as the Block 3A, 
Block 3B, and Block 3C capabilities are released for operational use. 
These Block 3 capabilities will also be resident within the Air Force 
F-35A and Navy F-35C aircraft when the Air Force and Navy reach their 
IOC dates.
    General Weida. As you stated, the Air Force intends to declare IOC 
after the F-35A's Block 3 capabilities have been validated through 
completion of initial operational test and evaluation. This will ensure 
the Air Force will have F-35As with the mission essential capabilities 
outlined in the August 2008 JSF ORD Change 3. These capabilities enable 
the Air Force to conduct the spectrum of F-35 missions.

           department of the navy tactical aircraft shortfall
    7. Senator Lieberman. Admiral Architzel, over the past couple of 
years, we have heard that the potential strike fighter shortfall could 
be 125 aircraft, or 243 aircraft, or, according to the latest analysis 
of the various steps the Navy could take, anywhere between about 40 and 
almost 200. Please describe what changes you have made to get the 243-
aircraft shortfall assumed last year down to roughly 150 aircraft 
assumed most likely this year.
    Admiral Architzel. The latest fiscal year 2011 President's budget 
Department of the Navy inventory shortfall is 177 aircraft toward the 
end of the decade. This can be reduced to about 100 aircraft by 
application of several mitigation options including some service life 
extension program (SLEP). All options are on the table to manage the 
shortfall and projections will continue to evolve as analysis is 
updated.
    The Department's TACAIR inventory management initiatives are 
targeted at preserving the service life of our existing legacy strike 
fighter aircraft (F/A-18 A-D). The Navy will reduce the number of 
aircraft available in its squadrons during non-deployed phases to the 
minimum required. The Department of the Navy expeditionary squadrons 
and those supporting the unit deployment program (UDP) will be reduced 
from 12 aircraft to 10 aircraft per squadron on an as-required basis.
    The Navy can accelerate the transition of five legacy F/A-18C 
squadrons to F/A-18 E/F Super Hornets and can also transition two 
additional F/A-18C squadrons using F/A-18 E/F attrition aircraft, based 
on available funding. The use of these attrition aircraft expends the 
service life of the F/A-18 E/F aircraft earlier than programmed. These 
measures reduce the operational demand on legacy F/A-18s, making more 
aircraft available for induction into life extension events.
    The Department of the Navy is also evaluating depot level 
efficiency to maximize throughput and return legacy strike fighter 
aircraft to the fleet. Collectively, these measures can extend the 
service life of the legacy aircraft and contribute to reducing the 
impact of the projected shortfall.

    8. Senator Lieberman. Admiral Architzel, what are the risk factors 
that could make those numbers higher?
    Admiral Architzel. The timely delivery of the F-35B and F-35C 
remains critical to our future strike fighter capacity. The Department 
of the Navy has the necessary tactical aircraft capacity in the near 
term to support our Nation's strategic demands. However, ongoing 
assessments forecast a decrease in our strike fighter capacity during 
JSF transition, unless further measures are implemented to extend the 
life of our existing inventory.
    Other risk factors would be a sharp increase in our operational 
demand of these aircraft or the ability to continue sustainment of the 
existing inventory.
    In addition to management initiatives currently in place, we plan 
on addressing this inventory shortfall through additional aggressive 
and precise management strategies. The management initiatives being 
implemented prudently balance operational risks and requirements today, 
while seeking to fulfill future projected capacity and capability 
requirements.

    9. Senator Lieberman. Admiral Architzel, please describe the costs 
associated with the various levers that the Navy has described as 
options for mitigating the shortfall.
    Admiral Architzel. The costs involved in implementing the inventory 
management ``levers'' include surging training capacity for aircrew, 
procuring support and ancillary equipment to outfit transition 
squadrons. These costs will be submitted during the POM-12 budget 
development process. These initiatives prudently balance operational 
risks and requirements today, while seeking to fulfill future projected 
capacity and capability requirements.

    10. Senator Lieberman. Admiral Architzel, have you updated last 
year's estimates of what it would take to perform a SLEP on the F/A-18 
C/D aircraft? If so, what are those estimates?
    Admiral Architzel. The SLEP requirement is being finalized.
    Based on SLEP'ing 280 aircraft to 10,000 hours, the cost would be 
an estimated $15.5 million average per airframe.
    $15.5 million average per airframe SLEP (10,000 FH)

        <bullet> $13.8 million (APN) SLEP & CBR+

                <bullet> Kits & Installs

        <bullet> $1.7 million (OMN) HFH

                <bullet> FRC Activity

    11. Senator Lieberman. Admiral Architzel, is there specific 
analysis that has led the Navy to conclude that a squadron of 10 
aircraft will be as capable as 12 aircraft? If so, why has DOD decided 
to make this change now?
    Admiral Architzel. Any reduction in squadron size will be subject 
to Global Force management demand. A closely monitored reduction in 
squadron size from 12 F/A-18 A-D aircraft to 10 is a prudent balance of 
operational risk and inventory requirements. A reduction in squadron 
size eases demand on the legacy Hornet inventory, preserves service 
life for a longer period, and frees up more aircraft for induction into 
life extending events. This decision also considers that carrier based 
F/A-18C squadrons have been deploying with 10 aircraft for a number of 
years.
    The management initiatives being implemented prudently balance 
operational risks and requirements today, while seeking to fulfill 
future projected capacity and capability requirements.

                        rethinking requirements
    12. Senator Lieberman. General Weida, there are continuing 
questions about whether the Air Force has planned for the proper mix of 
long-range and short-range strike forces within its inventory, given 
likely ranges at which aircraft would have to operate in certain 
contingencies. I am thinking here of the Western Pacific, where our air 
bases and aircraft carriers in the region could be held at risk, and 
our aircraft forced to operate at significantly greater range than 
previously assumed.
    At the same time, it seems that there are some missions for which 
the JSF is overmatched. Specifically, I am wondering whether the JSF 
would be a fitting platform to deliver munitions in such a permissive 
environment as Afghanistan, today, where there is almost no threat.
    At a time when we are facing potentially huge cost increases in the 
F-35, these considerations give rise to the possibility that, like the 
Navy, the Air Force should be considering a mix of 5th generation 
aircraft like the F-35 and some portion of the fleet that would be 
perfectly capable of operating in wartime scenarios after the first 
couple of days, like the F-16 or F-15. It also raises the possibility 
that both the Air Force and the Navy should reassess whether they are 
now planning for the right balance of short-range and long-range strike 
aircraft. What studies or analytical efforts within the Air Force are 
being conducted to look at the proper mix of newer and legacy aircraft, 
and short-range versus long-range aviation strike platforms?
    General Weida. The Air Force has been conducting force structure 
analyses continuously for many years and currently has ongoing mission 
and campaign level studies to examine force structure composition. 
These studies are conducted by Air Combat Command, the Headquarters Air 
Force, and by independent Federally Funded Research and Development 
Centers (FFRDC) to ensure that any institutional bias is eliminated. 
The goal is to assure that changes to strategies, scenarios, threats, 
acquisition programs, and fiscal constraints are considered when 
developing a force that has the best available mix of legacy platforms, 
5th generation fighters, and bombers. Given very real budget 
constraints, the Air Force is working diligently to ensure the current 
long-range force plan has the proper mix and size to accomplish the 
National Military Strategy at moderate risk. Our analytic foundation is 
continuously being updated using the latest scenarios, threat 
assessments, Quadrennial Defense Review (QDR), and Nuclear Posture 
Review (NPR)/Strategic Arms Reduction Treaty (START) guidance to inform 
fiscal year 2012 budget development.

    13. Senator Lieberman. Admiral Architzel and General Shackelford, 
under the auspices of the Nunn-McCurdy requirements, should we be 
evaluating such alternatives as a mix of legacy and newer aircraft and 
a mix of short- and long-range aviation in deciding whether there are 
alternatives to the current acquisition program which will provide 
equal or greater military capability at less cost?
    Admiral Architzel. As part of the Nunn-McCurdy review process we 
are required to evaluate alternatives and determine if any of the 
alternatives will provide acceptable capability at less cost.
    General Shackelford. The Air Force has been conducting force 
structure analyses continuously for many years and currently has 
ongoing mission and campaign level studies to examine force structure 
composition. These studies are conducted by Air Combat Command, the 
Headquarters Air Force, and by independent FFRDCs to ensure that any 
institutional bias is eliminated. The goal is to assure that changes to 
strategies, scenarios, threats, acquisition programs, and fiscal 
constraints are considered when developing a force that has the best 
available mix of legacy platforms, 5th generation fighters, and 
bombers. Given very real budget constraints, the Air Force is working 
diligently to ensure the current long-range force plan has the proper 
mix and size to accomplish the National Military Strategy at moderate 
risk. Our analytic foundation is continuously being updated using the 
latest scenarios, threat assessments, QDR, and NPR/START guidance to 
inform fiscal year 2012 budget development.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                      tactical aircraft shortfall
    14. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, the Navy identified a tactical air shortfall of 243 
fighter aircraft during last year's fiscal year 2010 budget hearing. 
Over the last year, the Navy has bounced back and forth over the size 
of the shortfall. The Navy briefed in March 2009 that the shortfall was 
312 aircraft but later changed to 146 aircraft in May 2009. Secretary 
Gates told Congress in February 2010 that the shortfall was 100 
aircraft. Then, in March, Under Secretary for Acquisition, Technology, 
and Logistics Ash Carter and other DOD witnesses admitted they did not 
know what the number was for the projected shortfall. Now, at the April 
13 hearing, we again hear it could be a manageable 100 aircraft in 
2018, which is about 77 fewer than what was forecast for the fiscal 
year 2011 budget process. You testified that this number would be 
achieved in part through the SLEP. I am concerned about how wildly the 
shortfall estimates have jumped around over the last year. I am also 
concerned that even a 100-plane shortfall is considered acceptable to 
the Navy. Why is the goal for the shortfall not zero?
    Admiral Architzel, General Trautman, and Admiral Philman. The 
latest fiscal year 2011 President's budget Department of the Navy 
inventory shortfall is projected to be 177 aircraft toward the end of 
the decade. This can be reduced to about 100 aircraft by application of 
several mitigation options including some SLEP. Optimization of depot 
throughput is being studied as an additional mitigation method. This is 
a forecasted shortfall of a very dynamic and complex problem that is 
almost 10 years away, but requires continuous refinement. Regular 
revalidation of assumptions driving the analysis and close monitoring 
of inventory health allows the Department of the Navy to avoid making 
large investment decisions prematurely. As SLEP matures, cost estimates 
become more refined and other variables affecting the shortfall come 
into focus, the Department of the Navy will continue to review all 
mitigation options to reduce the long-term shortfall.
    Whatever management initiatives are implemented, the Department of 
the Navy intends for them to prudently balance operational risks and 
requirements today, while seeking to fulfill future projected capacity 
and capability requirements.

    15. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, what level of risk is the Navy willing to accept by 
having a shortfall of 100?
    Admiral Architzel, General Trautman, and Admiral Philman. 
Management initiatives being implemented by the Department of the Navy 
prudently balance operational risks and requirements today, while 
seeking to fulfill future projected capacity and capability 
requirements. They also allow the Department of the Navy to closely 
monitor progress toward reducing the shortfall and enable adjustments 
to the plan before making unnecessary and premature investment or force 
structure decisions.

    16. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, please explain how the new delays in the F-35 program 
will affect the shortfall total.
    Admiral Architzel, General Trautman, and Admiral Philman. The 
latest fiscal year 2011 President's budget Department of the Navy 
inventory shortfall projection is 177 aircraft toward the end of the 
decade. This shortfall estimate includes the latest reductions in the 
F-35 program delivery ramp. The Department of the Navy remains 
committed to the JSF program and the timely delivery of the F-35B and 
F-35C remains critical to our future strike fighter capacity. The 
Department of the Navy has the necessary tactical aircraft capacity in 
the near-term to support our Nation's strategic demands. However, 
ongoing assessments forecast a potential decrease in our strike fighter 
capacity during JSF transition, unless further mitigation measures are 
implemented. In addition to management initiatives currently in place, 
we plan on addressing this potential capacity decrease through 
additional aggressive and precise management strategies.

    17. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, I understand that the Navy is considering a number of 
mitigating actions to overcome the shortfall to include changing 
squadron size from 12 to 10 aircraft. What are the mitigating actions 
proposed by the Navy to overcome the shortfall?
    Admiral Architzel, General Trautman, and Admiral Philman. Any 
reductions in squadron size will be subject to Global Force management 
demand. The Department's TACAIR inventory management initiatives are 
targeted at preserving the service life of our existing legacy strike 
fighter aircraft (F/A-18A-D). The Navy will reduce the number of 
aircraft available in its squadrons during non-deployed phases to the 
minimum required. The Department of the Navy expeditionary squadrons 
and those supporting the UDP will be reduced from 12 aircraft to 10 
aircraft per squadron on an as-required basis. The Navy is accelerating 
the transition of five legacy F/A-18C squadrons to F/A-18 E/F Super 
Hornets. The Navy is also evaluating the transition of two additional 
F/A-18C squadrons using F/A-18E/F attrition aircraft in the POM-12 
budget process. The use of attrition aircraft expends the service life 
of the F/A-18E/F aircraft earlier than programmed. These measures 
reduce the operational demand on legacy F/A-18s, making more aircraft 
available for induction into life extension events. The Department of 
the Navy is also evaluating depot level efficiency to maximize 
throughput and return legacy strike fighter aircraft to the fleet. 
Collectively, these measures will extend the service life of the legacy 
aircraft and make the projected shortfall manageable.

    18. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, have any of these mitigating actions been budgeted for 
in this year's budget or in the Future Years Defense Plan (FYDP)?
    Admiral Architzel and Admiral Philman. The Service Life Assessment 
Program (SLAP) for legacy Hornets has been funded and is complete. The 
center barrel replacement (CBR) program is funded and ongoing. It 
increases the wing root fatigue life of some older legacy Hornets. The 
SLEP to extend the service life of legacy F/A-18 aircraft to 10,000 
hours is primarily a POM-12 budget development issue.
    General Trautman. The Department of the Navy long-term shortfall 
reduction strategies will be addressed in the fiscal year 2012 
President's budget development. Currently, items under review are the 
F/A-18 A-D SLEP and opportunities for optimizing depot turn around 
times. We continue to explore other mitigation alternatives.

    19. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, do you expect that a reduction in the squadron size in 
Marine Corps tactical air units will increase the risks associated with 
operational capability as a result of warfighting requirements not 
changing?
    Admiral Architzel and Admiral Philman. Any reductions in squadron 
size will be subject to Global Force management demand.
    General Trautman. Any reductions in squadron size will be subject 
to Global Force management demand. A closely monitored reduction in 
squadron size from 12 F/A-18 A-D aircraft to 10 is a prudent balance of 
operational risk and inventory requirements. The Department's TACAIR 
inventory management initiatives are targeted  at  preserving  the  
service  life  of  our  existing  legacy  strike  fighter  aircraft  
(F/A-18 A-D). The Department of the Navy expeditionary squadrons and 
those supporting the UDP will be reduced from 12 aircraft to 10 
aircraft per squadron on an as-required basis. These measures, in 
combination with other internal management measures and SLEP of some 
aircraft, will extend the service life of the legacy aircraft and make 
the projected shortfall manageable. This decision also considers that 
carrier based F/A-18C squadrons have been deploying with 10 aircraft 
for a number of years.

    20. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, will the additional risk mean that the operational 
commanders have less than the required strike fighters to execute their 
mission?
    Admiral Architzel, General Trautman, and Admiral Philman. Any 
reductions in squadron size will be subject to Global Force management. 
These inventory management initiatives will be implemented on an as 
required basis, prudently balancing the warfighting needs of the COCOMs 
with future projected capacity and capability requirements.

    21. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, when do you anticipate that a decision will be reached 
on the Navy's discussions for a multiyear procurement (MYP)?
    Admiral Architzel, General Trautman, and Admiral Philman. The Navy 
is actively pursuing the F/A-18 series multiyear as authorized in the 
National Defense Authorization Act (NDAA) for Fiscal Year 2010 and 
Defense Department Appropriations Act of 2010. The Secretary of Defense 
must certify to Congress that all multiyear programs have met statutory 
requirements.
    The Navy is currently working with the OSD to submit all required 
documentation and budget exhibits to provide the Secretary of Defense 
the necessary information he will require to certify the F/A-18 series 
multiyear and then notify Congress. Legislative relief on specific MYP 
documentation deadlines is still being worked with the appropriate 
committees.

    22. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, is SLEP funded in future spending?
    Admiral Architzel, General Trautman, and Admiral Philman. Although 
the initial elements of SLEP CBR and high-flight hour (HFH) 
inspections) are currently funded, the phase of SLEP to take the 
aircraft to 10,000 flight hours remains a POM-12 budget development 
issue.

    23. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, how much will it cost to add 1,400 hours to older F/A-
18 Super Hornets?
    Admiral Architzel, General Trautman, and Admiral Philman. The F/A-
18 E/F SLAP is currently funded and underway. The F/A-18 E/F has a 
different airframe from the F/A-18 A-D fleet, and requires a separate 
service life assessment. The E/F has a design life of 6,000 hours.
    There is currently no program and no cost estimate at this time for 
adding flight hours to F/A-18 E/Fs.

    24. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, I am aware that cost benefit analyses were done in the 
past about how many aircraft should enter a SLEP and whether it becomes 
more cost efficient to buy new F/A-18s. Please detail past analyses and 
what their conclusions were.
    Admiral Architzel and Admiral Philman. The Department of the Navy 
has not chartered or commissioned any cost benefit analysis regarding 
how many aircraft should enter a SLEP or whether it is more cost 
effective to buy new F/A-18s.
    General Trautman. Marine Corps defers to the Deputy Assistant 
Secretary of the Navy (DASN) (Air) for appropriate response.

    25. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, what has changed in recent SLEP cost-benefit analyses?
    Admiral Architzel and Admiral Philman. There have been no changes 
to the SLEP technical baseline elements used in the cost analysis 
conducted by AIR-4.2, the cost estimating branch of the Naval Air 
Systems Command. The Department of the Navy has not conducted a cost-
benefit analysis of the F/A-18 SLEP program.
    General Trautman. Marine Corps defers to DASN (Air) for appropriate 
response.

    26. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, are the same numbers of F/A-18s expected to enter a 
SLEP as previously determined?
    Admiral Architzel and Admiral Philman. SLEP is not currently funded 
in PB11. Several analyses have been completed to support the POM-12 
development. The number of aircraft identified to enter SLEP will be 
determined as part of the POM-12 budget development process. Regardless 
of the funding profile selected in POM-12, the Department of the Navy 
will have the opportunity to adjust SLEP quantities, based on updated 
inventory information, in POM-14 because the funding profiles for SLEP 
of 150 and 280 are nearly identical from fiscal year 2012 through 
fiscal year 2014.
    General Trautman. The phase of F/A-18 A-D SLEP to take the aircraft 
to 10,000 flight hours, remains a POM-12 budget development issue and 
is not currently funded in PB11. Several analyses have been completed 
to support the POM-12 development. The number of aircraft identified to 
enter SLEP will be determined as part of the POM-12 budget development 
process.

    27. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, what is the current cost to SLEP each aircraft?
    Admiral Architzel, General Trautman, and Admiral Philman. The exact 
cost to SLEP each aircraft is not definitively known until the aircraft 
is inducted for service. However, the current average cost per aircraft 
is estimated from AIR-4.2 at:

        <bullet> $15.5 million average per airframe SLEP (10,000 FH)

                <bullet> $13.8 million (APN) SLEP & CBR+

                        <bullet> Kits and Installs

                <bullet> $1.7 million (OMN) HFH

                        <bullet> FRC Activity

    28. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, how many flight hours are added to each aircraft that 
go through a SLEP?
    Admiral Architzel, General Trautman, and Admiral Philman. The F/A-
18 A-D legacy airframe life limit is 8,000 flight hours. HFH 
inspections will provide an additional 600-hour service extension to a 
portion of the legacy fleet that receives them. Many of these aircraft 
would be candidates to be extended another approximately 1,400 flight 
hours, to 10,000 flight hours, through the SLEP.

    29. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, what is the cost per flight hour gained, under current 
projections, for putting F/A-18 through a SLEP?
    Admiral Architzel and Admiral Philman. The Director, Cost 
Assessment and Program Evaluation (CAPE) has been tasked to conduct an 
independent analysis of all strike fighter shortfall supply and demand 
initiatives in order to gain a better understanding of their cost 
effectiveness and risk. That analysis will address the total ownership 
cost of extending the life of legacy F/A-18s, including SLEP, and is 
expected to be completed in time to support the submission of the 
President's fiscal year 2012 budget request.
    General Trautman. SLEP cost/available flight hours: Based on an 
average cost estimate of $15.5 million to extend an aircraft 2,000 
flight hours (600 flight hours for HFH inspection to 8,600 flight 
hours, and then SLEP to a total of 10,000 flight hours), average cost 
per flight hour is $7,750.

    30. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, what is the cost per flight hour to purchase a new F/
A-18?
    Admiral Architzel and Admiral Philman. The Director, CAPE has been 
tasked to conduct an independent analysis of all strike fighter 
shortfall supply and demand initiatives in order to gain a better 
understanding of their cost effectiveness and risk. That analysis will 
address the total ownership cost of purchasing new F/A-18 E/Fs, and is 
expected to be completed in time to support the submission of the 
President's fiscal year 2012 budget request.
    General Trautman. Procurement cost/available flight hours: Based on 
an average fly away procurement cost of $62.55 million under a single 
year procurement (currently the program of record) and assuming a 
design life of 6,000 hours, the average cost per flight hour to procure 
a new F/A-18F would be $10,420 per hour. Under the proposed MYP III 
procurement strategy, the procurement cost per flight hour would be 
$9,330 per hour, based on an average fly away procurement cost of $56 
million.

    31. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, what are the core differences in capability between a 
new F/A-18E/F and a SLEP'd aircraft?
    Admiral Architzel, General Trautman, and Admiral Philman. F/A-18 E/
F provides a 40 percent increase in combat radius, 50 percent increase 
in endurance, 25 percent greater weapons payload, three times more 
ordnance bring-back, and is five times more survivable than F/A-18A/C 
models. F/A-18 E/F spirals ensure relevancy against emerging and future 
threats. A Block II Super Hornet includes upgraded avionics and 
sensors, some of which cannot be retrofitted to a Legacy Hornet, most 
notably the APG-79, AESA Radar.
    Capability upgrades are not part of the basic F/A-18 A-D SLEP 
effort--this only extends the service life of the airframe. Capability 
upgrades are an independent cost associated with extending the service 
life of the Legacy Hornet.

    32. Senator McCaskill. Admiral Architzel, General Trautman, and 
Admiral Philman, are any changes projected to the number of aircraft 
available in Navy F/A-18 training squadrons? If so, what changes and 
what will their impact be?
    Admiral Architzel, General Trautman, and Admiral Philman. Through 
implementation of inventory management initiatives and service life 
extension of aircraft, training aircraft inventories will be maintained 
at appropriate levels.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
              joint strike fighter support infrastructure
    33. Senator Burris. Admiral Architzel, General Shackelford, General 
Trautman, Admiral Philman, and General Weida, how are you phasing in a 
support infrastructure for the new JSF program without detriment to the 
legacy aircraft that it will replace?
    Admiral Architzel, Admiral Philman, and General Trautman. The 
Department of the Navy has management initiatives in-place to retain 
our readiness posture of legacy platforms while we conduct the 
transition to the JSF. We are actively managing the transition of the 
F-35 while we maintain legacy platform support to meet Department of 
the Navy warfighting/operational needs. The Marine Corps has a 
longstanding F-35B Transition Task Force and the Navy has an F-35C 
Lightning II Integration Team. Both teams are under senior leadership 
oversight and are fully accountable for the successful integration of 
F-35B/F-35C into the fleets; F-35 life-cycle management (including all 
seams issues); and interoperability with legacy support systems. In 
parallel, the Department is maintaining the necessary logistic 
infrastructure for legacy systems via existing aircraft program office 
systems/processes under Program Executive Officer leadership. These 
teams are responsible for coordination of all in-service aircraft 
readiness activities (afloat and ashore) to maintain the overall 
aircraft material conditions in the most affordable manner. All teams 
will remain in place until applicable aircraft are removed from active 
service.
    General Shackelford and General Weida. The U.S. Air Force support 
infrastructure is being maintained for the legacy fleet that the F-35 
is replacing at every base. The Air Combat Command will maintain 
trained airman for the legacy fleet until the last legacy aircraft 
departs the base. Supply and parts will be maintained as long as there 
is a flying mission at that base. Training will also be maintained for 
aircrew and maintainers alike. The Air Combat Command will not put at 
risk any of our valued assets as we transition a base from legacy to 
5th generation aircraft.

                        strike fighter shortfall
    34. Senator Burris. General Shackelford and General Weida, is the 
Air Force going to consider keeping the F-22 line open for additional 
procurement to fill a possible fighter gap created by a delay in the 
JSF delivery?
    General Shackelford  and  General  Weida.  There  are  no  plans  
to  reopen  the  F-22 production line. The Air Force is proceeding with 
sustainment-only shutdown planning activities and expects the final F-
22 to deliver with Lot 10 in March/April 2012. The Air Force position 
remains in line with the Department's and executive branch's position 
to end F-22 production after Lot 10.

    35. Senator Burris. Admiral Architzel and Admiral Philman, is the 
Navy considering keeping their F-18 Super Hornet line open to fill a 
possible fighter gap created by a delay in the JSF delivery?
    Admiral Architzel and Admiral Philman. The Department of the Navy 
will continue to review all mitigation options to reduce the long-term 
shortfall.

    36. Senator Burris. General Trautman, if the JSF remains behind 
schedule, or experiences further delays, does the Marine Corps have a 
backup plan to JSF procurement?
    General Trautman. The Marine Corps' commitment to the JSF program 
is steadfast. The development schedule remains on track with some risk 
to completing the test schedule on time. The additional funding 
budgeted in fiscal year 2010 and PB-11 will help address those risks, 
and the Corps will review the progress again in preparation for POM-12. 
The test aircraft are exhibiting unmatched reliability for this stage 
of testing. The first vertical landing was accomplished on March 18th 
and exceeded expectations. Though testing is later than anticipated we 
are starting to see the completion of test points faster than expected. 
Static and durability testing of ground test aircraft are providing 
excellent results and the engine performance is providing thrust 
required to safely conduct flight test. Because of these 
accomplishments the Corps will forgo the F-18E/F and continue our 
investment in true a Fifth Generation aircraft.

    37. Senator Burris. Admiral Architzel, General Shackelford, General 
Trautman, Admiral Philman, and General Weida, with the fighter gap 
looming and a backlog of inventory growing, how are you training the 
pilots and maintenance crews on this equipment?
    Admiral Architzel, Admiral Philman, and General Trautman. The Navy 
continues to analyze training capacity requirements and invest in 
training centers of excellence to meet demand.
    General Shackelford and General Weida. For pilot training, the Air 
Force is aware of the challenges associated with transition from legacy 
fighters to fifth generation fighters and is working to address them. 
Aircraft delivery dates and rates affect program execution and as such, 
the Air Force is developing a range of options to address evolving 
schedules. Pilots who will eventually man F-35 aircraft are currently 
filling validated pilot requirements, either flying or non-flying. In 
anticipation of the first deliveries of F-35s to Eglin AFB, the Air 
Force already has pilots in place for immediate training and will have 
pilots ready for future deliveries.
    The Navy continues to analyze training capacity requirements and 
invest in training centers of excellence to meet demand.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                              fighter gap
    38. Senator Chambliss. General Shackelford and General Weida, you 
note in your written statement regarding the Air Force's fighter gap 
that several things have changed since April 2008 when the Air Force 
indicated they had a gap of 800 fighters. First, the Air Force has 
simply agreed to accept more risk. As an aside, I would note that that 
does not affect the size of the gap at all--it simply is an 
acknowledgement that you are going to accept that you have one. Second, 
you note that the F-35 procurement rate was officially increased from 
48 to 80 per year. On your second point, I've seen several stories over 
the past few months about the F-35 costing more and being delayed 
longer than previously indicated. For that reason, I am hesitant to 
take much comfort in the increased production rate you mention since it 
hasn't happened yet, and no one can tell us for sure when it is 
actually going to happen and to what extent. Do you have any comments?
    General Shackelford and General Weida. The acceptance of additional 
risk in fighter force structure was conducted in light of OSD guidance 
directing that the Air Force increase risk for less relevant force 
application capabilities. The fiscal year 2011 President's budget 
reflects a complete review of the Air Force fighter force structure 
requirement. We do not have a gap of 800 fighter aircraft. After 
conducting a thorough examination of the current and future strategic 
environment, and using high fidelity campaign modeling, the Air Force 
revised its fighter requirement to approximately 1,200 Primary Mission 
Aircraft Inventory and approximately 2,000 Total Aircraft Inventory. 
Today we have 1,221 Primary Mission Aircraft Inventory and 2,074 Total 
Aircraft Inventory.
    As to your concerns on the F-35 program's ability to meet its 
planned production rate, the Air Force remains confident that the 
production delays experienced early in this program have been 
aggressively and adequately addressed by the program office and the 
primary contractor, Lockheed Martin. The current assessment is that the 
program is turning the corner in achieving planned production rates. As 
you may be aware, the program recently restructured production ramp 
rates to meet the OSD/CAPE directed ramp rates of a 50 percent yearly 
increase in production across the FYDP, with full rate production level 
of 80 F-35As per year starting in 2016. OSD/CAPE directed this 
production ramp rate based on the recommendations of the 2009 
Independent Management Review Team (IMRT). In addition, the IMRT is 
actively participating in the current Nunn-McCurdy review of the 
program to assess if this production rate is achievable. The IMRT will 
also conduct a more in-depth second review of the program starting this 
summer to measure program progress towards achieving this rate. Based 
on these independent assessments, the Air Force is confident we will 
maintain clear and unbiased oversight of the production ramp rate of 
this program, and will be able to address any issues quickly and 
effectively throughout the development and initial fielding of this 
critical warfighting program.

                         foreign military sales
    39. Senator Chambliss. General Shackelford, the Senate has been 
discussing the issue of F-22 foreign military sales for several years 
now. While still prohibiting the sale of F-22 to a foreign government, 
the fiscal year 2010 Defense Appropriations Act provided authority for 
DOD to ``conduct or participate in studies, research, design, and other 
activities to define a future export version of the F-22A that protects 
classified and sensitive information, technologies, and U.S. 
warfighting capabilities.'' What can you tell me about the actions DOD 
plans to take with respect to this new authority?
    General Shackelford. The Air Force has provided inputs into the OSD 
F-22 foreign military sales (FMS) report required by sections 1250 (a) 
(b) of the NDAA for Fiscal Year 2010. OSD will submit the final report 
to Congress once staffing is complete. Section 1250(c) directed an 
additional report on the impact of F-22 FMS on the U.S. aerospace and 
aviation industries. This study is being conducted by RAND in 
conjunction with a similar House Armed Services Comittee-directed 
report to update a 2003 study on the military aircraft industrial base.

    40. Senator Chambliss. General Shackelford, we've talked around 
this issue for several years, and I understand the issues related to F-
22 export in relation to the sensitivity of the technology and the 
current legal prohibition, but let me ask you, in your personal 
opinion, if the Air Force determined that developing an exportable 
version of the F-22 that properly protected sensitive technology were 
possible, and if a trustworthy ally with whom the United States 
partners with regularly were to express an interest in buying such an 
exportable version and was willing to pay to develop and purchase it, 
would it make sense for the United States to consider developing an 
exportable version of the F-22 and selling it to that ally?
    General Shackelford. The Obey Amendment presently prohibits the 
sale and export of the F-22. Were that restriction lifted, subject to 
applicable provisions of the 2010 DOD Appropriations Bill (HR 3326) and 
the 2010 NDAA, as well as sections of accompanying Joint Explanatory 
Statement and/or Conference Report and a trusted ally willing to fund 
the design, development, and production of an exportable F-22 that 
protected U.S. technology, then it would be feasible to export the F-22 
to the benefit of the industrial base. Although, current congressional 
language permits the Department to conduct or participate in studies, 
research, design and other activities to define and develop a future 
export version of the F-22A that protects classified and sensitive 
information, technologies and U.S. warfighting capabilities, the Air 
Force currently has no plans to do so.

    41. Senator Chambliss. General Shackelford, I understand that the 
Air Force has indicated the F-35 may be available to foreign 
governments for $50 million apiece. I note that the Selected 
Acquisition Report that DOD delivered to Congress on April 1 states 
that the program average unit cost for the F-35 is now $133.59 million 
and the average unit procurement cost is now $113 million. Some 
estimates of these costs go as high as $158 million and $136 million 
respectively. Please provide your best estimate at this time of the 
price at which the United States will sell F-35s to foreign partners.
    General Shackelford. The price of an aircraft that will be 
purchased by either a foreign partner or the United States will vary 
based on when those aircraft are purchased. The average unit costs 
quoted in the F-35 December 2009 Selected Acquisition Report are 
averages based on a total U.S. buy of 2,443 aircraft and 730 aircraft 
for the 8 partners. The costs of the aircraft in the early LRIP lots 
will be higher than the average while aircraft purchased later in the 
program will cost less than the average.

    [Whereupon, at 11:35 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                        THURSDAY, APRIL 15, 2008

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                           ARMY MODERNIZATION

    The subcommittee met, pursuant to notice, at 2:04 p.m. in 
room SR-222, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, Hagan, 
Begich, Kaufman, Inhofe, and Thune.
    Majority staff member present: William K. Sutey, 
professional staff member.
    Minority staff member present: Paul C. Hutton IV, 
professional staff member.
    Staff assistants present: Brian F. Sebold and Breon N. 
Wells.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Patrick Hayes, assistant to 
Senator Bayh; Gordon Peterson, assistant to Senator Webb; 
Tressa Guenov, assistant to Senator McCaskill; Michael Harney, 
assistant to Senator Hagan; David Ramseur, assistant to Senator 
Begich; Halie Soifer, assistant to Senator Kaufman; Mark 
Powers, assistant to Senator Inhofe; Lenwood Landrum, assistant 
to Senator Sessions; Jason Van Beek, assistant to Senator 
Thune; and Scott M. Clendaniel, assistant to Senator Brown.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. The Subcommittee on Airland will come to 
order with noting the presence of my friend from Oklahoma, 
Senator Inhofe, and being informed that the Ranking Member, 
Senator Thune, is outside the door.
    Senator Inhofe. 14th Street Bridge. [Laughter.]
    Senator Lieberman. When I first arrived at the Senate in 
much looser times I was told that if I could tell the cloakroom 
that I could see the Capitol dome they would hold the vote open 
for me. [Laughter.]
    But I didn't have to tell them how far I was from the 
Capitol. [Laughter.]
    Anyway, this hearing is on the very important question of 
Army modernization. After nearly 9 years of war in Iraq and 
Afghanistan I must say I continue to marvel at the 
extraordinary performance of America's Army. Today the Army is 
battle tested, battle proven, and battle hardened by years of 
combat in the harshest and most uncertain conditions. The 
members of our Army have performed with remarkable 
professionalism, courage, and I would say, idealism.
    We find that from the leaders, the soldiers, and from their 
families. I asked the two leaders of the Army that are with us 
today whenever you have a chance to please convey our gratitude 
to all those people who are serving for us. Our Nation is 
deeply grateful.
    The subject of today's hearing, Army modernization, merits 
particular attention because of the many initiatives begun last 
year to reorient and restructure the Army's acquisition 
policies. I'm just paused for the moment to note a kind of 
irony which is and we'll focus on this as the hearing goes on. 
There's not been much stability about Army modernization 
programs over the last several years that I've been on the 
committee which is regrettable.
    Yet, I must say, the Army works. The Army succeeds as I 
said in my opening remarks. This doesn't mean we should not try 
to achieve more stability and progress in Army modernization. 
But it's quite remarkable how our troops have managed to do as 
well as they have, really extraordinarily well.
    The fiscal year 2011 Army budget continues implementation 
of the major program changes directed by the Secretary of 
Defense to restructure the Future Combat System (FCS) program; 
limit the Army's brigade growth to 45 instead of 48 combat 
brigades; start a new ground combat vehicle (GCV) program; and 
integrate our 12,000 mine resistant ambush protected (MRAP) 
vehicles that have been procured into the Army's force 
structure.
    These changes necessarily have an incomplete nature in last 
year's budget request are, I would say, further clarified in 
the Army's fiscal year 2011 request that is before our 
subcommittee now. This hearing therefore is an opportunity for 
our witnesses to bring the subcommittee up-to-date and to 
describe how risks facing the Army's modernization program have 
been addressed in the budget for the next fiscal year.
    This year's Army budget request is also guided by the 
findings and recommendations of the 2009 Quadrennial Defense 
Review (QDR) that places significant additional emphasis on 
improving the capabilities of currently fielded technologies to 
deal with the wars we are in now and at the same time search 
for next generation capabilities to meet the demands of an 
uncertain future.
    I do want to note two encouraging management initiatives on 
the part of the Army.
    The first, last February Secretary McHugh ordered a year-
long comprehensive capability portfolio review to validate the 
operational value of requirements for new weapons and 
importantly to inform what he recognizes will be tough 
decisions the Army will have to make in fiscal years 2012 to 
2017 long-range budget plans. That review has already started 
under the supervision of the Under Secretary of the Army, Joe 
Westfahl, and the Army's Vice Chief of Staff, General Peter 
Chiarelli. Initial indications are that this review process is 
aggressive, objective, realistic, and demanding and for that I 
am grateful.
    Additionally, General Casey announced in January that the 
Army plans to use this year to reform the process used to 
develop requirements for future capabilities. Consistent with 
the Secretary's capability portfolio reviews these reforms 
could include a more systematic and disciplined consideration 
of potential operational value through cost benefit analysis as 
well as earlier and direct involvement of the Army's most 
senior leadership in the requirements process. Both of these 
steps are consistent with our recently enacted Weapons System 
Acquisition Reform Act (WSARA) of 2009. For this I also commend 
the Army.
    But these initiatives foreshadow that additional changes 
may be on their way for Army's requirements, priorities, and 
modernization strategy. Although the Army's fiscal year 2011 
budget request includes both continuity and change it remains 
to be seen if the Army will successfully use this year's 
request as an opportunity to apply the lessons of the last 
decade that establishes and maintains control of a stable, 
achievable, and affordable modernization strategy. Those are 
some of the overall topics we have to consider.
    I welcome our witnesses who are here today.
    Lieutenant General Robert P. Lennox is Deputy Chief of 
Staff of the Army (G-8) responsible for broad staff oversight 
and recommendations regarding Army current and future 
requirements, priorities, and resource allocation.
    Lieutenant General William N. Phillips is the Principal 
Military Deputy to the Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology and Director of the 
Acquisition Career Management. As his title indicates he is 
responsible for staff oversight and recommendations for the 
planning and execution of research, development, and 
acquisition programs necessary to meet the Army's current and 
next generation requirements.
    Although Generals Lennox and Phillips are new to their 
positions this year they both have exceptional records of 
service and leadership to the Army and our country. I note also 
that this is their first appearance before our Airland 
Subcommittee. I don't know that we have a medal to award you in 
return for this, but we thank you for being here.
    We're also joined today by two witnesses who represent 
agencies that have closely watched the planning and execution 
of Army modernization for many years. They will provide the 
subcommittee with their assessments of Army modernization 
management, review the main lessons learned over the last 
decade, and suggest which lessons are relevant and applicable 
to the Army's current modernization strategy and its next 
ground vehicle program. In that regard, we welcome particularly 
Michael J. Sullivan, Director of Acquisition and Sourcing 
Management at the Government Accountability Office (GAO); 
joined by David W. Duma, Principal Deputy Director, Operational 
Test and Evaluation (DOT&E) at the Department of Defense (DOD).
    This year's hearing is a little bit different from ones 
we've had before as we have not previously included the Army's 
witnesses together on the same panel with the GAO and DOT&E. So 
this will be a remarkable adventure and experience. But 
obviously we hope that this arrangement will allow us a good 
direct exchange of views that will help better inform the 
members of this subcommittee as we do our work on the National 
Defense Authorization Act (NDAA) for Fiscal Year 2011.
    Senator Thune, thank you.

                STATEMENT OF SENATOR JOHN THUNE

    Senator Thune. Thank you, Mr. Chairman. As you mentioned, 
today's testimony will inform the subcommittee's thinking as we 
prepare to mark up the NDAA for Fiscal Year 2011. I want to 
echo what you said and join you in welcoming our witnesses.
    General Lennox and General Phillips, thank you for 
appearing before the subcommittee to explain the Army's 
modernization efforts and for your many years of distinguished 
service.
    Mr. Sullivan and Mr. Duma, your views as independent 
auditors and testers will be extremely valuable. We look 
forward to hearing them.
    The need to continuously modernize the Army is self 
evident. But in practice the modernization can be very 
difficult. We are in a period of unrelenting technological 
change, shifting operational requirements and we face an 
adaptive enemy.
    The Army's challenge is with maintaining a technological 
edge over any adversary while providing a force equipped to 
meet almost any conceivable threat. This is complex and 
important work, and we thank you for it.
    The Army revised its modernization strategy in 2009 as 
currently developing and testing technologies that it hopes 
will provide soldiers with improved capabilities. Two important 
activities will influence modernization.
    The first directed by General Casey is a critical look at 
the way the Army generates requirements. The time requirements 
to value is a must, and I'm happy to see this development.
    Second, is a broad review of Army technology area 
portfolios led by the Vice Chief, General Chiarelli.
    Both of these activities are ongoing. While they may have a 
greater impact on future budgets than on this one, I believe 
they point the Army in the right direction. The committee is 
interested to know what affect these activities may have on 
some $3 billion requested for Army modernization in fiscal year 
2011.
    In practical terms the Army modernizes by upgrading its 
legacy systems while simultaneously developing and fielding new 
technologies. The Army's written testimony makes clear the need 
to do both and the combination helps to balance capability and 
affordability. Over the coming year the committee will pay 
close attention to the development of new systems like the 
suite of technologies designed for infantry and the GCV as well 
as to programs that upgrade Stryker, Paladin, and others.
    Recent testing of some developmental systems has revealed 
worrisome shortfalls in performance and reliability. The 
witnesses will be asked to recommend courses of action to 
mitigate these issues. Additionally, questions of affordability 
haunt any weapons acquisition, and Army modernization programs 
are no different.
    The Nation is served poorly when capable systems are priced 
off the battlefield and the committee is keen to know how the 
Army plans to reduce development procurement costs. The success 
or failure of our efforts to modernize and transform the force 
of the future rests on decisions proposed and implemented 
today. There is concern among members of the committee which 
you will hear regarding the recent history of Army 
modernization efforts.
    The challenge of delivering capability amidst technological 
change and shifting requirements is indeed a difficult one. We 
are eager to understand the Army's vision for the future and 
the strategy to achieve it. I should emphasize here that while 
this hearing may be focused on weapon systems and on the 
acquisition process the center of gravity has and will always 
be the soldiers themselves.
    Our thanks and gratitude extends to all servicemembers at 
home or abroad and to the families that support them.
    So Mr. Chairman, thank you again for convening this 
hearing. I look forward to hearing our witnesses' testimony.
    Senator Lieberman. Thank you, Senator Thune, and thanks to 
Senator Inhofe and Senator Kaufman for being here. We'll call 
now on General Lennox.

STATEMENT OF LTG ROBERT P. LENNOX, USA, DEPUTY CHIEF OF STAFF, 
                           ARMY (G-8)

    General Lennox. Good afternoon, Chairman Lieberman, Senator 
Thune, and distinguished members of the Airland Subcommittee. 
Thanks for your warm welcome for General Phillips and I and for 
the entire panel in fact. Very kind of you.
    Together General Phillips and I today are pleased to 
represent the Army leadership and members of the acquisition 
workforce and the more than 1 million courageous men and women 
who have been serving this Nation at war for the last 9 years 
as you mentioned, sir. We're proud and honored to have been 
able to provide them with world class weapon systems and 
equipment that's enabled their mission success during that time 
period. We thank you and members of this subcommittee for your 
steadfast support and for the shared commitment to that very 
same goal.
    This afternoon I'd like to discuss how the Army 
modernization strategy plans to meet this continuing objective. 
I'd like to open by talking about the Army modernization 
strategy and using some of the programs in the fiscal year 2011 
budget to illustrate that. The Chief of Staff of the Army has 
recently approved an Army modernization strategy whose ends 
include developing and fielding an affordable and interoperable 
mix of the best equipment available to allow our soldiers and 
units to succeed in today's fight but also to win tomorrow's 
full spectrum operations. We plan to do that, sir, by following 
three lines of operation.
    The first is buying new capabilities that address current 
capability gaps. For example, you'll hear us talk about today 
the brigade combat team (BCT) modernization strategy. That's 
one of our key efforts. I'll come back to that in a minute and 
talk about it.
    One of the key things to come out of the QDR is the 
importance of aviation. The formation of a 12th combat aviation 
brigade out of the assets that we currently have today, and 
then the funding of a 13th combat aviation brigade would be 
part of our fiscal year 2011 proposal.
    Today's warfight tells of the importance of intelligence, 
surveillance, and reconnaissance. The Army is looking to invest 
heavily in the extended range, multipurpose aircraft, the Sky 
Warrior, and in the Shadow unmanned aerial vehicle (UAV) to 
enable our BCTs for the future.
    Finally, in this first line of effort we are continuing to 
equip our Reserve component forces. In fact, since September 
2008 to September of this year, we'll have increased equipment 
on hand in the Reserve component by 11 percent and the 
modernization of those forces by 12 percent.
    Our second line of effort really focuses on being good 
stewards of the equipment we have now and a path forward to 
improve them and keep them relevant for the future. An example 
of that is the OH-58D Kiowa Warrior helicopter that has been 
used extensively in Iraq and Afghanistan. As most of you know, 
it is an older aircraft. We are investing now in both cockpit 
upgrades and sensor and safety measures to keep that aircraft a 
contributing member of the fleet until 2025.
    We also have efforts to lighten the soldiers load. 
Improvements to the outer tactical vest to lower the weight, 
fielding plate carriers that are lighter in weight, but give 
the soldiers in Eastern Afghanistan in particular, better 
ability to climb the hills and deal with the altitude.
    We're finally divesting our oldest equipment. Last 
December, we finally divested the last UH1 Huey helicopter, a 
vintage performer from Vietnam. The last one went out of the 
Active Force and Active units in December. Within 2 years, 
we'll divest the last M35, a 2\1/2\ ton truck, currently known 
as the deuce-and-a-half. That will be out of the inventory by 
the end of fiscal year 2011.
    The last aspect of our modernization strategy is to field 
in accordance with Army priorities and the Army force 
generation cycle. In the past, we used to have two tiered 
units. So if you were in the Active component you were equipped 
and armed better than the Reserve component was.
    Today, and in this published and approved doctrine that 
went back to last October, the Army recognizes that Reserve 
components are doing the same kinds of missions as the Active 
component. Every unit now is equipped for the mission they're 
facing. If you're deploying overseas you're equipped the same 
if you're Active or Reserve. If you have a homeland defense 
mission you're equipped for that homeland defense mission, and 
we take that very, very seriously.
    Finally, if I could speak for a minute about the BCT 
modernization strategy. It has four elements, and it's probably 
the most important part of our modernization strategy.
    Those elements include things like incorporating the MRAP 
vehicles and the MRAP all-terrain vehicles into our fleet. We 
have a plan to do that, and that's been approved by the 
Secretary of Defense.
    The next step and one of the most important is incremental 
improvements to our network. We find that the network is a key 
capability. At a seminar yesterday with multiple brigade 
commanders they echoed the importance of improvements to the 
network, getting the network down to commanders on the move, 
getting wide band capability down to the individual soldiers 
and talked repeatedly about how much of a difference that 
makes. If we can get the network to work amazing things will 
happen as a result they assured me again yesterday.
    The third part is the GCV. We think we need this to provide 
a versatile range of capabilities that include things like 
force protection that we currently don't have, off road 
mobility, urban operational mobility, and the space, weight, 
and power to deal with the network and other things that we 
have to load onto vehicles today and the plan for the GCVs to 
field that in 7 years. We're comfortable explaining the way 
ahead in that approach.
    The very last part of the BCT modernization is the fielding 
of capability packages to our infantry BCTs. As you mentioned, 
Senator, these are the FCS technological spin-outs. They were 
tested last year in the second of a four-stage test.
    They were shown to have a number of challenges both in size 
and weight. Meantime between failure you'll find that we agree 
with the findings that came from DOT&E and GAO in this regard 
that there is plenty of work to be done. Where we probably 
disagree is the way ahead.
    We think that there's probably very little risk in 
proceeding ahead of time. We think this way primarily because 
we've demonstrated in the past that if a system or capability 
doesn't meet with our soldiers' need we have willingly taken 
that off the table. Examples include the class 4 UAV and the 
Multifunction Utility/Logistics Equipment automated robotic 
vehicle didn't meet the Army's needs in a cost benefit way and 
we've taken them off.
    We pledge to you that we'll do the same thing. If equipment 
is not ready to put in the hands of soldiers, we won't put it 
in the hands of soldiers.
    In closing, in support of Army modernization, the Army 
submitted a research, development, and acquisition budget 
request of $31.7 billion for fiscal year 2011. We believe that 
this budget appropriately allocates resources between bridging 
advanced technologies to our soldiers for the warfight today 
and to develop new technologies and new capabilities to bring 
the required capabilities of our soldiers in the future.
    Mr. Chairman, Senator Thune, and members of the 
subcommittee, on behalf of our soldiers and their families we 
greatly appreciate the tremendous support that we receive from 
this Congress and the American people. We don't take that for 
granted. In order to successfully implement the plans we've 
shared with you today we urge this same continued support in 
the future. Providing all of America's sons and daughters who 
serve in our Army the most capable equipment for the battles 
they are fighting today and are likely to face in the future 
are the responsibility that the Army takes seriously and is 
committed to accomplishing.
    Thank you for your time.
    [The joint prepared statement of General Lennox and General 
Phillips follows:]
Joint Prepared Statement by LTG Robert P. Lennox, USA, and LTG William 
                            N. Phillips, USA
                              introduction
    Chairman Lieberman, Senator Thune, and distinguished members of the 
Subcommittee on Airland, we thank you for this opportunity to discuss 
Army Modernization Programs in the fiscal year 2011 budget request. We 
are pleased to represent Army leadership, members of the Army 
acquisition workforce, and the more than 1 million courageous men and 
women in uniform who have deployed to combat over the last 8 years and 
who have relied on us to provide them with world-class weapon systems 
and equipment for mission success. We thank the members of this 
committee for your steadfast support and shared commitment to this 
goal.
    We will open today's statement by providing an overview of the Army 
modernization strategy, using current program initiatives to illustrate 
our plan. We will then elaborate on specific systems on which you have 
asked us to focus, and our testimony will conclude with a discussion of 
the requirements process.
                    why the army needs to modernize
    The 2010 Army Modernization Strategy is consistent with DOD's High 
Priority Performance Goals in the President's fiscal year 2011 Budget's 
Analytic Perspectives volume, and follows the guidance of the Secretary 
of the Army and Chief of Staff, who have provided us with imperatives 
and goals to address the two major challenges facing the Army: 
Restoring Balance to our Force and Setting Conditions for the Future.
    Two of the imperatives for restoring balance confer upon us the 
obligation to modernize our equipment base to ensure victory on today's 
and tomorrow's battlefields.

        <bullet> Preparing our soldiers for success in the current 
        conflict directs us to identify rapidly and fill those 
        capability gaps identified as critical to the warfighters 
        currently engaged in operations. In this sense, modernization 
        is mandated in support of winning the current fight and 
        directing new capabilities be brought to the current 
        battlefield to close specific capability gaps. Examples of 
        modernization in this sense include:

                <bullet> Increasing the quantity and capabilities of 
                our aviation fleet in response to the increasing 
                reliance on those assets in Iraq and Afghanistan. In 
                fiscal year 2011, we plan to begin the investment that 
                will lead to the stand up of the 13th Combat Aviation 
                Brigade (CAB), and;
                <bullet> Accelerating Intelligence, Surveillance and 
                Reconnaissance (ISR) programs due to the significant 
                contributions they are making to counterinsurgency 
                fights. We intend to accelerate the Extended-Range 
                Multi-Purpose Unmanned Aerial System (UAS) to 
                capitalize on the power of combining full motion video 
                and signals intelligence, as well as manned-unmanned 
                teaming.

        <bullet> Transforming to meet the demands of the 21st century 
        requires us to resist focusing completely on the type of 
        warfare we face today--counterinsurgency--and hedge against 
        other potential types of missions awaiting our soldiers in the 
        future. In this sense, modernization is critical in preparing 
        our Army for any mission we might be called upon to do, 
        investing in and developing the required capabilities, and 
        fielding these capabilities to our soldiers through a 
        comprehensive, feasible, and affordable plan. Some examples of 
        modernization in this regard include:

                <bullet> The development of the Army Integrated Air and 
                Missile Defense system. This program will enhance the 
                capability of our ground-based Air and Missile Defense 
                units. Enabling us to conduct beyond line-of-sight 
                engagements, allowing us to protect a greater number of 
                defended assets, changing our employment techniques/
                doctrine by enabling point versus area defense, while 
                improving capability against a wide range of threats. 
                This will be developed as an integral part of the joint 
                air and missile defense architecture, and;
                <bullet> The upgrade of the Army's self-propelled 
                artillery fleet, the Paladin, through the Paladin 
                Integrated Management program. This program will 
                increase the capability of the system by replacing the 
                automotive and suspension components with Bradley-like 
                components, which are in common with many of the other 
                combat vehicles in the Heavy Brigade Combat Team (HBCT) 
                formation.

    In parallel with these Restoring Balance imperatives, Setting 
Conditions for the Future provides reinforcing guidance in answering 
the two fundamental questions of why and how the Army needs to 
modernize.
    Setting Conditions for the Future requires all elements of the Army 
to be synchronized--organizing, manning, training, and equipping. 
However, there are some specific elements of that goal that influences 
Army Modernization. Specifically, as the Army Chief of Staff has said, 
we want an Army that is, `` . . . a versatile mix . . . of networked 
organizations . . . equipped and ready [for] full spectrum operations 
to hedge against unexpected contingencies.''
    To achieve this goal, our Modernization strategy must provide a 
balanced set of capabilities, ensuring that the most important 
capability gaps are closed as fast as possible, so an adversary cannot 
circumvent our relative strengths to exploit a relative weakness.
                      how the army will modernize
    The Army will accomplish our modernization goals by focusing on 
three major lines of effort:
    The first major line of effort is developing and fielding new 
capabilities to meet identified capability gaps through traditional and 
rapid acquisition processes. To maintain our advantage over current, 
emerging, and future threats, the Army must provide our soldiers with 
the equipment they need. The Army must accurately identify capability 
gaps and consequently develop viable solutions for the soldier and 
incrementally field enduring capabilities across the force.
    The primary element of this line of effort is the implementation of 
the Brigade Combat Team (BCT) Modernization Plan, which was approved by 
the Secretary of Defense in November of 2009. This plan enables 
incremental improvements to the network, integrates Mine Resistant 
Ambush Protected Vehicles (MRAPs) into formations, incrementally fields 
capability packages to the Infantry Brigade Combat Team, and develops a 
new manned Ground Combat Vehicle. We will discuss this plan in greater 
detail later in this statement.
    Other elements of this first line of effort include leveraging 
breakthroughs from the Army's Science and Technology Program and 
shortening the time between identification of a requirement and 
delivery of the solution, by optimizing and supporting the Capabilities 
Development Rapid Transition (CDRT) process.
    The second major line of effort in the Army's Modernization 
Strategy is the continuous modernization of equipment to meet current 
and future capability needs through upgrade, replacement, 
recapitalization, refurbishment, and technology insertions. This effort 
focuses on how we intend to keep Army equipment relevant and capable 
for the foreseeable future.
    The most important element of this line of effort is the 
development and continuous refinement of a comprehensive investment 
strategy that integrates affordable portfolio strategies for selected 
fleets of equipment. These portfolios include Fighting Vehicles; 
Aircraft; Tactical Wheeled Vehicles (TWV); Battle Command (BC) and 
Networks; and ISR. Integrated Portfolio Strategies will provide a long-
term plan for the management of fleets and resources to achieve Army 
goals and objectives over time.
    Important elements of this second line of effort also include 
developing processes to make fleet sustainment decisions routinely 
based on cost benefit analysis and capitalizing on technology base 
initiatives.
    The third major line of effort in our Modernization Strategy is 
meeting the needs of our force through Army priorities and Army Force 
Generation (ARFORGEN), the Army's rotational readiness model. This 
effort allows us to determine the objective levels of modernization 
within our fleets of equipment, revealing the optimal amount of 
modernization needed, when it will be needed and by whom.
    Supporting elements to this line of effort also include updating 
the 2009 Army Equipping Strategy, that incorporates lessons learned 
from combat, including inputs from the field, and taking into account 
the change to the strategic and fiscal landscapes. Finally, 
establishing Theater Provided Equipment in Afghanistan will allow us to 
provide the forces deployed there with the best available equipment, 
while at the same time reducing the cost and risk involved in the 
repetitive transportation of unit equipment to and from Afghanistan.
    the cornerstone of army modernization--the brigade combat team 
                         modernization strategy
    In April 2009, Secretary of Defense Robert M. Gates provided 
guidance and directed the Army to ``accelerate the initial increment of 
the program to spin out technology enhancements to all combat 
brigades'' and noted the lack of a clear role for MRAP in the current 
vehicle programs. The Army was further directed to ``cancel the vehicle 
component of the current Future Combat System (FCS) program, reevaluate 
the requirements, technology, and approach--and then re-launch the 
Army's vehicle modernization program . . . .'' The Army saw this as an 
opportunity and has shaped the Army's new approach to BCT 
Modernization.
    Following the Secretary of Defense's April 2009 decisions, the Army 
directed the U.S. Army Training and Doctrine Command (TRADOC) to 
develop recommendations to modernize our BCTs incrementally and to 
determine the operational requirements for a new Ground Combat Vehicle. 
In response, TRADOC established Task Force 120 (TF 120) which evaluated 
the Army's short- and long-term modernization requirements to ensure 
proposed solutions mitigated the Army's highest risk capability gaps. 
TF 120 delivered its recommendations to senior Army leaders in early 
September 2009, which focused on capability packages, Ground Combat 
Vehicle operational requirements, and BCT network integrated 
architecture. These recommendations form the basis for the incremental 
modernization of all the Army's BCTs.
    Subsequently, in November 2009, the Secretary of Defense approved 
the Army's BCT Modernization Plan which:

        <bullet> Enables incremental improvements to the Army BC 
        Network;
        <bullet> Incorporates MRAP vehicles into the force;
        <bullet> Accelerates the fielding of Capability Packages to all 
        BCTs by 2025;
        <bullet> Develops a new manned Ground Combat Vehicle within 7 
        years.
Battle Command Network Improvements
    The Army BC Network will improve our situational awareness and 
collaborative planning capabilities by sharing essential information 
from an integrated platform or a disconnected soldier to their command 
post. Network modernization utilizes two primary transport programs 
which will incrementally move the Army to a single and expanding Army 
BC Network: Warfighter Information Network-Tactical (WIN-T) and Joint 
Tactical Radio System (JTRS). WIN-T is the backbone for the Army's 
transport modernization strategy and will be fielded in three 
increments. increment 1 provides reach-back capabilities to Battalion 
Command Posts and fielding is almost completed. Increment two provides 
an initial on-the-move transport capability including real-time imagery 
to BCT and Battalion Commanders and Beyond Line-of-Sight services to 
the BCT Company level and is scheduled for initial fielding in fiscal 
year 2012. Increment three expands on-the-move capabilities and adds an 
aerial tier vastly improving network reach, redundancy, and management.
Incorporating Mine Resistant Ambush Protected Vehicles
    The success of the MRAP family of vehicles in Iraq and Afghanistan 
demonstrates the critical need for integration of these types of 
capabilities in all of the Army formations and as a part of the overall 
manned ground vehicle strategy for the future. The Army will establish 
20 sets of MRAPs tailored to BCTs and available for their employment 
while in the available phase of the ARFORGEN cycle, and ensure MRAPs 
are available for home station training and in the institutional 
training base. In select enabler units (sustainment brigades, medical, 
route clearance, and explosive ordinance units) MRAPs will take the 
place of some organic vehicles. The Army will also maintain MRAPs, 
including the newest variant the MRAP-All Terrain Vehicle, in 
operational float and war reserve stocks.
Accelerating the Fielding of Capability Packages to All BCTs
    Capability Packages are specifically designed to fill gaps and 
mitigate risk, align with the Program Objective Memorandum, and deliver 
new capabilities in 2-year increments in support of ARFORGEN. The 
Capability Package concept recommends BCT modernization priorities, 
addresses current and expected BCT high-risk capability gaps, and is 
fielded and funded over specific 2-year timeframes as complete packages 
or sub-packages based on soldier needs, technological advances, and 
available resources. The Army's BCT Modernization plan accelerates the 
fielding of Capability Packages to 29 BCTs through fiscal year 2016 and 
to all BCTs by fiscal year 2025.
    The capabilities scheduled for delivery to the first BCT in fiscal 
year 2011-2012 are in the final test and evaluation phases, but we 
acknowledge the process has identified several shortfalls and some 
reliability issues. We are cognizant of the risks going forward, but 
also aware of the importance of fielding integrated networked systems 
to the current warfighter. The program managers along with industry 
partners are working to correct these issues and integrate fixes for 
the second round of testing in 2010 and the final round of testing, 
called the Initial Operational Test and Evaluation, in 2011. The Army, 
along with OSD, will closely monitor progress toward correcting these 
problems and continue to assess the program at reviews later this year 
to ensure these systems meet warfighter needs.
    These capabilities will provide commanders with an increased ISR 
capability in the Class I Unmanned Aerial Vehicle (UAV), Unmanned 
Ground Sensors, and Small Unmanned Ground Vehicles, and integrated 
network capabilities that link the soldier to headquarters in Network 
Integration Kits.
    Future Capability Packages will address identified capability gaps 
across the force, leveraging mature technologies and resources to the 
soldier. TRADOC's Capability Package development process, beginning 
with the annual capability needs analysis, ensures the timely 
identification, analysis, selection, and prioritization of viable 
solutions for inclusion in incremental capability packages. Future 
Capability Packages may include upgrades to capabilities scheduled for 
fielding in fiscal year 2013 and fiscal year 2014, such as a common 
controller for all unmanned vehicles, both air and ground, as well as a 
new variant of an unmanned ground vehicle, which will provide 
additional force protection capabilities. A continuous review of 
capability needs and an incremental delivery approach of solutions will 
ensure our units and soldiers are equipped with the most advanced 
technologies our Nation's resources can provide to meet current 
operational requirements.
Developing a New Manned Ground Combat Vehicle
    To inform the Ground Combat Vehicle operational requirements 
development effort, the Army sponsored a Ground Combat Vehicle Blue 
Ribbon Panel which received input from Joint-Service partners, retired 
general officers, think tank analysts, representatives from the Office 
of the Secretary of Defense, Army soldiers, and leaders with a wide 
range of operational experience. Additional input from commanders and 
soldiers with recent combat experience in Iraq and Afghanistan was 
critical in identifying characteristics and features needed in the new 
Ground Combat Vehicle.
    The new platform will provide a versatile range of capabilities, 
including the under-belly protection offered by MRAP, the off-road 
mobility and side protection of the Bradley Fighting Vehicle, and the 
urban and operational mobility of the Stryker. It will include 
precision lethality to enable decisive results while maintaining 
overmatch against like systems, and integrate the network to maintain 
situational awareness in urban and other operations. While the new 
vehicle will provide sufficient space and electrical power to accept 
the network, it will also have growth potential to ensure the ability 
to integrate upgrades and new technologies. The Ground Combat Vehicle's 
development approach enables production of the first vehicle by fiscal 
year 2017, while establishing a basis from which to adapt. Capabilities 
incorporated in subsequent increments will be based on changes in the 
operational environment and enabled by maturation of emerging 
technologies.
                          programmatic updates
    As requested by the committee, we are providing specific updates on 
several programs. Each of these programs contribute to the intent of 
Army Modernization--to develop and field an affordable mix of the best 
equipment available to allow soldiers and units to succeed in both 
today's and tomorrow's full spectrum military operations. Materiel 
modernization provides new and improved capabilities to soldiers that 
enable them to accomplish their missions and maintain overmatch against 
the enemy.
    The Increment 1 Early-Infantry Brigade Combat Team (E-IBCT) 
completed the fiscal year 2009 Limited User Test (LUT) in September 
2009, and completed a successful Milestone C Low Rate Initial 
Production (LRIP) decision at the December 2009 Defense Acquisition 
Board (DAB) meeting. The Defense Acquisition Executive approved the 
initial LRIP procurement of one BCT set of Increment 1 systems. Follow-
on DAB In-Progress Reviews are planned for later this year to assess 
continued development progress, supporting the procurement of second 
and third BCT sets. Additional technical and operational testing is 
planned for 2010 to support the December 2010 DAB decision. Technical 
Testing begins in May 2010 and culminates in a September 2010 LUT. The 
Army awarded the LRIP contract for the initial Brigade on February 24, 
2010. Increment 1 systems included in the LRIP contract are: The 
Network Integration Kit, Class I Unmanned Arial System, Small Unmanned 
Ground Vehicle, Urban-Unattended Ground Sensors, and Tactical-
Unattended Ground Sensors. The NLOS-LS completed the flight LUT in 
February 2010. The results of this LUT indicate additional work is 
needed on the NLOS-LS missile. An evaluation of the NLOS-LS acquisition 
options is ongoing with a Path Forward decision expected in the third 
quarter 2010.
    The Ground Combat Vehicle is the Army's next-generation Infantry 
Fighting Vehicle, combining lessons learned from the survivability of 
the MRAP vehicle, the tactical mobility of the Bradley Fighting Vehicle 
and the operational mobility of the Stryker. The Army released a 
Request for Proposals (RFP) on February 25, 2010, for the Technology 
Development phase of the Ground Combat Vehicle effort. The first combat 
vehicle designed from the ground up to operate in an Improvised 
Explosive Device (IED) environment, the Ground Combat Vehicle will have 
enhanced mobility that will allow it to operate effectively in both 
urban and off-road environments. It will be designed to host the Army's 
network. It will have the capacity available to accept future upgrades 
incrementally as technologies mature and threats change. Because of the 
pace of change and the operational environment, the Army is pursuing a 
Ground Combat Vehicle program timeline that provides the first 
production vehicles in 7 years.
    The UH-60 Black Hawk is the work horse of Army Aviation. The 
current UH-60 fleet is comprised of 1,833 aircraft, including 921 UH-
60As (produced between 1978 and 1989), 718 UH-60L/Ks (produced since 
1989), and 194 new UH/HH-60Ms. The Black Hawk helicopter is in its 33rd 
year of production. To date, the Army has employed seven multi-year, 
multi-service production contracts. The current contract extends from 
fiscal year 2007 to fiscal year 2011 and includes Navy H-60 aircraft, 
as well as Foreign Military Sales aircraft. The Army is negotiating a 
follow on multiservice contract this year.
    The ongoing UH-60A to UH-60L recapitalization program extends the 
service life of the Black Hawk program, while providing the improved 
capability and safety margin of the UH-60L. The Army plans to induct 48 
aircraft in fiscal year 2010 and 240 aircraft between fiscal year 2011 
and fiscal year 2016. The UH-60M program incorporates a digitized 
cockpit for improved combat situational awareness, lift, range, and 
handling characteristics for enhanced maneuverability and safety. These 
improvements also extend the service life of the aircraft. The Army 
plans to improve the safety of the UH-60M platform with a Preplanned 
Product Improvement technology. Additionally, the Army is pursuing an 
Improved Turbine Engine Program, currently in Science and Technology, 
that will be common across the UH-60 Black Hawk and AH-64 Apache 
fleets.
    Stryker has planned procurement of 3,953 vehicles with 3,149 having 
been accepted as of January 31, 2010. These vehicles support eight 
Stryker Brigade Combat Teams, with the eighth SBCT being fielded in 
fiscal year 2011 at Fort Bliss, TX; a Stryker Theater Provided 
Equipment set supporting the Afghanistan theater; a strategic pool of 
ready-to-fight systems; Institutional Training Base; Test Articles; a 
Depot Repair Cycle Float Pool managed by the U.S. Army Materiel 
Command; and other operational requirements. Stryker vehicles have 
operated more than 24 million miles in combat while maintaining well 
above required operational readiness rates. The Stryker program 
received a Full Rate Production decision on 8 of 10 configuration 
variants, including the Infantry Carrier Vehicle, Reconnaissance 
Vehicle, Commander Vehicle, Mortar Carrier Vehicle, Fire Support 
Vehicle, Anti-tank Guided Missile Vehicle, Engineer Squad Vehicle, and 
Medical Evacuation Vehicle. The remaining variants--the Nuclear, 
Biological and Chemical Reconnaissance Vehicle and the Mobile Gun 
System--are in Limited Rate Production.
    The Army has continually improved the survivability of the Stryker 
vehicle to meet evolving threats. The most current enhancement being 
evaluated is a Double V hull integrated into the current vehicle 
platform that could potentially provide MRAP-level protection against 
Improvised Explosive Devices. A directed requirement has been approved 
and the Army will build and test a limited number of prototype Stryker 
vehicles integrating the Double V hull design. Pending independent 
assessment, a further decision will be made whether to incorporate this 
design onto Stryker vehicles supporting our operations in Afghanistan.
    As mentioned above, the Stryker Mobile Gun System (MGS) is in 
Limited Rate Production with a Full Rate Production decision expected 
in April 2011. MGS is designed to provide direct supporting fires to 
assault infantry in order to destroy or suppress hardened enemy 
bunkers, machine gun positions and sniper positions in urban, 
restricted and open, rolling terrain with its 105mm ``shoot on the 
move'' turreted gun and autoloader system. The MGS is an essential 
component of the Stryker Brigade Combat Team and provides the organic 
combined arms lethality and enhanced operational flexibility necessary 
in today's fact paced threat environment.
    With regard to existing vehicle upgrades, the Army's combat 
platform modernization program is focused on standardizing 31 HBCT sets 
with 2 variants of the Abrams tank and Bradley Infantry Fighting 
Vehicle, 2 of the Army's highest priority combat vehicle 
recapitalization programs. This modernization will provide 26 
operational HBCT equivalents and 5 strategic HBCT equivalents. At 
present, the Army has nearly completed fielding modularized HBCTs, 
which gives every brigade a common structure. The short-term 
modernization goal is to populate these brigades with only two variants 
of the Abrams and the Bradley--the Abrams M1A2SEP v2 is being paired 
with its partner, the Bradley M2A3, and the Abrams M1A1AIM SA is being 
teamed with the Bradley M2A2ODS SA. The modular HBCT force structure 
will be equipped with the two variant Abrams and Bradley fleet by the 
end of 2013. This modernization plan aligns compatible combat platforms 
with common modular formations.
    The Joint Tactical Radio System (JTRS) is a Department of Defense 
(DOD) initiative to develop a family of software-programmable tactical 
radios that provide mobile, interoperable, and networked voice, data, 
and video communications at the tactical edge of the battlefield. JTRS 
development is 85 percent complete. For the Army, JTRS will provide a 
tactical radio communications network for Infantry, Heavy, and Stryker 
Brigade Combat Teams by providing the tactical networking transport 
capability through scalable and modular networked communications. It 
will also provide the current force a mobile, ad hoc networking 
capability using new advanced waveforms--Soldier Radio Waveform and 
Wideband Networking Waveform. The majority of the radios in the Ground 
Mobile Radio (GMR) Program and the Handheld, Man-pack and Small Form 
Fit (HMS) Program will be procured for the Army.
    The GMR will provide the Army a multi-channel (up to four channels) 
operation, allowing full functionality of each legacy radio it 
replaces. In addition, GMR will include an integrated global 
positioning system (GPS) capability based on the Selective Availability 
Anti-Spoofing Module-based GPS receiver with a Precise Time and Time 
Interval output. Today, GMR production representative systems are being 
manufactured which will participate in E-IBCT LUT. The GMR will enter 
LRIP in the second quarter of fiscal year 2011.
    The HMS will provide a scalable and modular Software Communications 
Architecture compliant networked radio frequency communication 
capability to meet Army Handheld, Man-pack (Mounted & Dismounted) and 
Embedded Radio requirements. The program will deliver a Handheld (two 
Channel) radio, a Man-pack (two Channel) radio, and various Small Form 
Fit radios for various ground sensors, unattended vehicles, and 
unmanned air vehicles. The HMS will enter LRIP this year and begin 
delivering to our soldiers in fiscal year 2011.
            the requirements process and reform initiatives
    The Army has developed and refined a dynamic, flexible process to 
review, validate, resource, and acquire critical warfighting 
capabilities rapidly to meet operational needs while minimizing risk 
through due diligence. This accelerated process complements the 
standard, more deliberate Joint Capabilities Integration and 
Development System that is generally used for requirements 
determination. It capitalizes on ``real time'' feedback from commanders 
in the field and, through its improved responsiveness, has 
significantly enhanced operations in Iraq and Afghanistan.
    The Army prides itself as a learning organization and continues to 
make a concerted effort to codify the positive refinements in its 
processes that we have made during the prolonged conflicts in Iraq and 
Afghanistan. In keeping with this trend, this accelerated process for 
validation of operational needs has been documented in the latest 
update of Army Regulation 71-9, Warfighting Capabilities Determination, 
published on December 28, 2009.
Operational Needs Statement and Joint Urgent Needs Statements
    The Chief of Staff of the Army's vision to ``build a versatile mix 
of tailorable and networked organizations, operating on a rotational 
cycle, to provide a sustained flow of trained and ready forces for full 
spectrum operations and to hedge against unexpected contingencies at a 
sustainable tempo for our All-Volunteer Force'' is supported by an 
accelerated requirements review and decision process used for 
evaluating and fulfilling operational needs statements (ONS) and joint 
urgent operational need statements (JUONS). This accelerated process 
provides a high degree of tailorability and increased versatility to 
our efforts to provide materiel capabilities for deployed and deploying 
commanders and units.
    Following mission analysis based on battlefield experiences, 
operational commanders use the ONS and JUONS process to identify 
materiel shortfalls in their current organizations that, if remedied, 
could correct a deficiency or improve a capability that enhances 
mission accomplishment. The ONS is particularly useful to support Army 
units that are assigned ``nonstandard'' missions for which they are not 
normally equipped.
    The ONS and JUONS requests can be made for either nonstandard 
capabilities that can be procured from commercially available items or 
for quantities of standard Army equipment that exceed the 
organization's authorization. Additionally, the ONS provides a 
mechanism for commanders to request new capabilities that do not 
currently exist within the Army.
    Army commanders submit ONS through the chain of command to the Army 
Staff for review and approval, while JUONS are submitted through the 
chain of command to the Joint Staff for approval. Since the beginning 
of the current conflicts, 98 percent of urgent operational needs 
identified by Army commanders have been submitted using ONS, while 2 
percent have been submitted using the JUONS. The majority of ONS 
received from Army commanders are for increases in standard Army 
capabilities or equipment while the majority of JUONS are for new 
capabilities or equipment that do not exist in current Army materiel 
inventories. In 2009, commanders requested more than 6,000 separate 
types of equipment through approximately 2,500 ONS. The rapid fielding 
of MRAPS to Iraq and Afghanistan is an example of capabilities provided 
rapidly through a JUONS. The increase in basis of issue for night 
vision goggles and the provision of hand held radios to deployed units 
are examples of capabilities fielded rapidly through ONS.
Accelerated Requirements
    In addition to streamlining the process for identifying operational 
needs rapidly, the Army has established procedures to deliver 
capabilities rapidly to units deployed to Afghanistan and Iraq by 
modifying the requirements validation, funding, and acquisition 
processes associated with these urgent needs. As you may suspect, the 
Army is forced to accept a slightly higher degree of risk regarding 
system integration when performing these activities in parallel. To 
mitigate and manage the risk, we have developed and use a senior leader 
decisionmaking forum known as the Army Requirements and Resourcing 
Board (AR2B) to inform our actions through this process. The AR2B 
synchronizes the assessment, validation, resourcing, and sourcing of 
urgent capabilities within the Department. The AR2B coordinates weekly 
with theater to prioritize efforts and to insure capabilities being 
developed meet evolving theater operational needs. The flexibility 
granted from Congress concerning reprogramming of funds has been 
instrumental to the success of this forum.
    The Army is tackling unique integration challenges responding to 
urgent needs identified by commanders in Afghanistan. The relatively 
primitive infrastructure of Afghanistan and the restricted lines of 
communication through which materiel must flow into the theater is 
causing us to pay greater attention in synchronizing the delivery of 
capabilities, logistics, training, and manning considerations of 
accelerated acquisition programs than we had in the past when dealing 
with requests originating out of Iraq. For example, in Iraq where we 
had the advantage of an established infrastructure, the Army was able 
to rapidly field and integrate into the force more than thirty variants 
of the MRAPs. A priority of Afghanistan is reducing the number of 
logistics requirements by having as few variants as possible. For this 
reason, the staff is being more deliberate in its decisionmaking to 
ensure that fielded capabilities are supportable.
Transition of Rapidly Acquired Capability
    To capitalize fully on the accelerated process, the Army developed 
institutional processes designed to integrate proven wartime 
capabilities into the Army's standard materiel management system. This 
work is accomplished through the Army Centers for Lesson Learned and 
through the CDRT process. The Army uses unit commander feedback and 
TRADOC assessments to develop recommendations on whether a wartime 
capability should be transitioned to an enduring Army capability. 
Examples of capabilities recommended as enduring capabilities through 
the CDRT process include the Tactical Ground Reporting (TIGR) System 
and the Green Laser Dazzler. The TIGR system improves situational 
awareness and facilitates collaboration at the company level by 
enabling the collection and dissemination of fine-grained intelligence 
on people, places, and insurgent activity. The Green Laser Dazzler is a 
non-lethal weapon used to create temporary vision impairment to stop 
someone from advancing.
Reform Initiatives for the Deliberate Process
    From a requirements point of view, and consistent with DOD's High 
Priority Performance Goals in the President's fiscal year 2011 Budget's 
Analytic Perspectives volume, the Army is implementing the Weapon 
Systems Reform Act of 2009 through the management of more comprehensive 
Analysis of Alternatives (AoA), Configuration Steering Boards (CSBs), 
and Capability Portfolio Reviews (CPRs). The Army is working closely 
with OSD--Cost Assessment and Program Evaluation to develop AoA 
guidance, with special emphasis on costs and benefits, and to review 
AoA products. The Army is conducting CSBs regularly to review 
requirements and to determine the status of programs. The Army senior 
leadership is conducting Army-wide, all-component, CPRs to review 
requirements and priorities holistically and make recommendations to 
revalidate, modify or drop requirements. The objective is to ensure 
that funds are programmed, budgeted, and executed against validated 
requirements that are cost and risk-informed.
    The Army has demonstrated great flexibility in adjusting its 
requirements review and development processes to be more effective in 
the contemporary operating environment. After several years of 
refinement, the Army has a process that reviews, validates, resources, 
and acquires critical warfighting capabilities rapidly to meet 
commanders operational needs while maintaining the good stewardship 
expected of our institution. We have been able to find the balance in 
making institutional processes more responsive while minimizing 
operational risk through due diligence. Lastly, the Army is also 
ensuring that the investment in materiel for the current conflicts is 
leveraged and incorporated into its long-term equipping strategy.
                               in closing
    In support of Army Modernization, the Army has submitted a 
research, development, and acquisition budget request of $31.7 billion 
for fiscal year 2011. We believe that this budget allocates resources 
appropriately between bringing advanced technologies to our soldiers 
currently in the fight and developing new technologies to bring the 
required capabilities to our soldiers in the future. As such, we meet 
our leadership's intent of concurrently preparing our soldiers for 
success in the current conflict and transforming to meet the demands of 
the 21st century.
    Mr. Chairman, Senator Thune, and members of the committee, on 
behalf of our soldiers, we greatly appreciate the tremendous support we 
receive from this Congress and the American people. We urge you to 
provide full, timely, and predictable funding to implement the plans we 
have shared with you today successfully. The Army is modernizing, 
seeking to restore balance while setting conditions for the future. Our 
goal is to balance current and future requirements and risks to make 
certain that we can defend the Nation--today and tomorrow.

    Senator Lieberman. Thank you, General. Well said.
    General Phillips, welcome.

 STATEMENT OF LTG WILLIAM N. PHILLIPS, USA, PRINCIPAL MILITARY 
DEPUTY TO THE ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION, 
  LOGISTICS, AND TECHNOLOGY, AND DIRECTOR, ACQUISITION CAREER 
                           MANAGEMENT

    General Phillips. Sir, thank you. Chairman Lieberman, 
Senator Thune, and distinguished members of the subcommittee, I 
do not have an opening statement. But I just have some quick 
thoughts for you, and I'll echo what General Lennox has said.
    First of all, it's an honor for me to be here with this 
distinguished panel. Sir, on behalf of all our soldiers and 
their families, I want to thank you for the great work that 
this committee, and quite frankly, the American taxpayer does 
to provide our Army and our Armed Forces world-class equipment 
for our soldiers.
    I just came back from a tour in Iraq. I watched our 
soldiers operate on the field of battle with great distinction 
and excellence. I would borrow the words that you just said, 
with great professionalism and extraordinary courage. So I 
thank you and this committee for what you do for our soldiers.
    I look forward to your questions, sir.
    Senator Lieberman. Thanks, General. That was very kind of 
you to say.
    Michael Sullivan, welcome.

  STATEMENT OF MICHAEL J. SULLIVAN, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Sullivan. Thank you, Mr. Chairman, Ranking Member 
Thune, members of the subcommittee. It's my pleasure to be here 
with you today to discuss the current status of the Army's 
modernization efforts since the Secretary of Defense's decision 
to restructure the FCS program back in April. My testimony will 
focus on current challenges and opportunities for the Army in 
moving forward with its acquisition plans including its current 
contracting activity, our views on the status of the initial 
BCT increments, and our views on the GCV development effort.
    For the time being the Army is continuing development of 
the initial BCT equipment and the supporting network under the 
modified FCS development contract. It has also awarded a 
contract to procure long lead items for the BCT equipment 
procurement and has issued a modification to that contract to 
begin low rate production.
    With regard to the status of the development program for 
the initial increment, recent testing revealed significant 
reliability problems during a recent series of tests designed 
to prove capabilities in the field. Systems proved unable to 
perform as accepted and fell far short of current reliability 
thresholds. Five of the systems are currently being redesigned 
and will undergo further testing over the coming months.
    In light of these issues, as General Lennox stated, we are 
concerned that the Army's production decision that was approved 
by the Department may be too risky at this time. The Army is 
proceeding with procurement despite having acknowledged that 
systems are in some cases immature, still not reliable, and 
cannot perform as required in the field. The decision to move 
into production with this risk is a variance with DOD's 
acquisition policy and best practices that emphasize knowledge 
based and incremental product development and production.
    As a result, we recommended that the Army correct all of 
the maturity and reliability issues with that initial increment 
that testing has or will identify before the Department 
approves any additional production lots after this one and 
before any of these systems are fielded. The Army did agree 
with that recommendation as the General stated.
    We also looked at the GCV development program, and our 
views on that are slightly more optimistic at this point. It's 
very early in that program. I think the key to success on that 
program at this point will be to keep agreed upon requirements 
in line with the resources that are available. That being time, 
of course, 7 years to deliver money and technologies that are 
available today.
    The Department made a material development decision this 
February. The Army is planning to award multiple contracts to 
begin technology development September 2010. It's proposing the 
use of competitive prototyping during technology development 
which is something we like to see.
    We think that reduces risk, and we think that will 
emphasize mature technologies. It's also planning a preliminary 
design review that will validate contractor readiness to begin 
product development sometime in fiscal year 2013.
    So we think they're taking their time at the right time to 
ensure that the requirements can be delivered with mature 
technologies. Current plans are to deliver the initial GCV in 
late fiscal year 2017, which is a fairly quick developmental 
period. But if done properly and they keep an eye on the 
requirements and level those with the available technologies, 
it probably is doable.
    Mr. Chairman, as you can see the current post-FCS 
modernization environment is mixed and still taking form. It's 
important to note that when added up ongoing development and 
procurement funding for the BCT increments and development 
funding for the GCV represents about $24 billion in the Army's 
planned budget from 2011 to 2015. With that amount of money on 
the line it's critical to get things right at this time.
    That is why we also recommended in our report that was 
issued in March that the Army report to Congress by the end of 
this fiscal year the full details of its new modernization 
acquisition strategy including plans for program management and 
contracting. Again, the Army agreed with that recommendation 
and said they would deliver that.
    Mr. Chairman, that completes my statement. I'd be happy to 
answer any questions.
    [The prepared statement of Mr. Sullivan follows:]
               Prepared Statement by Michael J. Sullivan
    Mr. Chairman and members of the subcommittee:
    I am pleased to be here today to discuss some of the Department of 
the Army's ground force modernization efforts as it moves away from the 
now-canceled Future Combat System (FCS) program. My statement today is 
based on the work we conducted over the last year in response to a 
request from the Subcommittee on Air and Land Forces, House Committee 
on Armed Services. This statement focuses on the Army's post-FCS 
acquisition plans. In particular, it emphasizes the December 2009 
decision to begin low-rate initial production for Increment 1 of the 
Brigade Combat Team Modernization. Our recent report on the Army's 
ground force modernization efforts provides additional information on 
the Army's efforts.\1\
---------------------------------------------------------------------------
    \1\ Government Accountability Office (GAO), Defense Acquisitions: 
Opportunities Exist to Position Army's Ground Force Modernization 
Efforts for Success, GAO-10-406 (Washington, DC: Mar. 15, 2010).
---------------------------------------------------------------------------
    This statement is based on work we conducted from March 2009 
through March 2010 in accordance with generally accepted government 
auditing standards. Those standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
                               background
    Since it started development in 2003, FCS has been at the center of 
the Army's efforts to modernize into a lighter, more agile, and more 
capable combat force. The FCS concept involved replacing existing 
combat systems with a family of manned and unmanned vehicles and 
systems linked by an advanced information network. The Army anticipated 
that the FCS systems, along with the soldier and enabling complementary 
systems, would work together in a system of systems wherein the whole 
provided greater capability than the sum of the individual parts. The 
Army expected to develop this equipment in 10 years, procure it over 13 
years, and field it to 15 FCS-unique brigades--about one-third of the 
Active Force at that time. The Army also had planned to spin out 
selected FCS technologies and systems to current Army forces throughout 
the system development and demonstration phase.
    As we reported in 2009,\2\ the FCS program was immature and unable 
to meet the Department of Defense's (DOD) own standards for technology 
and design from the start. Although adjustments were made, such as 
adding time and reducing requirements, vehicle weights and software 
code grew, key network systems were delayed, and technologies took 
longer to mature than anticipated (see fig. 1). By 2009, after an 
investment of 6 years and an estimated $18 billion, the viability of 
the FCS concept was still unknown. As such, we concluded that the 
maturity of the development efforts was insufficient and the program 
could not be developed and produced within existing resources.
---------------------------------------------------------------------------
    \2\ GAO, Defense Acquisitions: Decisions Needed to Shape Army's 
Combat Systems for the Future, GAO-09-288 (Washington, DC: Mar. 12, 
2009).
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    In April 2009, the Secretary of Defense proposed a significant 
restructuring of the FCS program to lower risk and address more near-
term combat needs. The Secretary noted significant concerns that the 
FCS program's vehicle designs--where greater information awareness was 
expected to compensate for less armor, resulting in lower weight and 
higher fuel efficiency--did not adequately reflect the lessons of 
counterinsurgency and close-quarters combat operations in Iraq and 
Afghanistan. As such, the Secretary recommended:

        <bullet> accelerating fielding of ready-to-go systems and 
        capabilities to all combat brigades;
        <bullet> canceling the vehicle component of the FCS program, 
        reevaluating the requirements, technology, and approach, and 
        relaunching the Army's vehicle modernization program; and
        <bullet> addressing fee structure and other concerns with 
        current FCS contracting arrangements.

    In June 2009, the Under Secretary of Defense for Acquisition, 
Technology and Logistics issued an acquisition decision memorandum that 
canceled the FCS acquisition program, terminated manned ground vehicle 
development efforts, and laid out plans for follow-on Army Brigade 
Combat Team Modernization efforts. DOD directed the Army to transition 
to an Army-wide modernization plan consisting of a number of integrated 
acquisition programs, including one to develop ground combat vehicles 
(GCV).
    Subsequently, the Army has been defining its ground force 
modernization efforts per the Secretary's decisions and the June 2009 
acquisition decision memorandum. Although the details are not yet 
complete, the Army took several actions through the end of calendar 
year 2009. It stopped all development work on the FCS manned ground 
vehicles--including the non-line-of-sight cannon--in the summer of 2009 
and recently terminated development of the Class IV unmanned aerial 
vehicle and the countermine and transport variants of the Multifunction 
Utility/Logistics and Equipment unmanned ground vehicle. For the time 
being, the Army is continuing selected development work under the 
existing FCS development contract, primarily residual FCS system and 
network development. In October 2009, the Army negotiated a 
modification to the existing contract that clarified the development 
work needed for the brigade modernization efforts.
   the army has started a series of development and fielding efforts
    The Army is implementing DOD direction and redefining its overall 
modernization strategy as a result of the Secretary of Defense's 
decisions to significantly restructure the FCS program. It is 
transitioning from the FCS long-term acquisition orientation to a 
shorter-term approach that biennially develops and fields new 
increments of capability within capability packages. It now has an 
approved acquisition program that will produce and field the initial 
increment of the FCS spinout equipment, which includes unmanned aerial 
and ground vehicles as well as unattended sensors and munitions, and 
preliminary plans for two other major defense acquisition programs to 
define and develop follow-on increments and develop a new GCV. The Army 
also plans to integrate network capabilities across its brigade 
structure and to develop and field upgrades to other existing ground 
force equipment.

        <bullet> The first program, Increment 1, is a continuation of 
        previous FCS-related efforts to spin out emerging capabilities 
        and technologies to current forces. Of the Army's post-FCS 
        modernization initiatives, Increment 1, which includes such FCS 
        remnants as unmanned air and ground systems, unattended ground 
        sensors, the non-line-of-sight launch system, and a network 
        integration kit, is the furthest along in the acquisition 
        development cycle (see fig. 2). The network integration kit 
        includes, among other things, the integrated computer system, 
        an initial version of the system-of-systems common operating 
        environment, early models of the Joint Tactical Radio System, 
        and a range extension relay.\3\ In December 2009, the Army 
        requested and DOD approved, with a number of restrictions, the 
        low-rate initial production of Increment 1 systems that are 
        expected to be fielded in the fiscal year 2011-2012 capability 
        package.\4\ The Army will be continuing Increment 1 development 
        over the next 2 years while low-rate initial production 
        proceeds. The projected development and production cost to 
        equip nine brigades with the Increment 1 network and systems, 
        supported by an independent cost estimate, would be about $3.5 
        billion.
---------------------------------------------------------------------------
    \3\ The system-of-systems common operating environment is the 
operating environment that serves as middleware between operating 
systems and software applications.
    \4\ The Army had developed a concept of continual modernization of 
ready-to-go capabilities through biennial deliveries of what are called 
capability packages.
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
        <bullet> For the second acquisition program, Increment 2 of 
        brigade modernization, the Army has preliminary plans to mature 
        Increment 1 capabilities--potentially demonstrating full FCS 
        threshold requirements--as well as contributing further 
        developments of the system-of-systems common operating 
        environment and battle command software, and demonstrating and 
        fielding additional capabilities. For example, these may 
        include the Armed Robotic Vehicle Assault (Light)--an unmanned 
        ground vehicle configured for security and assault support 
        missions--and the Common Controller, which will provide the 
        dismounted soldier a handheld device capable of controlling, 
        connecting, and providing data transfer from unmanned vehicles 
        and ground sensors. Army officials indicated that they are 
        currently working to define the content, cost, and schedule for 
        Increment 2 with a low-rate initial production decision planned 
        for fiscal year 2013 and a Defense Acquisition Board review 
        expected later in fiscal year 2010.
        <bullet> The third acquisition program would develop a new GCV. 
        The Army reviewed current fighting vehicles across the force 
        structure to determine whether to sustain, improve, divest, or 
        pursue new vehicles based on operational value, capability 
        shortfalls, and resource availability. Per DOD direction, the 
        Army also collaborated with the Marine Corps to identify 
        capability gaps related to fighting vehicles. For development 
        of a new GCV, the Army's preliminary plans indicate the use of 
        an open architecture design to enable incremental improvements 
        in modular armor; network architecture; and subcomponent size, 
        weight, power, and cooling. DOD and the Army met in February 
        2010 to make a materiel development decision on the GCV, and 
        the Army was subsequently authorized to release a request for 
        proposals for GCV technology development.\5\ Over the next 
        several months, the Army will be conducting an analysis of 
        alternatives to assess potential materiel solutions for the 
        GCV. The Army expects to follow the analysis with a Milestone A 
        decision review on whether to begin technology development in 
        September 2010.\6\ After Milestone A, Army officials are 
        proposing the use of competitive prototyping with multiple 
        contractors--the number of which will depend on available 
        funding--during the technology development phase, which will 
        feature the use of mature technologies and the fabrication and 
        testing of prototype subsystems. In the technology development 
        phase, the contractors will be expected to fabricate and 
        evaluate several subsystem prototypes, including an automotive 
        test rig and a mine blast test asset. The contractors will also 
        be expected to develop a near-critical design review level 
        design for their integrated vehicle and, in the process, inform 
        the GCV concept development document. That document is expected 
        to be finalized at the Milestone A decision point. Competitive 
        prototypes will be fabricated and tested during the engineering 
        and manufacturing development phase. A preliminary design 
        review would be used to validate contractor readiness to enter 
        detailed design at Milestone B in fiscal year 2013. The Army's 
        preliminary plans indicate that the first production vehicles 
        could be delivered in late fiscal year 2017, about 7 years from 
        Milestone A.
---------------------------------------------------------------------------
    \5\ A materiel development decision is a review that is the formal 
entry point into the acquisition process and is mandatory for all 
programs. After the materiel development decision, the Milestone 
Decision Authority may approve entry into the acquisition management 
system at any point consistent with phase-specific entrance criteria 
and statutory requirements.
    \6\ Milestone A is the point at which a program enters the 
technology development phase; Milestone B is entry into the engineering 
and manufacturing development phase; and Milestone C is entry into the 
production and deployment phase.
---------------------------------------------------------------------------
        <bullet> The Army is planning to incrementally develop and 
        field an information network to all of its brigades in a 
        decentralized fashion, that is, not as a separate acquisition 
        program. The Army has defined a preliminary network strategy 
        and is in the process of defining what the end state of the 
        network will need to be, as well as how it may build up that 
        network over an undefined period of time. In the near term, the 
        Army is working to establish a common network foundation to 
        build on and to define a common network architecture based on 
        what is currently available and expected to become available in 
        the near future. Current communications, command and control, 
        and networking acquisition programs will continue and will be 
        expected to build upon the current network foundation and 
        architecture over time. Networking capabilities will be 
        expected to meet specific standards and interface requirements. 
        According to Army officials, the ongoing incremental network 
        and software development activities and requirements will be 
        dispersed to these acquisition programs, where they will be 
        considered for further development and possible fielding. The 
        only original FCS network development activities that the Army 
        plans to continue under the FCS development contract are those 
        supporting the network integration kit for Increment 1 and 
        whatever additional networking capabilities may be needed for 
        Increment 2. DOD expects the Army to present its network 
        development plans later in 2010. (See table 1.)
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    As shown in table 1, the Army is proposing to make substantial 
investments in its post-FCS acquisition initiatives. For fiscal year 
2011, the Army is proposing research and development funding of about 
$2.5 billion and procurement funding of about $683 million. For the 
following 4 years (fiscal years 2012-2015), the Army plans additional 
research and development investments of about $10.4 billion and 
procurement investments of about $10.7 billion.
Recent Army Contract Actions Related to Its Post-FCS Efforts
    For the time being, the Army is continuing selected development 
work--primarily that related to Increment 1, Increment 2, and network 
development--under the existing FCS development contract. In October 
2009, the Army negotiated a modification to the existing contract that 
clarified the development work needed for the brigade modernization 
efforts. The Army previously awarded a contract for long lead item 
procurement for Increment 1. A modification to that contract was 
recently issued to begin low-rate initial production of the Increment 1 
systems. The Army has also recently released a request for proposals 
for the technology development phase of the proposed GCV development 
effort.
    Contractor proposals for GCV are expected to include plans, 
solutions, or both for, among other things, survivability (hit 
avoidance system, armor, and vehicle layout) and mobility (propulsion 
and power generation and cooling). According to the request for 
proposals, the proposals can utilize prior Army investment in armor 
recipes, but the contractors will not get an inherent advantage for 
doing so. Each solution will be based on its own merits. Contractor 
proposals are to be submitted in April 2010 and contract awards, for 
cost-plus type contracts, are to be awarded after the Milestone A 
decision in September 2010.
 acquisition direction and fcs lessons learned offer opportunities to 
   promote successful outcomes, but decision to proceed with initial 
                        production is premature
    The challenge facing both DOD and the Army is to set these ground 
force modernization efforts on the best footing possible by buying the 
right capabilities at the best value. In many ways, DOD and the Army 
have set modernization efforts on a positive course, and they have an 
opportunity to reduce risks by adhering to the body of acquisition 
legislation and policy reforms--which incorporate knowledge-based best 
practices we identified in our previous work--that have been introduced 
since FCS started in 2003. The new legislation and policy reforms 
emphasize a knowledge-based acquisition approach, a cumulative process 
in which certain knowledge is acquired by key decision points before 
proceeding. In essence, knowledge supplants risk over time. 
Additionally, DOD and the Army can further reduce risks by considering 
lessons learned from problems that emerged during the FCS development 
effort. Initial indications are that the Army is moving in that 
direction. However, in the first major acquisition decision for the 
Army's post-FCS initiatives, DOD and the Army--because they want to 
support the warfighter quickly--are proceeding with low-rate initial 
production of one brigade set of Increment 1 systems despite having 
acknowledged that the systems are immature and unreliable and cannot 
perform as required.
New Acquisition Reforms Point Way to Lower Risk
    The body of acquisition legislation and DOD policy reforms 
introduced since FCS started in 2003 incorporates nearly all of the 
knowledge-based practices we identified in our previous work (see table 
2). For example, DOD acquisition policy includes controls to ensure 
that programs have demonstrated a certain level of technology maturity, 
design stability, and production maturity before proceeding into the 
next phase of the acquisition process. As such, if the Army proceeds 
with preliminary plans for new acquisition programs, then adherence to 
the acquisition direction in each of its new acquisition efforts 
provides an opportunity to improve the odds for successful outcomes, 
reduce risks for follow-on Army ground force modernization efforts, and 
deliver needed equipment more quickly and at lower costs. Conversely, 
acquisition efforts that proceed with less technology, design, and 
manufacturing knowledge than best practices suggest face a higher risk 
of cost increases and schedule delays.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    As shown in table 2, the cumulative building of knowledge consists 
of information that should be gathered at three critical points over 
the course of a program:
    Knowledge point 1 (at the program launch or Milestone B decision): 
Establishing a business case that balances requirements with resources. 
At this point, a match must be made between the customer's needs and 
the developer's available resources--technology, engineering, 
knowledge, time, and funding. A high level of technology maturity, 
demonstrated via a prototype in its intended environment, indicates 
whether resources and requirements match. Also, the developer completes 
a preliminary design of the product that shows that the design is 
feasible and that requirements are predictable and doable.
    Knowledge point 2 (at the critical design review between design 
integration and demonstration): Gaining design knowledge and reducing 
integration risk. At this point, the product design is stable because 
it has been demonstrated to meet the customer's requirements as well as 
cost, schedule, and reliability targets. The best practice is to 
achieve design stability at the system-level critical design review, 
usually held midway through system development. Completion of at least 
90 percent of engineering drawings at this point provides tangible 
evidence that the product's design is stable, and a prototype 
demonstration shows that the design is capable of meeting performance 
requirements.
    Knowledge point 3 (at production commitment or the Milestone C 
decision): Achieving predictable production. This point is achieved 
when it has been demonstrated that the developer can manufacture the 
product within cost, schedule, and quality targets. The best practice 
is to ensure that all critical manufacturing processes are in 
statistical control--that is, they are repeatable, sustainable, and 
capable of consistently producing parts within the product's quality 
tolerances and standards--at the start of production.
    The Army did not position the FCS program for success because it 
did not establish a knowledge-based acquisition approach--a strategy 
consistent with DOD policy and best acquisition practices--to develop 
FCS. The Army started the FCS program in 2003 before defining what the 
systems were going to be required to do and how they were going to 
interact. It moved ahead without determining whether the FCS concept 
could be developed in accordance with a sound business case. 
Specifically, at the FCS program's start, the Army had not established 
firm requirements, mature technologies, a realistic cost estimate, or 
an acquisition strategy wherein knowledge drives schedule. By 2009, the 
Army still had not shown that emerging FCS system designs could meet 
requirements, that critical technologies were at minimally acceptable 
maturity levels, and that the acquisition strategy was executable 
within estimated resources.
    With one notable exception, there are initial indications that DOD 
and the Army are moving forward to implement the acquisition policy 
reforms as they proceed with ground force modernization, including the 
Secretary of Defense's statement about the ground vehicle modernization 
program--to ``get the acquisition right, even at the cost of delay.'' 
In addition, DOD anticipates that the GCV program will comply with DOD 
acquisition policy in terms of utilizing competitive system or 
subsystem prototypes. According to a DOD official, a meeting was 
recently held to consider a materiel development decision for the GCV, 
and the Army is proposing to conduct a preliminary design review on GCV 
before its planned Milestone B decision point. Additionally, a 
configuration steering board is planned for later in 2010 to address 
reliability and military utility of infantry brigade systems.
Army's Decision to Proceed with Low-Rate Initial Production for 
        Increment 1 Increases Risk
    In the first major acquisition decision for the Army's post-FCS 
initiatives, DOD and the Army--because they want to support the 
warfighter quickly--are proceeding with low-rate initial production of 
Increment 1 systems despite having acknowledged that systems are 
immature, are unreliable, and cannot perform as required. In December 
2009, the Under Secretary of Defense for Acquisition, Technology and 
Logistics approved low-rate initial production of Increment 1 equipment 
for one infantry brigade but noted that there is an aggressive risk 
reduction plan to grow and demonstrate the network maturity and 
reliability to support continued Increment 1 production and fielding. 
In the associated acquisition decision memorandum, the Under Secretary 
acknowledged the risks of pursuing Increment 1 production, including 
early network immaturity; lack of a clear operational perspective of 
the early network's value; and large reliability shortfalls of the 
network, systems, and sensors. The Under Secretary also said that he 
was aware of the importance of fielding systems to the current 
warfighter and that the flexibility to deploy components as available 
would allow DOD to ``best support'' the Secretary of Defense's 
direction to ``win the wars we are in.'' Because of that, the Under 
Secretary specified that a number of actions be taken over the next 
year or more and directed the Army to work toward having all components 
for the program fielded as soon as possible and to deploy components of 
the program as they are ready. However, the Under Secretary did not 
specify the improvements that the Army needed to make or that those 
improvements are a prerequisite for the Under Secretary approving 
additional production lots of Increment 1.
    The approval for low-rate initial production is at variance with 
DOD policy and Army expectations. DOD's current acquisition policy 
requires that systems be demonstrated in their intended environments 
using the selected production-representative articles before the 
production decision occurs. However, the testing that formed the basis 
for the Increment 1 production decision included surrogates and non-
production-representative systems, including the communications radios. 
As we have previously noted,\7\ testing with surrogates and non-
production-representative systems is problematic because it does not 
conclusively show how well the systems can address current force 
capability gaps. Furthermore, Increment 1 systems--which are slated for 
a fiscal year 2011-2012 fielding--do not yet meet the Army's 
expectations that new capabilities would be tested and their 
performance validated before being deployed in a capability package. As 
noted in 2009 test results, system performance and reliability during 
testing was marginal at best. For example, the demonstrated reliability 
of the Class I unmanned aerial vehicle was about 5 hours between 
failure, compared to a requirement for 23 hours between failure. The 
Army asserts that Increment 1 systems' maturity will improve rapidly 
but admits that it will be a ``steep climb'' and not a low-risk effort.
---------------------------------------------------------------------------
    \7\ GAO-09-288.
---------------------------------------------------------------------------
    While the Under Secretary took current warfighter needs into 
account in his decision to approve Increment 1 low-rate initial 
production, it is questionable whether the equipment can meet one of 
the main principles underpinning knowledge-based acquisition--whether 
the warfighter needs can best be met with the chosen concept. Test 
reports from late 2009 showed conclusively that the systems had limited 
performance, and that this reduced the test unit's ability to assess 
and refine tactics, techniques, and procedures associated with 
employment of the equipment. The Director, Operational Test and 
Evaluation recently reported that none of the Increment 1 systems have 
demonstrated an adequate level of performance to be fielded to units 
and employed in combat. Specifically, the report noted that reliability 
is poor and falls short of the level expected of an acquisition system 
at this stage of development. Shortfalls in meeting reliability 
requirements may adversely affect Increment 1's overall operational 
effectiveness and suitability and may increase life-cycle costs. In 
addition, in its 2009 assessment of the increment's limited user test--
the last test before the production decision was made--the Army's Test 
and Evaluation Command indicated that the Increment 1 systems would be 
challenged to meet warfighter needs. It concluded that, with the 
exception of the non-line-of-sight launch system, which had not yet 
undergone flight testing, all the systems were considered operationally 
effective and survivable, but with limitations, because they were 
immature and had entered the test as pre-production-representative 
systems, pre-engineering design models, or both. Additionally, the 
command noted that these same systems were not operationally suitable 
because they did not meet required reliability expectations.
    In recent testimony before a House subcommittee, the Director, 
Operational Test and Evaluation stated that flight testing of the non-
line-of-sight launch system was conducted in January and February 2010. 
In that testing, two of six missiles fired achieved target hits and 
four missed their targets. The Army informed the Director that Failure 
Review Board investigations of the flight failures are underway.
                           concluding remarks
    Army and DOD officials made a very difficult decision when they 
canceled what was the centerpiece of Army modernization--the FCS 
program. As they transition away from the FCS concept, both the Army 
and DOD have an opportunity to improve the likely outcomes for the 
Army's ground force modernization initiatives by adhering closely to 
recently enacted acquisition reforms and by seeking to avoid the 
numerous acquisition pitfalls that plagued FCS. As DOD and the Army 
proceed with these significant financial investments, they should keep 
in mind the Secretary of Defense's admonition about the new ground 
vehicle modernization program: ``get the acquisition right, even at the 
cost of delay.'' Based on the preliminary plans, we see a number of 
good features, such as the Army's decision to pursue an incremental 
acquisition approach for its post-FCS efforts. However, it is vitally 
important that each of those incremental efforts adheres to knowledge-
based acquisition principles and strikes a balance between what is 
needed, how fast it can be fielded, and how much it will cost. 
Moreover, the acquisition community needs to be held accountable for 
expected results, and DOD and the Army must not be willing to accept 
whatever results are delivered regardless of military utility.
    We are concerned that in their desire for speedy delivery of 
emerging equipment to our warfighters in the field, DOD and the Army 
did not strike the right balance in prematurely approving low-rate 
initial production of Increment 1 of brigade modernization. Although 
the Army argues that it needs to field these capabilities as soon as 
possible, none of these systems have been designated as urgent and it 
is not helpful to provide early capability to the warfighter if those 
capabilities are not technically mature and reliable. If the Army moves 
forward too fast with immature Increment 1 designs, then that could 
cause additional delays as the Army and its contractors concurrently 
address technology, design, and production issues. Production and 
fielding is not the appropriate phase of acquisition to be working on 
such basic design issues.
    In our recent report, we made recommendations intended to reduce 
the risk of proceeding into production with immature technologies.\8\ 
In that regard, we recommended that the Secretary of Defense mandate 
that the Army correct the identified maturity and reliability issues 
with the Increment 1 network and systems prior to approving any 
additional lots of the Increment 1 network and systems for production. 
Specifically, the Army should ensure that the network and the 
individual systems have been independently assessed as fully mature, 
meet reliability goals, and have been demonstrated to perform as 
expected using production-representative prototypes. We also 
recommended that the Secretary of the Army should not allow fielding of 
the Increment 1 network or any of the Increment 1 systems until the 
identified maturity and reliability issues have been corrected.
---------------------------------------------------------------------------
    \8\ GAO-10-406.
---------------------------------------------------------------------------
    In response, DOD concurred with our recommendations and stated that 
the need to correct those issues has been communicated to the Army. DOD 
also asserted that Increment 1 systems will be tested in their 
production configuration, and performance will be independently 
assessed against capability requirements prior to DOD approving 
production of any additional lots of Increment 1 systems. The Army has 
many Increment 1 development and testing activities planned for the 
coming months and we intend to monitor their progress closely. DOD also 
stated that Increment 1 systems would not be fielded until performance 
is sufficient to satisfy the warfighter's capability requirements. It 
is essential that: (1) Increment 1 network and systems clearly 
demonstrate their ability to fully satisfy the needs of the warfighter; 
and (2) DOD and the Army not be willing to accept whatever acquisition 
results are delivered regardless of their military utility. Again, we 
intend to follow the Army and DOD's activities and actions in the 
coming months.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions you or members of the subcommittee may 
have.

    Senator Lieberman. Thanks very much, Mr. Sullivan. I 
appreciate the ongoing dialogue you have with the Army.
    Mr. Sullivan. Yes.
    Senator Lieberman. Mr. Duma, welcome.

    STATEMENT OF DAVID W. DUMA, PRINCIPAL DEPUTY DIRECTOR, 
     OPERATIONAL TEST AND EVALUATION, DEPARTMENT OF DEFENSE

    Mr. Duma. Thank you, Mr. Chairman, Senator Thune, 
distinguished members of the subcommittee, thank you for the 
opportunity to provide the DOT&E assessment of the early 
infantry BCT increment 1 and Army modernization programs. My 
written testimony has been submitted for the record so my 
opening remarks will be brief.
    Regarding the increment 1 of the early infantry brigade 
combat team (EIBCT), the DOT&E operational assessment of the 
EIBCT performance is based upon the results of a September 2009 
limited user test (LUT) and the non-line of sight (NLOS) launch 
system flight LUT conducted in February 2010. That assessment 
also used data from developmental testing wherever appropriate. 
Each of the EIBCT systems requires further development prior to 
conducting the initial operational test and evaluation (IOT&E) 
or making a fielding decision.
    All of the systems have notable performance deficiencies 
and the operational reliability for each of the systems falls 
significantly below the stated requirements. The Army is 
addressing the reliability problems, and will test the system 
improvements in the LUT to be conducted in September 2010 and 
again in the IOT&E scheduled for 2011.
    Regarding the Stryker double-V hull, the Army is 
investigating using a double-V hull design in the Stryker. 
Testing of prototype vehicles must be adequate to assure 
vehicles built with the double-V hull provide improved 
protection to the soldiers. We are working with the Army to 
determine the numbers and types of prototypes required for 
testing. This testing will inform decisionmakers prior to a 
production decision.
    Regarding the Stryker mobile gun system, we have reviewed 
the Army's update to Congress on the status of actions taken to 
mitigate the Stryker mobile gun system deficiencies. We assess 
the following remaining deficiencies as being the highest 
priority for correction.
    First, improving the mission equipment package reliability; 
second, developing the long-term solution for rocket propelled 
grenade and anti-tank guided missile protection; and third, 
increasing the gun pod protection level.
    Regarding the GCV of the Army BCT modernization, the Army's 
GCV is in the earliest stages of acquisition. In preparation 
for a milestone A decision later this year our office is 
working closely with the Army to develop a test and evaluation 
strategy for that program. Our office will be involved in the 
test and evaluation of any future capability increments to the 
Army BCT modernization. Once the Army defines the acquisition 
strategies the test and evaluation program will be tailored to 
support those acquisition programs.
    Regarding two specific radios of the joint tactical radio 
system (JTRS), the ground mobile radio (GMR), and the handheld 
man pack and small form fit (HMS) radio, both the JTRS, GMR, 
and HMS radios are schedule driven programs working to complete 
system development prior to operational tests scheduled to 
start in November 2010. Readiness for operational testing is 
dependent upon the completion of user requirements, the 
development of supporting wave forms, and the success of 
developmental testing.
    Mr. Chairman, Senator Thune, distinguished members of the 
subcommittee, this completes my opening remarks. I'll be happy 
to answer your questions.
    [The prepared statement of Mr. Duma follows:]
                  Prepared Statement by David W. Duma
    Mr. Chairman, Senator Thune, distinguished members of the 
Committee, thank you for the opportunity to provide the DOT&E 
assessments of the Early Infantry Brigade Combat Team (E-IBCT) 
Increment 1, the Stryker Double-V Hull Upgrade and Mobile Gun System, 
the Ground Combat Vehicle, the UH-60 Blackhawk Helicopter, and the 
Ground Mobile Radio and Handheld, Manpack, Small Form Factor variants 
of the Joint Tactical Radio System (JTRS) program.
                   assessment of e-ibct test results
    The DOT&E operational assessment of the Early Infantry Brigade (E-
IBCT) Increment 1 performance is based upon the results of the E-IBCT 
Limited User Test (LUT 09) conducted in August-September 2009 and the 
Non-Line of Sight Launch System (NLOS-LS) Flight LUT conducted in 
January-February 2010. That assessment is supplemented with data from 
developmental testing, as appropriate.
    Each of the E-IBCT systems requires further development prior to 
conducting an Initial Operational Test and Evaluation (IOT&E) in fiscal 
year 2011 or fielding. All of the systems have notable performance 
deficiencies. The demonstrated operational reliability for each of the 
systems falls significantly below requirements.
    LUT 09 was the first operational test of the E-IBCT systems. It was 
conducted at Fort Bliss, TX, and consisted of an infantry company and 
scout platoon equipped with E-IBCT systems executing full spectrum 
operations against a threat force composed of conventional mechanized 
forces and paramilitary forces with civilians present on the 
battlefield. The force-on-force test consisted of 4 96-hour scenarios 
with the test unit executing 14 offensive, defensive, and stability 
missions. Operations were conducted both day and night. Live firing of 
the NLOS-LS was conducted during the NLOS-LS Flight LUT at White Sands 
Missile Range, NM, in January-February 2010.
    Many of the systems tested in LUT 09 were not in the same 
configuration as the systems intended for purchase. The Small Unmanned 
Ground Vehicle used a production radio, the remaining five systems used 
pre-production radios and waveforms. Numerous changes to be implemented 
in the E-IBCT systems to be produced (as compared to those tested in 
LUT 09) had been identified prior to LUT 09. The program manager has 
informed DOT&E that additional changes will be made to address the 
reliability problems discovered during the LUT. The first opportunity 
to test the effects of these changes and any others made to address 
performance problems identified in LUT 09 will be the E-IBCT LUT to be 
conducted in August-September 2010 (LUT 10). The E-IBCT systems have 
not been tested against electronic warfare or computer network attack 
threats. E-IBCT operations in an electronic warfare and computer 
network attack environments will be assessed in LUT 10.
    The DOT&E key findings with respect to the performance of the 
individual E-IBCT systems are summarized below.
Non-Line-of-Sight Launch System
    Non-Line-of-Sight Launch System (NLOS-LS) requires further 
developmental and operational flight tests to demonstrate improvement 
in missile reliability and the performance of the missile's infrared 
(IR) seeker. The demonstrated missile reliability is 61 percent, below 
the 85 percent requirement. Missiles using the IR seeker in 
developmental and LUT flight tests hit 5 of 11 targets. The program 
needs to conduct additional testing and allocate adequate time to 
demonstrate performance and implement fixes to improve reliability. The 
NLOS-LS Container Launch Unit (CLU) met its reliability requirement 
during LUT 09, demonstrating a 259-hour mean time between system abort 
versus a 125-hour requirement. However, during the February 10 Flight 
LUT, problems with the NLOS-LS navigation system caused six of the 
seven total system aborts that occurred during testing, resulting in a 
mean time between system abort of 12 hours. This was the first test 
using a new software version for the NLOS-LS navigation system. 
Soldiers received numerous fault codes from the navigation system when 
they initialized the CLU. Failure review is ongoing. In our view, the 
effectiveness of fixes to the navigation system and other failure modes 
should be tested in the E-IBCT LUT 10 conducted later this year.
    NLOS-LS is making progress in some performance areas. Missiles 
using the laser-designate mode demonstrated success in operational and 
developmental testing, hitting five of seven targets. The missile 
warhead can kill armored vehicles when it hits vulnerable areas. In LUT 
09, the NLOS-LS Container Launch Unit was interoperable with the fire 
support network and was effective in processing electronic fire 
commands. During LUT 09, the test unit effectively engaged armored 
targets with the NLOS-LS in simulated fire missions. When simulated and 
evaluated to be successful, NLOS-LS had a significant impact on the 
battle by destroying threat armored vehicles.
    The NLOS-LS Flight LUT was the first operational flight test of the 
system. Soldiers from the Army Evaluation Task Force Fires Battalion 
fired six missions at operationally representative threat targets. 
Forward observers their tactical sensors and target designators 
acquired actual threat tanks, armored combat vehicles, and a commercial 
truck. The tanks and armored combat vehicles had realistic threat 
countermeasures. The Precision Attack Munition and the Container Launch 
Unit (CLU) were production representative. During the Flight LUT, two 
of six missiles fired achieved target hits and four missed their 
targets. Two of the missiles impacted 14 or more kilometers short of 
the target. The cause of one miss is known: the CLU misinterpreted 
temperature data sent by the Advanced Field Artillery Data System. This 
caused the missile to safe the warhead and ignore the laser 
designation, thereby missing the target. The Army has identified 
potential causes for two other misses involving the motor in the 
precision attack munitions and a circuit board failure.
    The Army has informed DOT&E that the program is completing Failure 
Review Board investigations of the developmental and operational flight 
failures. We recommend the Army conduct additional developmental and 
operational flight testing once all of the necessary corrective 
measures have been identified and applied.
Network Integration Kit
    In LUT 09, the Network Integration Kit (NIK) demonstrated a 
capability to receive sensor data from the Tactical Unattended Ground 
Sensor and Urban Unattended Ground Sensor Gateways and to interoperate 
with the Force XXI Battle Command Brigade and Below battle command 
network by passing messages and still images. The NIK operated with 
pre-production pre-Engineering Development Model Joint Tactical Radio 
System Ground Mobile Radios which are not certified to pass classified 
traffic. The NIK did not meet its reliability requirement, 
demonstrating a 33-hour mean time between system abort versus a 
requirement of 112 hours. The NIK had a lengthy boot up time of 30-35 
minutes versus a 10 minute requirement for a warm start reboot. The 
capability of the NIK to pass classified data using low probability of 
intercept waveforms will be evaluated in LUT 10.
Class I Block 0 Unmanned Aircraft System
    The Class 1 UAS meets most of its air vehicle flight and sensor 
performance requirements. This system was heavily used by the test unit 
to perform intelligence, surveillance, and reconnaissance tasks. 
However, the UAS was not employed as the back-packable company-level 
and platoon-level asset envisioned by the user. Due to poor system 
reliability, the unit consolidated these systems under centralized 
battalion-level control to achieve system redundancy. The UAS does not 
have the range or endurance necessary to conduct missions within a 
larger battalion area of operations. An assessment cannot be made of 
the effectiveness of the UAS employed in the platoon/company role for 
which it is designed.
    The Class 1 UAS is not reliable, demonstrating a mean time between 
system abort of 1.5 hours versus a 23-hour user threshold requirement.
Small Unmanned Ground Vehicle Block 1 (SUGV)
    During LUT 09, the SUGV demonstrated a capability for remote 
investigation of potential threats. The test unit successfully 
demonstrated the capability to transmit still images from the SUGV to 
the Network Integration Kit via an Unattended Ground Sensor Gateway. 
The SUGV sensor performs satisfactorily in daylight, providing images 
that can identify personnel at 100 meters, achieving the user 
requirement. The SUGV does not meet the user requirement for 
recognizing personnel at night. The most significant SUGV operational 
deficiency is the limited communications range between the operator and 
the SUGV. The SUGV user requirement calls for a 1,000 meter line-of-
sight tele-operation range. This range allows the operator to employ 
the robot at a safe distance while conducting reconnaissance of 
potentially hazardous locations. During LUT 09, much shorter ranges 
were achieved. Typical tele-operation ranges were 125-150 meters in 
open terrain and 50-75 meters in and around buildings. These short 
tele-operation ranges exposed SUGV operators to hostile fire. Several 
operators were evaluated as killed during the LUT.
    During LUT 09, the SUGV demonstrated a 5.2-hour mean time between 
system abort versus a requirement of 42 hours.
Urban Unattended Ground Sensor
    The Urban Unattended Ground Sensor (U-UGS) demonstrated little 
contribution to unit situational awareness, providing limited 
actionable intelligence. Images were often blurry or blank and not 
readable. During LUT 09, the Local Display and Control Device was not 
used by the unit, although it is essential to providing local unit 
leaders U-UGS alerts and images. The U-UGS has demonstrated a 
capability to transmit images to the NIK via a gateway device. The U-
UGS is not reliable, demonstrating a mean time between system abort of 
25 hours versus a requirement of 105 hours.
Tactical Unattended Ground Sensor
    The Tactical Unattended Ground Sensor (T-UGS) provided little 
contribution to unit situational awareness. During LUT 09, it provided 
no actionable intelligence to the test unit, with half of its photo 
images blank or blurry. The T-UGS demonstrated a capability to transmit 
images to the NIK. The T-UGS is not reliable, demonstrating a mean time 
between system abort of 52 hours versus a requirement of 127 hours.
Reliability
    The Army Test and Evaluation Command calculated reliability growth 
potentials for the NIK, U-UGS, T-UGS, SUGV and Class 1 UAS that are all 
below the reliability thresholds associated with each system. Thus, the 
reliability desired for these systems is not achievable by IOT&E 
without an extensive design-for-reliability effort by the Army.
                         stryker double-v hull
    Recently, the Army leadership decided to investigate using the 
Double-V Hull design developed under the Stryker Modernization effort 
for vehicles to be deployed to Afghanistan. Testing of prototype 
vehicles must be adequate to assure vehicles built with the Double-V 
Hull provide improved protection to soldiers relative to existing 
vehicles. We are working with the Army to determine the numbers and 
types of prototypes required for testing and to develop a test plan 
that the Director will approve.
    Operational and Live Fire Testing for the Stryker Double-V hull 
design will focus on evaluating crew survivability throughout the 
expected threat spectrum. Testing will also assess whether vehicle 
mobility is adequate. This testing will inform decisionmakers prior to 
a production decision.
                       stryker mobile gun system
    Overall the program has mitigated, by either material fixes or 
changes to tactics, techniques, and procedures (TTP), 10 of the 23 
deficiencies identified in the 2008 Secretary of Defense Report to 
Congress.
    We have reviewed the Army's semi-annual report to Congress updating 
the status of actions taken by the Army to mitigate Stryker Mobile Gun 
System (MGS) deficiencies. Based on that review, we assess the 
following remaining deficiencies as being the highest priority for 
correction:

        <bullet> Mission Equipment Package (MEP) Reliability--The MEP 
        demonstrated 53 Mean Rounds Between System Abort (MRBSA) during 
        the October 2007 Initial Operational Test (IOT) versus the 
        requirement of 81 rounds. To validate the effectiveness of 
        actions taken to improve MEP reliability, the Army must conduct 
        an operational gunnery event using qualified crews firing a 
        sufficient number of rounds.
        <bullet> Develop Long-Term Rocket-Propelled Grenade (RPG) and 
        Anti-tank Guided Missile (ATGM) Solution--There has been no 
        change to the DOT&E assessment that the proposed Stryker 
        Reactive Armor Tile (SRAT II) configuration for the MGS is in 
        early development and the effectiveness of the SRAT II has yet 
        to be demonstrated. While the Army approved the plan for the 
        area of the vehicle to be covered by SRAT II in December 2009, 
        the integration of SRAT II on the MGS has not yet occurred. 
        Once the Army defines how SRAT II will be applied to the MGS, 
        the Army must conduct live fire testing to demonstrate the 
        tile's effectiveness in defeating RPGs and ATGMs.
        <bullet> Increase Gun Pod Protection Level--The Army has 
        eliminated the requirement that the MGS be transportable on the 
        C-130. Given the relief from this weight constraint, DOT&E 
        reiterates the recommendation that the Army increase gun pod 
        protection. The existing gun pod can be easily disabled, and 
        when that occurs the MGS is not operationally effective.

    DOT&E will approve the Operational Test Plan for MEP Reliability 
and a Live Fire Test and Evaluation Plan for RPG protection. All full-
up system-level survivability tests should be completed and test 
results documented prior to the full-rate production decision.
    ground combat vehicle and army brigade combat team modernization
    The Army's Ground Combat Vehicle (GCV) is currently in the very 
earliest stages of acquisition. In preparation for a Milestone A 
decision anticipated for September of this year, our office is working 
closely with the Army to develop a Test and Evaluation Strategy for the 
GCV program. At this point, the initial concept for GCV operational 
testing consists of a Limited User Test (LUT) prior to MS C and an 
Initial Operational Test (IOT) prior to the Full Rate Production 
decision. The LUT would be conducted by a mechanized infantry company 
with one platoon each of the two competing GCV prototypes and one 
platoon of current force Bradley Fighting Vehicles. This test structure 
would provide performance data to inform the source selection decision 
as well as providing the basis for a performance comparison between the 
GCV and the current Bradley, which the GCV is intended to replace. The 
IOT would be conducted with a full mechanized infantry company 
consisting of production representative GCV's.
    With regards to Army Brigade Combat Team Modernization, our office 
will be involved in test and evaluation of any future capability 
increments to the Army Brigade Combat Team, once the Army defines the 
associated acquisition strategies. Our level of involvement will be 
similar to our involvement with the testing of E-IBCT Increment 1.
                       uh-60 blackhawk helicopter
    The UH-60M Baseline aircraft completed its Initial Operational Test 
(IOT) in November 2006. The IOT was a 6-week, 216 hour test conducted 
by 4th Squadron, 3rd Armored Cavalry Regiment utilizing 5 production 
aircraft. The test demonstrated the aircraft was operationally 
effective, suitable, and survivable. In May 2007, DOT&E reported its 
test results, and in June 2007 the aircraft was approved for full rate 
production. Reports from units receiving the UH-60M Baseline confirm 
DOT&E's assessment. The UH-60M Upgrade was planned as a follow-on to 
the UH-60M Baseline. In January 2010, the Defense Acquisition Executive 
approved the Army's request to continue UH-60M Baseline production and 
not pursue production of the UH-60M Upgrade configuration. DOT&E will 
continue to monitor and report on the UH-60 program.
  assessment of the joint tactical radio system (jtrs) ground mobile 
 radio (gmr) and handheld, manpack, small form factor (hms) test plans
    The Joint Tactical Radio System (JTRS) Handheld, Manpack and Small 
Form Fit (HMS) and Ground Mobile Radio (GMR) are schedule-driven 
programs working to complete system development prior to operational 
tests scheduled for November 2010. Readiness for and successful 
completion of these operational tests are dependent upon the success of 
developmental testing, development of supporting waveforms and network 
management tools, and the completion of user requirements such as radio 
network architectures and plans for network management.
    The JTRS HMS program completed the Rifleman Radio Limited User Test 
(LUT) in April 2009. This test highlighted deficiencies in reliability, 
battery life, range and an immature Concept of Operations. The Rifleman 
Radio reliability, battery life, and transmission range were each no 
better than 50 percent of the user requirements. The Concept of 
Operations did not provide sufficient radio discipline during combat. 
The program will conduct a series of tests from April through June 2010 
to verify correction of deficiencies. The results of these tests will 
support a Milestone C review in August 2010. The program is scheduled 
to conduct the Rifleman Radio Initial Operational Test (IOT) in 
November 2010, in conjunction with the JTRS HMS Manpack LUT.
    The JTRS HMS program is executing Manpack radio developmental 
testing leading to the Manpack LUT in November 2010. This LUT will be 
conducted in conjunction with the Rifleman Radio IOT. Completion of 
planning for these tests awaits JTRS HMS Manpack user requirements.
    The JTRS GMR program is experiencing an 8-month delay in 
developmental testing due to late delivery of hardware and software. 
Because the schedule for conducting the GMR LUT in November 2010 has 
remained unchanged despite the delay in development, this shift in 
schedule has reduced the time available to develop corrective actions 
for deficiencies discovered during developmental testing prior to 
conducting the LUT.
    The JTRS GMR LUT is dependent upon the delivery of a functional 
Wideband Networking Waveform (WNW) and network management tools. WNW 
version 3.1 demonstrated low throughput and poor message completion 
rates during the April 2009 WNW 30-Node Test. The JTRS Network 
Enterprise Domain (NED) has conducted production qualification testing 
on JTRS WNW version 4.0.1 and has made this version available for 
integration into GMR. The National Security Agency identified security 
issues with WNW 4.0.1 and will reassess an updated WNW 4.0.2 for 
corrections.
    The JTRS GMR is a critical component of the NIK and provides 
transfer of data, imagery and voice communications within the E-IBCT. 
Delays in the GMR program could affect plans for fielding the E-IBCT.
    The Army's ability to execute the overall JTRS test schedule 
leading to the three scheduled operational tests (Rifleman Radio IOT, 
Manpack LUT, and GMR LUT) in November 2010 is of great concern due to a 
lack of time to address corrective actions, the dependence upon 
supporting waveform and network management success, and the need to 
complete user requirements.

    Senator Lieberman. Thanks very much, Mr. Duma. We'll have 
7-minute rounds of questions. Let me begin with a look back and 
a broader look question for the four of you.
    As I mentioned briefly in my opening statement, as you look 
back over the last period of time the Army's largest 
modernization programs have not really been successful and 
stable. In some ways you have to, over the years, watch the 
bouncing ball. We went from digitization to Force 21 to the 
Army after next to the interim force to the objective force to 
FCS and modularity.
    Well, it wasn't all lost. Some things were gained from some 
of those investment programs. As I said before, we have an 
extraordinary Army in the field. But still I don't think it's 
the desired course.
    So I want to ask each of you to answer basically two 
questions.
    First, what do you think have been the greatest sources of 
instability for the Army modernization programs over the years?
    Second, essentially have we learned the lessons? Are the 
current efforts underway sufficient to stabilize Army 
modernization? Maybe we'll give you the first shot at that, 
General Lennox.
    General Lennox. Senator Lieberman, thanks. There have been 
an awful lot of failed efforts in the past. My experience 
really goes back to the most recent one, so I'll speak from 
that if you don't mind. It's the FCS.
    Senator Lieberman. Great.
    General Lennox. I think what we did in that and one of the 
challenges we faced in that was we overreached. We thought that 
we'd rely on systems and technologies that would develop over a 
certain period of time. They didn't. Their technology levels 
were relatively low and I think we were counting on a series 
of, not miracles, but important things to happen, 
technologically, in order for that system to develop and 
develop on time.
    Senator Lieberman. So that's important. Excuse me for 
interrupting. But are you talking about technological 
overreach, not financial overreach, for instance?
    General Lennox. I'm probably not experienced enough to talk 
about it in these terms, sir.
    Senator Lieberman. No, but the terms you're talking about 
may be the decisive terms, so.
    General Lennox. I think with how we're addressing that 
though, in particular with the GCV is we're looking 
specifically at technologies that are much more mature.
    Senator Lieberman. Right.
    General Lennox. Looking at much more of an incremental 
rather than revolutionary kind of approach as we deal with the 
GCV, for example.
    Senator Lieberman. In other words, technologies that are 
mature out in the commercial marketplace.
    General Lennox. In many ways, yes, sir.
    Senator Lieberman. General Phillips, do you want to add to 
that?
    General Phillips. Sir, I have just a couple of comments. 
The one program that comes to mind for me is Comanche.
    Senator Lieberman. Right.
    General Phillips. What we did on the Comanche program, I 
think we've learned valid lessons from that. The Army 
essentially put much of its resourcing and strategy and the 
growth of requirements into Comanche. Then we realized that 
somewhere around 2003-2004 we made the Comanche decision and 
decided to reinvest into Army aviation. I think the results of 
that program today have borne great fruit for the Army and also 
for Army aviators and soldiers both in Iraq and Afghanistan.
    We've also learned the lessons from looking at how we grow 
requirements. I believe the Reno study is one of those recent 
ones that has been of great value to the Army. The capability 
portfolio reviews that you and Senator Thune have mentioned 
have also helped us get our hands around requirements and more 
to come on that.
    I'll turn to contracting and acquisition reform real quick. 
Some other members of the panel talk about GCV and acquisition 
reform. We've heard the lessons of Congress and we are 
implementing acquisition reforms within GCV and other programs 
as well and also focusing on contracting and fixing contracting 
within the Army as a result of the Gansler Study.
    Sir, I guess that would leave it with we've heard what you 
and others have said. We've taken those hard lessons and we're 
working hard to apply them.
    Senator Lieberman. So go back to Comanche. I appreciate 
what you said about the resources that were going to be given 
to Comanche being used in other ways that have been effective. 
Was that a budget overreach or was that also a technological 
overreach?
    General Phillips. Sir, from my knowledge on the program at 
that point about 2003 we had about $14 billion, just over in 
the Comanche program.
    Senator Lieberman. Right.
    General Phillips. If you looked at Apache, Black Hawk, 
Kiowa, and other systems, those programs didn't really have the 
funding that they needed to make sure those programs were 
modernized in a way that the Army could benefit from that. So 
the Army, in my opinion, made the right decision. They took the 
$14 billion and they put it back into those programs to include 
about $2 billion into Army survivability equipment which went 
directly into aircraft flying in Iraq and Afghanistan.
    The Army looked at its requirements, holistically, and I 
think made the right decision on the Comanche program to 
reinvest in Army aviation.
    Sir, I hope that answers your question.
    Senator Lieberman. It does.
    Mr. Sullivan, Mr. Duma, from your perspective being outside 
the Army, how do you explain the instability in the Army 
modernization programs and do you think we've learned some 
lessons from it now?
    Mr. Sullivan. I think General Phillips pointed out one 
lesson we learned was when they terminated Comanche and used it 
to upgrade existing systems. I think that was a good use of 
funds. My perspective on the Comanche is it was a technological 
overreach.
    It was a program that started in the late 1980s and was 
finally terminated in the mid-2000s as a result of not being 
able to achieve the requirements they had set. Some of the 
mission equipment package that they were trying to get on the 
Comanche was just not achievable given the space, power, 
cooling, and weight. There were a lot of contradictory 
requirements there.
    Senator Lieberman. From your perspective how are those, I 
call them mistakes made, is it kind of too much optimism at the 
outset? Reaching for too much?
    Mr. Sullivan. I think what we have found consistently over 
15 years of looking at these programs and I would say this now, 
there does seem to be some reason for optimism with the 
acquisition reforms that are in place.
    Senator Lieberman. Right.
    Mr. Sullivan. There seems to be a more serious effort in 
the Pentagon today to try to achieve these. I think everybody 
is feeling the budget crunches these days. But to get back to 
it, I think it is optimistic. You know there's an optimistic 
tone when you want to set requirements for a weapons system.
    Senator Lieberman. Right.
    Mr. Sullivan. That goes back to almost an unhealthy 
competition that goes on to begin weapon systems because in 
order to get a weapon system started, you have to be the best. 
It has to be better than anything else that's going. It has to 
be cheaper than anything else so you tend to come in with very 
low, optimistic cost estimates based on very little knowledge 
since it has to do so much you usually have to tie requirements 
to technologies that, in some cases, haven't even been invented 
yet.
    So, yes, it's due to very optimistic requirements at the 
outset that require technologies that haven't been invented. I 
think part of that goes to all this talk about portfolios. The 
overall portfolio across all three Services for major weapon 
system acquisitions is today not managed very well.
    I think the Secretary of Defense made some big leadership 
decisions and got some attention last year. I think a lot of 
the focus that you've talked about and the generals have talked 
about these portfolio management exercises that are going on 
now are crucial to getting that under control.
    Senator Lieberman. Thanks.
    Mr. Duma, my time is up, but I'd like to hear an answer 
anyway.
    Mr. Duma. I think that the programs that you've described 
were large and complex so when it came under a technological 
problem it rippled through the program. That showed up not only 
in the technological challenge but in a schedule slip and a 
cost overrun. So I think technology readiness drives cost and 
schedule.
    Senator Lieberman. Right.
    Mr. Duma. I also think that once that happens the programs 
get into a reactive mode and the requirements change as a 
result of real world facts of where they are and they become 
reactive and not carrying out a planned out event.
    Senator Lieberman. Ok, those are helpful answers. My time 
is up, but I'm going to come back and ask you about Secretary 
Gates' 80 percent solution idea which seems to respond to some 
of what all four of you said that we should be satisfied with 
an 80 percent solution to a weapons system requirement rather 
than continuing the chase, what I think he called exquisite 
technologies that are costly, and going back to you, General 
Lennox, immature.
    Thank you.
    Senator Thune.
    Senator Thune. Mr. Chairman, if there's no objection I'd 
like to yield my place in the order to Senator Inhofe.
    Senator Lieberman. I'd like to object, but I can't take his 
place. [Laughter.]
    Go ahead.
    Senator Inhofe. I have three very brief questions. Thank 
you very much, Senator Thune.
    First of all, we've heard from a lot of different sources, 
I'd ask the two generals this, that there's a disagreement 
between DOD and the Army about the Army's GCV. Reuters 
specifically said ``U.S. Army Pentagon at odds over new 
vehicle.'' Can you share with us what the disagreement is?
    General Phillips. Sir, I'll answer that. I'm not aware of 
any disagreement. Dr. O'Neil, who is brand new as the Army 
Acquisition Executive has been here for a month or so, and I 
both met with Dr. Carter. I just met with him last week and met 
with Frank Kendall, his right hand, talking about GCV and the 
way ahead.
    I think we're in sync with the Office of the Secretary of 
Defense (OSD). We have had the review back in February where 
they approved through the milestone decision A to go forward 
with the program.
    Senator Inhofe. That's fine. You don't need to explain. I 
just thought there was something you were going to share with 
us there.
    Second, I thought the question that Senator Lieberman was 
going to ask when he started off talking about the platforms, 
the armored gun system, the Comanche, then the Crusader, and 
then FCS, and I've been through this. I can remember so well, 
and certainly this is not a partisan thing because it was 
President Bush that axed the Crusader system, right? Actually 
we were in mark-up when that happened. I didn't know anything 
about it, and I thought that was very bad.
    Then there was the FCS, and we went through that. General 
Shinseki was kind of a driver there, and that was terminated.
    By the way, I heard you use two characterizations, Mr. 
Sullivan. You said restructuring the FCS and modernizing FCS. I 
haven't heard that before. I think that was terminated.
    The question I'd ask any of you who want to answer is, why 
do you think that the GCV won't meet the same fate? What is 
different about this, because we don't want that to happen.
    General Lennox. Senator, I'll try first. I think that the 
different approach is the fact that the technological readiness 
levels of what we think the GCV will look like is much more 
mature than the manned ground vehicle and some of the other 
things we and the other panel members have talked about. So I 
think we're farther along technologically so we won't run into 
surprises or as many surprises that would cost overruns and 
delays.
    I think additionally the approach that the acquisition team 
is taking--I'll let General Phillips talk more specifically 
about it but the prototyping, the multiple vendors involved, I 
think that will keep us both innovative and on the right track. 
So I'll pass this over to General Phillips.
    General Phillips. Sir, just a couple comments I would add 
to that.
    Number one, we have learned from FCS and we've taken a 
number of FCS technologies and we've offered that them to 
industry. We're not asking the industry to really go off and 
invent something. In the case of armor solutions that we might 
put on a GCV we're offering what the Army and our research 
scientists have already developed to be able to put into that 
solution.
    Sir, we've listened to acquisition reform as well. You've 
heard the panel talk about the strategy going forward for the 
GCV. It's in line with weapons system acquisition reform. I 
think it gives the Army the greatest opportunity to execute 
this program and deliver in 2017.
    Senator Inhofe. Ok. I didn't mean that critically when I 
said that. It was just an observation because I hadn't heard 
that characterization before.
    The last thing I wanted to ask about is having to do with 
something that we're all familiar with or those of us who spend 
some time in the field and in some of the depots and that has 
to do with the vehicles left behind, the reset program. I know 
it's created some home station training problems. I think 
there's $10.8 billion in this budget. I think it was around $8 
billion last year.
    Do you think that's adequate?
    Number two, do you want to say anything at all about the 
reset problems that are out there?
    General Lennox. First of all, I think the funding that we 
have is adequate for the reset program. The depots and our Army 
Materiel Commander have done a remarkable job at meeting the 
demand to reset vehicles as they come back from combat. I think 
we're in a period of time here where we're going to be 
challenged.
    Quite frankly I think it has to do with the ramp-up in 
Afghanistan while we're waiting for things to ramp down in 
Iraq. So they'll be a little bit of a period of time that we'll 
probably have a bubble at some of our depots and some of the 
capability getting the equipment through. I think that will 
have a short-term impact on home station training, for example.
    Senator Inhofe. Thank you very much, and thank you, Senator 
Thune.
    Senator Lieberman. Thank you, Senator Inhofe. Thanks for 
your questions.
    Next is Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman. I have a 
couple of questions.
    I'm not sure you can answer this, but I want to put it on 
the record and if you can answer it that would be great. I sent 
a letter to Secretary Gates back on March 8. It was regarding 
the adding of two combat aviation brigades and the status of 
that. What is going to happen?
    That's going to be made up of some assets inside Alaska as 
well as the lower 48 States, obviously that concerns me a great 
deal of what will happen with those assets. How will Alaska be 
treated with the two combat aviation brigades and what impact 
that will have on Alaska? Can you give me any update on what's 
happening or not happening?
    Then to be very, very parochial, what are you doing to 
Alaska?
    General Lennox. Those are great concerns, Senator. We 
acknowledge that. The final decision hasn't been made 
specifically about the 12th combat aviation brigade, where the 
flag will be. But believe me the concerns of the soldiers and 
the needs in Alaska are a big part of that decision.
    We have to make sure that we have the right kind of 
aviation there to conduct training to respond to the Governor 
and the Homeland Defense needs in the State. I think when the 
final decision is made, you'll see that those concerns were 
addressed.
    Senator Begich. I appreciate that. I know there are some 
impacts and we recognize the restructuring that's going on and 
the efforts. But you know better than I do the important 
strategic component of the position of where Alaska is and some 
of its assets especially up in the Fairbanks region, Fort 
Wainwright area.
    As you move forward, we want to be kept well in tune to 
what's going on, but also the timetable is, to us, important to 
understand that. But it seems every time I hear about this 
there's always no decision yet which to be very frank, makes me 
nervous. Because then someday I might be in some meeting and 
the decision is made, and I don't know about it, so if you 
could keep us well informed.
    I understand through your own documents and work that the 
importance has been laid out of the strategic location of 
Alaska with these units. I just want to make sure that's all 
part of the equation when finally decided.
    General Lennox. Senator, I can assure you that that is 
absolutely part of the equation, that and the fact that we have 
to get the soldiers there that are deploying trained and ready 
and integrated with aviation. It's all part of the factors.
    Senator Begich. Excellent. We really haven't talked about 
this yet, on the industrial base of what we're doing and what 
we're not doing in certain components to support the military 
mission. Last year, Congress provided to the Secretary of 
Defense the authority to expand a small arms production 
industrial base.
    Can you give me just any update of what's happening, and 
what's not happening there? My issue is that it's for 
everything from small arms to large facilities. As we're 
constantly restructuring and we have financial constraints, 
what are we doing to make sure the industrial base is still 
strong enough to support that which we need to do in a 
competitive nature?
    Can you respond to this? Specifically on the small arms 
end, if you want to expand and be broader that's fine with me.
    General Lennox. I'll start, Senator. In the area in 
particular for us and force a critical concern the way ahead. 
I'm sure you're familiar with the fact that we're taking a two-
prong approach to addressing the M-4.
    Senator Begich. Right.
    General Lennox. That's both incrementally improving the 
capability we have today and then we're going to compete a new 
requirement for a carbine in the future. As with almost every 
other area we do, the industrial base is a concern, especially 
in these kind of key capabilities. So I think that will be a 
factor in the decision.
    General Phillips. Sir, I agree. I would only add a couple 
of things. A healthy industrial base within the United States 
is incredibly important because without that I don't think we 
would be able to provide that world class equipment to our 
soldiers that are serving in Iraq and Afghanistan in 
particular.
    General Lennox just hit the nail on the head. The M-4 and 
the industrial bases for small arms are incredibly important. I 
would add munitions to that as well.
    Senator Begich. That's a good point.
    General Phillips. Because without the munitions and the 
industrial base that supports that we wouldn't have the 
ammunition that our soldiers and servicemembers need in the 
field. We're going to work hard to sustain and to keep that 
capability for our Nation and for our servicemembers.
    Senator Begich. Will there be an opportunity, I don't know 
if it's through your office or even from GAO, is there some 
process that you'll be able to report back to this subcommittee 
on where you are and if you're having success to maintain that? 
Because again this is something you just can't turn on a dime 
and turn it back on. If it's starting to degrade or diminish it 
becomes a bigger problem down the road.
    Is there a process you have implemented or will you 
implement to keep us informed on how you're moving forward? 
Maybe I just asked for that process, I'm not sure.
    General Phillips. Yes, sir. I would answer like this. We 
team with the Defense Contract Management Agency who sustains 
or has the ability to look at the industrial base.
    Senator Begich. Ok.
    General Phillips. To come back to DOD, because they serve 
under DOD and then eventually, I would assume, report to 
Congress on the health of that industrial base. Working through 
our Defense Contract Management Agency partners, I think we 
could, as we see gaps in the industrial base, come back and 
make sure that Congress and DOD are aware of that.
    Senator Begich. That would be great. I appreciate that. 
Does GAO do any kind of analysis on industrial base? I'm just 
curious.
    Mr. Sullivan. We have some teams that look at things like 
that. We don't have any one looking at this particular thing, 
but it's something we can talk to your staff about.
    Senator Begich. Ok, that would be great. Thank you. Thank 
you very much.
    Thank you very much for your ability to comment on these 
questions. Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Begich.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. Gentlemen, the Army 
is developing a suite of systems for the infantry including a 
robot, a UAV, digital radios, and wireless sensors that are 
collectively called increment 1. Mr. Duma, in your written 
testimony you state that the liability desired for increment 1 
is not achievable by the time of the operational test without 
an extensive redesign. I'd be interested in knowing, General 
Lennox and General Phillips, do you agree or disagree with this 
assessment?
    General Lennox. Senator Thune, we've looked at this 
extensively too. First of all we agree completely with the 
assessment that's been done. This is an assessment of the test 
that the Army had set up last September. We put the equipment 
in the hands of some soldiers hopeful to find these kinds of 
things: Can they shake out? Do they meet requirements? In this 
case, many of them failed and they failed in a variety of 
different ways.
    The minute that test was over the PM started to work on a 
path that had improved the systems. I'll let General Phillips 
talk to you about some of those specifics. But we're starting 
to see the improvements show up.
    For example, during last year's test, we used a pre-
engineering design model radio, the GMR. Now the engineering 
design model radio is being fielded to soldiers at Fort Bliss.
    There were problems with the robot. You throw it through a 
window and the robot would break. The robot has now been 
replaced with titanium in certain parts of it. It's much more 
durable.
    I think what we're asking for is the patience to test this 
again. It's in the hands of soldiers. They're the ones that 
will tell us whether or not this works or not.
    When we talked to the brigade commander, he said we would 
take two of the systems today. If we're going to war today, 
we'd take the Class 1 UAV, the hovering vertical UAV and we'd 
take that small robot. The other ones, we'd like to see some 
more work done.
    I think what we're asking for is the patience to let us 
keep that in the hands of soldiers. Keep working along our time 
and the trust and confidence that we won't do the wrong thing 
if it doesn't measure up; just like the other systems that 
didn't measure up. We won't put any soldiers in jeopardy by 
putting this in their hands.
    We think the risk of putting soldiers in jeopardy is very, 
very low by continuing this process.
    Senator Thune. General Phillips, do you see the Army 
redesigning any of the systems in that increment?
    General Phillips. Sir, that's certainly the potential. But 
I'd like to just reiterate, sir. We totally agree with GAO and 
DOT&E. We've taken the results of the limited user test in 
September 2009 and learned from those lessons. We have 100 
percent of the reliability issues that came out of that Limited 
User Test (LUT) and we're implementing them in fixes.
    I would just add that about 10 days ago I went out to Fort 
Bliss with the Vice Chief of Staff for the Army, General 
Chiarelli. He and I sat and watched soldiers using the systems. 
The Class 1 UAV in particular we saw one soldier that had flown 
over 100 flight hours with the Class 1 system and said he would 
take it in the theater today.
    So, sir, I would simply say the Army has taken this very 
seriously. I'll reiterate what General Casey said, ``We're not 
going to field one system that is not effective for our 
soldiers in theater. If it doesn't meet the mission, sir, we're 
not going to field it. It means that we go out and find 
something different, then we'll go out and seek the right 
solution to give our soldiers the right capabilities.''
    So, sir, I agree with your question.
    Senator Thune. Mr. Sullivan, in your written testimony you 
indicated that increment 1 may not meet the most important 
justification for its acquisition. You seem to doubt that it 
will meet warfighter needs. I would ask you if you could 
elaborate on some of those concerns.
    Mr. Sullivan. Yes, I think one of the things that we look 
at is they just went through acquisition reform and 
reestablished a lot of really good policies for establishing a 
business case for the warfighter which really includes that 
that's at a time when you go and you meet with your customer. 
You say, ``how many do you need and when do you need them?'' 
That usually happens at milestone B before you start 
development.
    It's a solid business case that's based on knowledge. Where 
the Army is right now on increment 1 is they're at milestone C 
which is really entering in the production much later than when 
that business case should be set. What you have now is a 
loosening of the policy, so to speak, to say the business case 
is this. We have a certain amount of money. We're far along on 
some of these, not on all. But we will deliver you what we can 
get to you.
    The business case was we're going to deliver all these 
things within a certain period of time. If the warfighter 
understands that all those things aren't going to be delivered, 
I guess that's ok. But it wasn't the deal that was made 
originally according to policy.
    So I guess our take on it right now is they're not 
following the tenants of their basic policies on increment 1 
specifically at this point.
    Senator Thune. Do either one of you gentlemen want to 
respond to that?
    General Phillips. Sir, I would simply say that once again 
we're not going to field something that's not ready. If one of 
those increments, like the unmanned ground sensors, isn't ready 
then we're not going to ask to take that and field that to our 
soldiers. We're going to look for the right solutions.
    Sir, I would also add that we just started the third year 
of a 4-year test. We've done limited user tests last year. We 
learned a lot from that. GAO and DOT&E have helped us 
understand that better.
    We're implementing those fixes. The technical test is 
ongoing right now out at Fort Bliss. We will do another limited 
user test in the August/September timeframe. We will learn from 
that as we drive toward another milestone decision to buy more 
of these increments.
    So, we're still going through the test-fix-test scenario to 
make sure that we can get these systems right to include the 
network that General Lennox described as being so important to 
the sensors and for situational awareness. Again, we're not 
going to field something that's not ready.
    Senator Thune. One element of the Army modernization is the 
NLOS launch system referred to informally as rockets-in-a-box. 
The Army briefing document suggests the cost of each of these 
launch systems during low rate, initial production (LRIP) will 
be about $466,000. General Phillips and General Lennox, could 
you have concerns about the affordability of this system?
    General Lennox. Senator, the short answer is: yes. It's 
very expensive. It's part of our capability portfolio reviews 
right now. We're looking at it in light of the limited user 
test where it failed to hit four times out of six.
    So we're taking it very seriously. We're looking at the 
cost and benefit of it right now.
    Senator Thune. Is the Army considering other technologies 
as alternatives to that? There are some other ones, I'm told, 
Excalibur artillery rounds, guided Multiple Launch Rocket 
System rockets that also deliver precision munitions. Are those 
things that would be alternatives or options?
    General Lennox. That's exactly the purpose of the portfolio 
review, sir. We're going through and saying, ``What gap does 
this fill?'' Then we're looking at the cost of it and looking 
at the benefit for soldiers. That's exactly the process we're 
going through.
    Senator Thune. My time is up, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Thune.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman. I think it was 
General Phillips in your opening statement, in response to a 
question, you mentioned that we needed a healthy industrial 
base as well as a healthy munitions base. I think those are 
extremely important and not only for our Nation, but certainly 
for our servicemembers. So I appreciate those comments.
    We are also discussing how in April of last year Secretary 
Gates directed the Army to cancel the vehicle component of the 
FCS program, reevaluate the requirements for technology and 
approach, and then relaunch the Army's vehicle modernization 
program. General Phillips, I was wondering as part of the 
Army's next-generation infantry fighting vehicle development, 
has consideration been given to the inclusion of fuel-
efficient, hybrid-engine technology in an effort to reduce the 
petroleum demands when we're operating in these other 
environments?
    General Phillips. Yes, ma'am, great question. That is a key 
concern for that program, but also for the Army as a whole. 
When you look at Afghanistan and Iraq and the fuel requirements 
that it takes to support our Armed Forces and in this vehicle 
in particular we have a key performance parameter (KPP) that is 
associated with energy efficiency.
    So how can we drive efficiency inside the vehicle to get 
the greatest mileage per ton for the fuel that it will use? 
We're asking industry to take a look at that and propose 
innovative solutions to drive fuel efficiency inside the 
program.
    Ma'am, the Joint Light Tactical Vehicle (JLTV) has a 
similar requirement, not a KPP, but it has a requirement for 
fuel efficiency. It's called tons per mile. For that system in 
particular, which is still going through technology 
development, we are working with industry partners, to be able 
to put energy efficiency inside that vehicle, because I think 
that's going to be important to the Army in the future.
    With our Army Materiel Command partners, General Dunwoody, 
underneath materiel enterprise, we do look at our industrial 
base very strongly. That should have been a part of my answer 
earlier as well.
    Senator Hagan. When you were talking about the KPP and the 
vehicle, what's been done so far? Are you seeing any progress 
at this point? Is anything out there that needs to be tested?
    General Phillips. Ma'am, under GCV we have not gotten any 
feedback from industry. The request for proposal is still on 
the street. We expect industry to come back to us at the end of 
this month with some of those answers.
    The source selection process for the JLTV, it's really a 
good news story. The threshold requirement is 60 tons per mile. 
That sounds like a strange requirement, but that's tons per 
mile depending on how big the vehicle might be. Industry has 
shown already with variance we can achieve beyond even the 
objective requirement around 76 tons per mile.
    So we think that we have an opportunity to increase the 
energy efficiency of our vehicles.
    Senator Hagan. Along those same lines when we're talking 
about energy efficiency, how about mobile alternative power 
systems? As the Army moves forward with its modernization 
program it's apparent that the proliferation of electronic 
equipment that you've been talking about, communication 
systems, and robotic platforms increases the Army's reliance 
upon deployable power systems. My question is what research and 
development programs and initiatives are included as part of 
the Army's modernization program that will address an 
increasing reliance upon petroleum fuel supplies?
    General Lennox. We're looking at each other to see who 
could do a better job at answering that, Senator.
    Senator Hagan. You got it.
    General Lennox. I'm not sure either of us will be that 
good. We may have to take this for the record, if my answer 
doesn't apply. It's very critical and we're looking at it in a 
number of different ways.
    For the GCV, for example, it's very, very important that we 
build the capability for growth. It seems like we never get 
less power or we never end up with extra power on a vehicle. We 
always seem to grow and expand to absorb all the capability of 
that vehicle and then more. We're in that condition of a number 
of different vehicles.
    We're also looking at systems that can reduce the demand on 
the vehicle using a network integration kit that we have it 
four-plus now in a very preliminary fashion. But later on, 
hopefully that will help us reduce routers and reduce 
interfaces and things like that. So with industry's help we 
might be able to reduce the demand on the given vehicle today.
    Now I don't think that gets to your answer on the mobile 
capabilities unless you have something?
    General Phillips. Ma'am, I just have one other area to add 
and that would be in soldiers. When we look at soldiers and 
what weight they carry is important. For mobile power and 
batteries that our soldiers are carrying on the equipment and 
the systems, we are looking for industry.
    I know we're looking at that. I don't have any specific 
answers for you today. We'll get back with you. But we're 
looking at ways to reduce the amount of pounds that soldiers 
carry and a piece of that is batteries to power the systems on 
the soldier.
    [The information previously referred to follows:]

    Managing energy supply and demand is critical to sustaining Army 
readiness. Recognizing this challenge, the Army's science and 
technology community is actively researching a broad range of 
technologies to improve energy efficiencies, reduce energy demand, and 
provide alternative or renewable energy sources. Our goal is to reduce 
the risks associated with energy supply and demand while maintaining 
needed operational capabilities.
    Ongoing efforts include the development of light-weight structural 
materials, armor, and composites. These efforts not only reduce the 
overall vehicle weight, but they also result in better fuel efficiency 
and allow for more technologies to be incorporated. These incorporated 
technologies can include high efficiency energy storage, efficient 
motors, exportable power, reliable power, and thermal management system 
for ultimate application in hybrid vehicles. The Army is also 
evaluating a number of currently fielded engines for their ability to 
perform in an operational environment while using alternative fuels. 
While these fuels alone are not expected to increase the vehicles fuel 
efficiency, their widespread use could reduce the Army's overall 
dependence on petroleum.
    Additionally, the Army currently has applied research programs 
leveraging fuel cell technology for both ground vehicle and soldier 
applications. Fuel cell research programs in ground vehicle 
applications include JP-8 reformation for a hydrogen rich fuel source 
and fuel cell component development and integration. Research in fuel 
cell technology for soldier power includes systems based on proton 
exchange membranes, solid oxide, direct methanol, and reformed methanol 
technologies.
    The Army is investing in promising basic research in a number of 
fundamental technology areas that may result in increased fuel 
efficiencies. This research is in areas such as the conversion of 
cellulosic materials into hydrocarbons, understanding the chemical 
kinetics of hydrocarbon combustion, spray and combustion diagnostics, 
and new hydrocarbon spray methodologies. These basic research 
investments have the potential to enable the use of alternative fuels 
and ultimately improve gas mileage.
    In addition to work related to fuel efficiency, the Army also has 
investments in both solar power and battery technologies. Solar 
technology investments include work on solar array efficiency (to get 
increased power output) and light weight and flexible materials to 
build solar arrays that are easier for soldiers to carry. Battery 
research is focused on new chemistries, materials, and designs to 
extend operational temperature ranges, improve recharge rates, and 
increase the number of recharge cycles.

    Senator Hagan. I just got back from Afghanistan, Iraq, and 
Pakistan while we were over there. They certainly do carry 
quite a bit.
    The Stryker vehicle has a planned procurement of nearly 
4,000 vehicles with, I understand, probably about 80 percent of 
those vehicles having been delivered by January of this year. 
Reports indicate that the newly designed double-V hull being 
integrated into the current vehicle platform has the potential 
to provide MRAP-level protection against the improvised 
explosive devices.
    General Phillips, can the existing fleet of Stryker 
vehicles be retrofitted with the double-V hull? If you think 
that's a good idea, what's the projected cost associated with 
refurbishing the fleet? Are there plans underway to execute 
this upgrade?
    While I was in Afghanistan we actually had the opportunity 
to go in a Stryker, go to a forward-operating base and actually 
go out with the soldiers. It was very interesting for me.
    General Phillips. Ma'am, great question. I would start to 
answer this way. There's been 12 rotations of Stryker to Iraq 
and Afghanistan and they put over 24,000 miles on those 
vehicles. It is an extraordinary capability that helps our 
soldiers in their BCT.
    I hope I answer your question correctly. We cannot take the 
current Stryker vehicle and retrofit it with a double-V hull. 
It is a brand new hull.
    As we build this vehicle, it will come off the production 
line from our industry partner as a brand new hull. Then we can 
put the equipment back on it, much of that will be currently in 
existence. We're optimistic about what that hull might do to 
provide added protection for our soldiers. But before we invest 
in the production dollars in a significant way, we want to make 
sure that we work with our DOT&E partners and our test 
community to understand what level of protection it does 
provide.
    Our initial simulation and some shots that we've done 
already with the basic hull gives us a certain level of 
confidence that it will protect us up to an MRAP-like 
capability. But the test that we will conduct with U.S. Army 
Test and Evaluation Command, our test community, and DOT&E will 
inform us that it does provide this level of protection up to 
MRAP, potentially higher, potentially lower. We'll be very 
disciplined as we make that decision, ma'am.
    Senator Hagan. My time is up. Thank you.
    Senator Lieberman. Thanks very much, Senator Hagan. Good 
questions. We'll do a second round of 5 minutes each as the 
members want to stay.
    Mr. Sullivan, I want to draw you out a little bit on your 
feelings about the increased risk that you believe result from 
the Army's decision to go with the LRIP of the EIBCT, increment 
1 at this point. Talk a little bit more about what your 
specific concerns are. Then I'm going to ask the Army to 
respond.
    Mr. Sullivan. The concerns that we look at have to do with 
following the rules. One of them is, when you have a business 
case that establishes a set delivery time and number of 
quantities of things to deliver and you're spending money that 
has been budgeted to do that, $682 million will be budgeted 
this year.
    Senator Lieberman. Right.
    Mr. Sullivan. To accomplish increment 1, you're basically 
spending money on all of these things you may not be able to 
deliver. If the warfighter needs the capability and that has 
been established then that's the deal more or less. This is a 
case where these are spin-outs.
    Senator Lieberman. Right.
    Mr. Sullivan. From a program that had a lot going on. I 
don't know how much the warfighter has weighed in since they 
terminated FCS and started this up. But that's the thing, the 
warfighter is expecting increment 1 brigade equipment that is 
the six or seven things that they've outlined here and they may 
not get them. So there's risk there.
    Senator Lieberman. Is the concern you have about the fact 
that we're putting a lot of money in, and the systems are not 
going to be able to be delivered on time, ready on time, or are 
not going to be able to be purchasable on time, or is it that 
they are going to arrive and they're not going to be up to what 
the warfighter needs?
    Mr. Sullivan. I think both of those things.
    Senator Lieberman. Both.
    Mr. Sullivan. I think there's risk. There's risk that 
you're losing the bang for the buck.
    Senator Lieberman. Right.
    Mr. Sullivan. You're investing a set amount of money, and 
you may not get what you asked for in the end. Therefore, it 
becomes more expensive. The reliability testing that they did 
most recently showed that some of these may not be deliverable.
    I don't know. There's still too much risk in knowing 
whether they'll ever be deliverable. I think that they've now 
done a technology readiness assessment on the components in 
increment 1 that the program had set at somewhere around a TRL-
6 or -7 which means ready to go.
    Senator Lieberman. Right.
    Mr. Sullivan. The science and technology community went in 
and looked at that and they reset some of those technology 
maturities at TRL-4 which means still being invented.
    Senator Lieberman. So what would you do if you were 
Secretary of the Army today with this program?
    Mr. Sullivan. I would probably establish a business case 
based on the knowledge of what I could deliver today.
    I would ask the warfighter if that were acceptable; if 
there's an urgent need.
    Senator Lieberman. Right.
    Mr. Sullivan. If we can deliver it, we'll get it to you.
    Senator Lieberman. So in other words, you'd acquire fewer 
now because you don't have that full confidence.
    Mr. Sullivan. Yes. I think right now you could set a 
business case for what you know you'll be able to deliver and 
spend money on that.
    Senator Lieberman. General Phillips or General Lennox, why 
don't you respond?
    General Phillips. Sir, I'll start first and then let 
General Lennox weigh in. I want to assure you and the 
subcommittee that we are following the Federal Acquisition 
Regulations (FAR). It's a FAR-based contract.
    The oversight of the EIBCTs is from the Assistant Secretary 
of Defense, Acquisition, Logistics, and Technology, Dr. Carter. 
He has provided us the authority today for one brigade set. 
That's what we're buying to make sure that we can do the 
testing and determine what the reliability standards are.
    We haven't gone through an IOT&E yet. We still have that to 
do with one more limited user test as we drive toward that 
decision point. So I think the Army's position is this is a key 
part of our modernization strategy.
    Senator Lieberman. Right.
    General Phillips. I would just add that it's important for 
the EIBCT and Bill Phillips, speaking from my time being in 
acquisition, this is a great opportunity for the Army to really 
provide the EIBCT a significant capability over what they have 
today.
    A network sensor capability that provides soldiers all the 
way up to the brigade commander the ability to see the 
battlefield, to have true situational awareness and to increase 
their combat capability. But, sir, I assure you that I believe 
we're following the rules as set out by Dr. Carter, OSD, and 
others.
    Senator Lieberman. Go ahead, General.
    General Lennox. Sir, I just wanted to address the concern 
about, have the warfighters asked for this?
    When the FCS program was terminated last spring, we asked 
the Training and Doctrine Command to do an assessment based on 
lessons learned in combat. What kinds of capabilities we ought 
to put in these capability packages? They undertook that study 
over last summer.
    They presented to us in the fall a series of items that 
they thought were both beneficial and technologically mature 
enough to be spun out to the EIBCTs. That was our basis. But, 
the best way I think to determine that these systems are ready 
is putting them in hands of soldiers and letting them play with 
this kind of equipment, evaluate it, and tell us what works and 
what doesn't work in a series of tests and let them help us 
make the decision.
    As we mentioned earlier, two systems in particular they 
said they'd take to war today, the Class 1 UAV and the small 
robot. With the improvements they may choose other ones, but I 
think we've learned as a result of this process whether or not 
these are really valued by soldiers.
    Senator Lieberman. That's a really interesting answer 
because in a way it's a variant on Secretary Gates' 80 percent 
solution. I don't know whether part of the problem here is that 
the Army wanted 100 percent and maybe should have settled for 
80 percent. But I think you're saying you have confidence, 
General Lennox, that these systems are good enough that if you 
put them in the field the warfighter will tell the manufacturer 
essentially how to make them good enough to meet their needs.
    General Lennox. Put them in the field for test purposes, 
Senator. Not in combat yet.
    Senator Lieberman. Right.
    General Lennox. They're not ready for that.
    But allow us to mature them in the hands of soldiers and 
find out if they are or not. They'll sink or swim on their own.
    Senator Lieberman. Right, thank you.
    Mr. Sullivan. Senator, if I could, just to follow up on 
that.
    Senator Lieberman. Please.
    Mr. Sullivan. I think that's a good strategy during 
development, but they are in procurement with these now.
    I think that's the risk that we're talking about is they're 
spending dollars to procure the items when they're still trying 
to understand the growth of the reliability.
    Senator Lieberman. Yes, understood. I know, Mr. Duma, the 
DOT&E did not agree that increment 1 provided an increased 
operational capability. Am I right?
    Mr. Duma. That was very difficult to determine because the 
LUT that occurred last September was a company and scout 
platoon level LUT. That was a small scale test. The LUT that we 
are going to do this September will involve two companies and a 
scout platoon so you will see comparisons able to be made on 
the distances that are operationally realistic that we could 
not look at in the initial LUT.
    For instance, the communications distances that we looked 
at were small and the soldiers were able to do things with the 
equipment that they won't be able to do in the LUT in September 
because it's more realistic to what they'll find in theater. So 
there are some comparisons that we will be able to make in this 
summer's LUT that we were unable to do there. So to say that 
shows a measureable improvement over what we have, that was not 
available to be determined last year. It will be part of the 
assessment this summer.
    Senator Lieberman. Thank you.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Duma, I want to come back to the Stryker for just a 
moment. The industry claims to have already conducted its own 
testing on this double-V hull. My question is, did that testing 
provide sufficient data, in your judgment, for the Army to make 
a decision about production?
    Mr. Duma. Certainly not for production. I'm not aware of 
what that data looks like personally. However, industry often 
does things under research and development in their own 
companies and proposes something to the military. That's a 
typical way to approach and provide a technological upgrade to 
the system.
    That's exactly where the Army is right now in my opinion. 
There's a theory that this is going to help. That needs to be 
verified. That's exactly the case that the Army is in right now 
to procure some vehicles with the double-V hull protection and 
then to evaluate the performance through Army testing.
    Senator Thune. General, do you want to add to that?
    General Phillips. We agree. We have not asked for 
production. But we have asked for long lead items associated 
with production. We've asked for a number of vehicles to go out 
to procure in order to do the testing that was just described.
    If it does not provide the protection that we think it will 
for our soldiers that are going into battle, we don't want to 
procure this vehicle. The testing that we'll do in the next 
several months will answer that question, sir.
    Senator Thune. If that testing is successful, will all the 
future Strykers have it?
    General Lennox. Senator, our plan is to build one brigade 
aimed at Afghanistan. Put that brigade in theater-provided 
equipment and then rotate, and have enough equipment for 
soldiers to train on back here and then rotate in on that one 
brigade set of equipment as of right now. Because as General 
Phillips mentioned, this is a complete new build. It's not 
something that you retroactively fit to our existing Strykers.
    Senator Thune. Right.
    General Lennox. It will be something that we're going to 
have to make our decision on in the future.
    If I could go back to one of the testing comments. Our key 
concern is for those soldiers in Afghanistan today and getting 
the right amount of testing to make sure we're not harming 
soldiers in any way, but at the same time not testing until 
every question is answered so that you can get it in the hands 
of those soldiers. Our goal is to put it in the hands of the 
soldiers that will be rotating in during the summer of 2011.
    There's going to have to be some really good planning and 
team work here between the testing community to have the 
equipment in the hands of soldiers so they can train with it 
sufficiently; maybe go through evaluations before they deploy.
    Senator Thune. Ok. I think everybody probably on the panel 
today is aware that body armor is one of the most closely 
watched budget items on Capitol Hill. The Army's interceptor 
system has been thoroughly tested and upgraded and has saved 
countless lives I think to the credit of the program officer, 
Brigadier General Fuller and DOT&E for their good work which 
has ensured that the best products have been delivered to our 
troops.
    The question I have has to do with section 141 of the 2010 
NDAA, which requires that body armor be budgeted for in 
discreet research and procurement accounts so that Congress can 
ensure that sufficient resources are being put toward improving 
body armor. That being said, the President's 2011 budget 
request contains funding for body armor in a lump sum 
operations and maintenance account which effectively limits the 
ability of Congress to conduct oversight. Are we reading that 
2011 budget material correctly, and could you explain or add 
some perspective to that?
    General Lennox. Yes, Senator. We took the direction very 
clearly that we need to do that. That came out after the Army 
had finished their program for 2011. We submitted our program 
to OSD in the June/July timeframe last year. The law came out 
afterward.
    We're taking that very seriously. I think you'll see that 
in the submission for 2012.
    Senator Thune. Ok. Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Thune.
    Senator Begich.
    Senator Begich. My understanding is that the Army has 
received, at least from the 1/25 Stryker brigade in Alaska, an 
urgent operation need for the Land Warrior or some additional 
equipment.
    If you could give me an update on what's happening with the 
Land Warrior and the Ground Soldier System, where we are in 
this transition or not transitioning. We have folks that are 
going to be deployed in June who are now nervous a little bit. 
So help me understand where we are.
    General Lennox. Thank you, Senator. The Land Warrior system 
is a program that was killed several years ago.
    Senator Begich. Correct.
    General Lennox. Because of operational needs statements, we 
fielded it with several brigades and the intent really is to 
assess it and see how it informs our program of record, the 
Ground Soldier System. We have fielded it with a number of 
units.
    I'll take that for the record, what the status is for the 
brigade that's in Alaska right now. I believe it's getting 
fielded with a retrofitted set, not a complete brand new one. 
Frankly, we've probably bought all the Land Warrior systems 
that we need today in order to assess it and give us guidance 
for the future as of this time.
    Senator Begich. I would like to get, for the record, what's 
going to happen. They're planning to deploy in June of this 
year. So, if you could get that, that would be fantastic.
    [The information referred to follows:]

    The Army's objective for fielding materiel solutions in support of 
Operational Needs Statements is to get the equipment to units in 
sufficient time to train first with it a home station before 
deployment. Headquarters, Department of the Army (HQDA), has not 
formally received a Land Warrior Operational Needs Statement from 1/25 
Stryker Brigade Combat Team. We understand that the request is 
currently being reviewed by U.S. Army Central Command. If approved, it 
would then be forwarded to HQDA for validation of the requirement. 
Approval of this requirement is projected to occur in approximately 90 
days.
    Specific units have not yet been identified for the Ground Soldier 
System fielding beginning in fiscal year 2012.

    Senator Begich. Mr. Chairman, that's all I really have 
except one general question. It seems like as we've walked 
through today there's been some good discussion on some of the 
systems that have gone through testing as well as some that 
have had some problems in the testing process. What do you do 
in the organizational structure when you have a system that has 
had cost overruns or questionable testing that's not working as 
well as you thought?
    What happens to the people who are managing those programs 
that are under your command or whose ever command? I know in 
the private sector what would happen, but tell me how it works 
in your system?
    General Phillips. The first thing that we would do is do 
the forensics on the program itself. We would probably bring in 
a team to take a look at why that program is in the status that 
it is today. We have a number of venues where we continue to 
look at programs, Army systems acquisition review councils.
    We have milestone decision sessions with OSD Acquisition, 
Technology, and Logistics and we have configuration steering 
boards. Much of that comes out of the WSARA that we do today. 
We have capability portfolio reviews that continue to look at 
the performance of our programs. It relates to three areas: 
cost, schedule, and performance.
    We have to do the forensics to figure out what happened 
because the individual that's in charge of that program, it may 
have been completely out of their control. It may have been 
something related to technology that never could have been 
developed. So the system was never able to reach its milestone.
    So it's difficult to say what would happen to the people 
inside the program. They may be managing that program to the 
best extent that they possibly could. They were not able to 
execute the program.
    I would also argue that part of the paradigm that we need 
to look at inside the Army is some of the most successful 
people that are program managers are those that are managing 
the most challenging programs that may have cost, schedule, and 
performance issues. I'm going to work on my time in the Army as 
a part of acquisition reform. How do we manage that inside our 
Army related to those three things--cost, schedule, and 
performance--and how are our people inside our programs 
executing along that strategy.
    I hope that answers your question.
    Senator Begich. It does in general. Do you feel if you see 
personnel needs, that is, needs in the sense of change, that 
the support is there within the system to do that in a rapid 
pace?
    An example I give only because every time I come to this 
room we're dealing with Airland and some other things, and F35s 
was Tuesday. That was a dramatic change in personnel in order 
to move forward.
    I want to hear from you that when it's necessary to make 
those changes you can do them and you get the support to do it 
because if you don't make those changes it just perpetuates the 
problem into the future if it's a personnel issue.
    General Phillips. Sir, very good question. I want to say 
this before I answer your question. There are extraordinary 
people that are managing our programs. Our acquisition 
workforce I would put up against anybody in any Service because 
they are doing extraordinary work. I've been a part of this 
acquisition work since 1985, and I'm proud to lead them.
    To answer your question, we have made changes and when it 
is quite evident that we have people that aren't executing 
their programs, and I won't give examples.
    Senator Begich. No, I'm not asking that.
    General Phillips. But I've been in the job for 75 days and 
we have made a number of changes in personnel related to 
program execution. We take that very seriously because that's 
our contract with the Army and with our soldiers to deliver 
that equipment.
    Senator Begich. Very good. Thank you very much. Thank you, 
Mr. Chairman.
    Senator Lieberman. Thank you, Senator Begich. Thanks for 
bringing up the Land Warrior program. I'm proud to say that I 
believe it was this subcommittee that brought the program back 
from the dead. We really believed in it in a totally bipartisan 
basis. I'm glad you're using it and continuing to test its 
utility. It's really a remarkable combination of capabilities 
for the individual soldier.
    Thanks to all of you. It's been a very useful hearing. I 
appreciate the dialogue between you in good spirit, maybe you 
set an example for the Senators here. You can disagree without 
having partisan attacks against one another. [Laughter.]
    The record of this hearing shall be held open until 
Tuesday, April 20, at 5 p.m., to allow Senators to submit 
additional statements or questions for our witnesses.
    I would ask our witnesses to respond in as timely a way as 
they can, about a month from now maybe a little bit more. I 
know that Chairman Levin and Senator McCain intend to go to 
full committee markup, so the sooner the better.
    Senator Thune.
    Senator Thune. Mr. Chairman, I think that Senator Begich, 
in a very diplomatic way, was asking if anybody ever gets 
fired. [Laughter.]
    But thank you all very much for being here today.
    Senator Lieberman. Thank you. The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Roland W. Burris
                          acquisition process
    1. Senator Burris. Lieutenant General Lennox, Lieutenant General 
Phillips, and Mr. Duma, the Secretary of Defense has stated that the 
Department of Defense's (DOD) acquisition goal is to ``get the 
acquisition right, even at the cost of delay.'' However, the Army has 
made a decision to proceed with low-level production of increment 1 
systems that are not ready, in the name of getting equipment to the 
warfighter quickly. It appears that equipping policy goals and your 
acquisition policy goals are not aligned. Have you or do you plan to 
revise your policies, regulations, or priorities to better align them 
within the Army and with those of DOD?
    General Lennox and General Phillips. The Army and DOD policies 
concerning equipping and acquisition are aligned and we do not 
anticipate revising policies, regulations, or priorities. The Army 
recognizes the goals of equipping and acquisition policies and believe 
that they are synchronized to provide our soldiers with the best 
materiel solution when the systems are ready for fielding. Therefore, 
while the Milestone Decision Authority has authorized production of the 
increment 1 systems in accordance with the deliberate acquisition 
procedures in DOD Instruction 5000.02, Operation of the Defense 
Acquisition System, the Army may field systems that are proven and 
verified by testing in concert with Army Test and Evaluation Command. 
We pursue a rapid process to identify emerging technologies and systems 
and field them quickly to support soldiers engaged in current 
operations. We need to stay responsive to the immediate requirements 
that continue to emerge from the field. We will continue to identify 
those situations where we can accelerate the fielding of certain 
systems to give our soldiers every advantage in ongoing operations.
    Mr. Duma. The Director, Operational Test and Evaluation (DOT&E) 
will continue to adhere to the existing statutory and DOD regulatory 
direction in the conduct of our test and evaluation oversight 
responsibilities. DOT&E reports objectively and independently to the 
Secretary of Defense and Congress its evaluations of the results of 
operational and live-fire testing. DOT&E does not set acquisition 
policy nor does it evaluate whether decisions made by acquisition or 
other officials are aligned with policy.

                     stryker double-v hull vehicles
    2. Senator Burris. Mr. Duma, from your written statement, it looks 
as though DOD believes the Stryker Double-V Hull vehicle shows some 
promise. You are working with the Army to develop a test plan. When do 
you expect the test plan to be complete?
    Mr. Duma. The Army presented their concept for testing the Stryker 
Double-V Hull on May 3, 2010. In accordance with the Acquisition 
Defense Memorandum dated April 6, 2010, the Army Test and Evaluation 
Command (ATEC) will submit a completed test plan by June 1, 2010.

    3. Senator Burris. Mr. Duma, how long do you anticipate testing 
will take?
    Mr. Duma. Duration of testing is dependent on the availability and 
arrival of production representative prototypes from the contractor. 
Based on the schedule presented to DOT&E during the test concept brief, 
I anticipate testing on ballistic hulls to begin in July 2010. Testing 
on full prototypes is expected to begin in October 2010 and is planned 
to be completed by ATEC by May 2011.

    4. Senator Burris. Mr. Duma, when will this system be ready for 
fielding?
    Mr. Duma. The Secretary of Defense and the Secretary of the Army 
determine the readiness for fielding. Depending upon the availability 
of the agreed-upon test assets, DOT&E could provide an assessment of 
the survivability characteristics of the Stryker Double-V Hull, as well 
as the ability of units to accomplish combat missions using the Stryker 
Double-V Hull, to the Secretaries as early as June 2011.

                        managed ground vehicles
    5. Senator Burris. Lieutenant General Lennox and Lieutenant General 
Phillips, part of the revision of the Future Combat System program 
included the cancellation of the planned Manned Ground Vehicles (MGV). 
Do you have a plan for recapitalization of combat vehicles that the 
cancelled MGVs were intended to replace, such as the M-11 Abrams tank, 
M-2 Bradley Fighting Vehicle, and M-109 Paladin?
    General Lennox and General Phillips. The Army does not currently 
have a plan for recapitalization of combat vehicles that the cancelled 
MGVs were intended to replace. The M-1 Abrams tank and the M-2 Bradley 
Fighting Vehicle, as a result of investments during the period fiscal 
years 2006-2012, have been recapitalized to the latest configurations, 
and will, by fiscal year 2013, have an average fleet age of 3.5 and 4.5 
years respectively. The Army is, however, currently evaluating its 
Combat Vehicle Fleet requirements as part of the ongoing Ground Combat 
Vehicle (GCV) Analysis of Alternatives (AoA) and the Vice Chief of 
Staff Army's GCV Portfolio Review. Future decisions on recapitalization 
for current systems are dependent on the results of these reviews.

    6. Senator Burris. Lieutenant General Lennox and Lieutenant General 
Phillips, do these vehicles meet the Army's needs now and in the 
foreseeable future?
    General Lennox and General Phillips. Existing combat vehicles such 
as the M1 Abrams and M2 Bradley meet the Army's current warfighting 
needs. However, we remain proactive in our analysis and planning to 
ensure the Abrams and Bradley continue to provide our soldiers the best 
possible lethality and protection against an adaptive enemy in the 
Irregular/Hybrid Combat Operations anticipated as the most likely 
national security environment for the next decade. In this regard, Army 
modernization planning is focused on standardizing the Heavy Brigade 
Combat Team (BCT), by end of fiscal year 2013, with the two most modern 
variants of the Abrams Tank and the Bradley Infantry Fighting Vehicle.
    For the future Infantry Fighting Vehicle, the Army is designing a 
new GCV. The GCV will provide a versatile range of capabilities, 
including the under-belly protection offered by mine resistant ambush 
protected vehicle, the off-road mobility and side protection of the 
Bradley Fighting Vehicle, and the urban and operational mobility of the 
Stryker. The GCV's development approach enables production of the first 
vehicle by fiscal year 2017, while establishing a basis from which to 
adapt.
    The Stryker combat vehicle has performed brilliantly in combat. 
Eight of the 10 Stryker variants are in full rate production (FRP) and 
the remaining two, the Stryker-Nuclear, Biological, and Chemical 
Reconnaissance Vehicle has completed Milestone C and the Stryker Mobile 
Gun System is expected to meet Milestone C FRP in the third quarter of 
fiscal year 2011. The Army is executing a Stryker modernization program 
as an integrated solution to provide survivability upgrades, synergy-
size, weight, power mitigation, and future technologies integration in 
two increments.
    The M109A6 Paladin Howitzer is currently being upgraded as part of 
the Paladin Integrated Management program. This program provides a low-
risk and affordable life-cycle solution that addresses obsolescence and 
ensures long-term sustainment of the system through 2050.
    Ultimately our finals plans for manned GCVs will be informed by the 
ongoing GCV AoA and the Vice Chief of Staff, Army's GCV Portfolio 
Review. Both of these efforts are paramount to scoping and integrating 
our current combat vehicle modernization efforts, such as for the 
Abrams, Bradley, Stryker, and Paladin, with the development and 
production of the GCV.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                                carbines
    7. Senator Inhofe. Lieutenant General Lennox, the Army has briefed 
Congress on a dual-path strategy of upgrading and enhancing the M4 
carbine while also completing a new requirement for the eventual 
replacement of the M4. While I am pleased there is a plan, I am 
disappointed that so little progress has been made on either the 
upgrade or the new weapon. It has been, for example, more than 18 
months since then-Secretary Geren directed the development of a new 
requirement. My understanding at the time was that the Secretary 
directed that the new requirement would be completed in 2009. More 
recently, the Vice Chief of Staff, General Chiarelli, briefed that a 
new requirement and upgrade contract were both advancing with the 
objective of having a competition for the upgrade announced in March 
2010. The slow progress and continued missed dates, even those dates 
directed by the Army's leadership, concern me because it appears that 
the Army bureaucracy is unable or unwilling to improve the most basic 
piece of equipment that a soldier in Afghanistan requires--their 
individual weapon. Where in the process is the requirement for the M4 
upgrades and the new rifle?
    General Lennox. Upgrades to the M4 are currently being considered 
and staffed for implementation by Army Headquarters.
    As far as a new rifle, there is a new requirement for the 
Individual Carbine that has successfully completed Army staffing and is 
being prepared for joint staffing. The Army cannot move forward in 
implementation of a new weapon system until that requirement has fully 
completed staffing and is approved. The Army will initiate a full and 
open competition once the requirement document is approved.

    8. Senator Inhofe. Lieutenant General Lennox, which command or 
staff section currently has the requirements for action?
    General Lennox. The Army G-3 is preparing the Individual Carbine 
requirement for joint staffing and is coordinating the staffing of the 
planned improvements to the current carbine fleet.

    9. Senator Inhofe. Lieutenant General Lennox, what is the timeline 
for completing both requirements?
    General Lennox. Once the Individual Carbine requirement enters 
joint staffing, the staffing time is usually 3 to 6 months.
    The requirement for improvements to the M4 will be staffed and 
initiated much more quickly.

    10. Senator Inhofe. Lieutenant General Lennox, why can the Army not 
keep a schedule for small arms requirements even when the Secretary and 
the Vice Chief make the commitments?
    General Lennox. Small arms requirements affect every soldier in the 
Army. In validating a requirement, there are many different staff 
sections that must be included in order to come to a consensus of what 
the Army needs to equip soldiers for the next decade or more. The Army 
takes great pains to get it ``right.'' In doing so, it often takes 
longer than initially anticipated to thoroughly research and 
investigate all issues associated with a given small arms requirement. 
As such, we are doing our very best to provide a capability to our 
soldiers that will carry them well into the next decade and provide 
them a distinct advantage over our adversaries.

                            army ammunition
    11. Senator Inhofe. Lieutenant General Lennox, our soldiers in 
Afghanistan and Iraq are complaining that the current M855 round does 
not have the stopping power it they need. According to media reports, 
the Army has denied the use of improved 5.56mm ammunition in 
Afghanistan because it is waiting for the adoption of the M855A1 green 
bullet. This bullet, despite being in development since 1996, has still 
not been approved for use due to development problems. From an article 
in the Army Times:

          ``Jason Gillis, a former Army staff sergeant, first witnessed 
        the M855's shortcomings in 2004 on the streets of Baghdad. He 
        was a squad leader with 2nd BCT, 82nd Airborne Division, on 
        patrol when a vehicle began speeding toward his unit. After 
        several warnings, `both of our M249s opened up instantly, 
        forming a crisscross pattern of tracer that met at the 
        vehicles' engine compartment and windshield. Within seconds, 
        riflemen and grenadiers were executing magazine changes while 
        the vehicle kept rolling and finally stopped 10 meters from my 
        lead troops,' Gillis recalled in an e-mail to Army Times. He is 
        now a free-lance writer who often focuses on military small-
        arms issues. `Assuming the driver was most likely riddled 
        beyond recognition, we were all astounded to see the driver 
        emerge from the vehicle completely unscathed,' Gillis wrote. 
        `Closer inspection revealed that the M855 ammunition had failed 
        to effectively penetrate the vehicle's windshield despite the 
        fact that over 400 rounds were expended at extremely close 
        range and on target.' Other soldiers say they like the M855 
        because it is lightweight, but wish it had more punch. `The 
        idea of being able to carry 210 rounds [basic load] is quickly 
        overshadowed by the fact that it takes more than one and even 
        more than two rounds to drop the enemy,' Staff Sgt. Charles 
        Kouri, 82nd Airborne Division, told Army Times.''

    Our Special Operations Forces and Marine Corps are using a newer, 
improved round, the Special Operations Science and Technology (SOST) 
round. Marines have noted that it is available now and is deadlier than 
the current M855 round. From the Army Times:

          ``Despite the popularity of the SOST, the Army isn't backing 
        away from its goal to perfect its green M855A1 round. `SOST is 
        a good round, but SOST is not a lead-free slug,' said Lt. Col. 
        Tom Henthorn, Chief of the Small Arms Branch at the Soldier 
        Requirements Division at Fort Benning, GA. The Army will 
        continue to develop an environmentally friendly 5.56mm, as well 
        as a lead-free 7.62mm bullet, Henthorn added, `because we care 
        about the environment.'''

    Are environmental concerns an obstacle to the Army fielding the 
best round possible for the current fight?
    General Lennox. Environmental concerns are not an obstacle to 
fielding the best round to our soldiers. While there were unexpected 
delays in the M855A1 program, those problems have been resolved. The 
SOST round does not meet the Army's requirement for a lead-free slug or 
for performance. Our testing indicates that the M855A1 ammunition will 
be ready to field this year and will have significant improvements over 
the M855 and SOST rounds. At this point, we could not field the SOST 
round as an interim solution any faster than we will field M855A1.

    12. Senator Inhofe. Lieutenant General Lennox, why can't the Army 
purchase the SOST round for use now while awaiting the results of the 
green ammo testing?
    General Lennox. The SOST cartridge does not meet the Army's 5.56mm 
ammunition performance requirement against hard targets. The Army will 
begin fielding the new M855A1 Enhanced Performance Round cartridge in 
June 2010. The Army could not procure and field SOST cartridges prior 
to that date, even if it met our requirements due to solicitation and 
production ramp-up times required to purchase the SOST round.

    13. Senator Inhofe. Lieutenant General Lennox, how does the 
lethality of the SOST round compare to the lethality of the new M855A1 
green round?
    General Lennox. Although both the M855A1 Enhanced Performance Round 
(EPR) and SOST cartridges provide more consistent performance than the 
currently fielded M855 cartridge against soft targets and battlefield 
barriers, the M855A1 EPR consistently performs better in testing. The 
SOST cartridge does not meet the Army's requirement for penetrating 
hard targets. The M855A1 EPR cartridge has better hard target 
performance against mild steel and concrete masonry compared to the 
currently fielded M855 cartridge.

                       m4 technical data package
    14. Senator Inhofe. Lieutenant General Lennox, one of the 
impediments that the Army had regarding upgrades to the M4 carbine was 
that Colt owned the Technical Data Package (TDP) for the M4 carbine. 
However, last summer those rights reverted to the Government, which can 
now use the TDP as it sees fit to open up any upgrades to the M4 to 
other companies other than Colt. Reports have surfaced that there are 
some legal challenges to this reversion of rights. In regards to the 
enhanced M4, I'm told that there may be a dispute over the M4 TDP, 
previously owned by Colt, now owned by the Army that could cause 
significant delays in fielding an improved weapon.
    Is there a dispute regarding the M4 TDP? If so, will this dispute 
delay procuring and fielding of the M4 carbine modification kits?
    General Lennox. Colt's Manufacturing Company never relinquished its 
proprietary rights in the M4 Carbine TDP to the Government. After June 
30, 2009, the Government obtained the rights to utilize the M4 TDP in a 
competition for production of the M4 carbine and M4 unique spares 
within the United States and territories, for U.S. military use. The 
Army has developed an acquisition strategy to improve the M4, which 
will not be impeded by data rights issues involving Colt.

    15. Senator Inhofe. Lieutenant General Lennox, are there any other 
barriers or impediments to full and open competition of an enhanced 
carbine?
    General Lennox. At this time, the Army can only conduct a limited 
competition utilizing an M4 TDP due to the restrictions imposed by 10 
U.S.C. 2473, Procurements from Small Arms Production Industrial Base. 
This statute restricts competition for critical repair parts to firms 
in the small arms production industrial base. The Army, in anticipation 
of a robust competition, intends to seek a waiver of this restriction 
that would allow full and open competition.

              small arms production industrial base report
    16. Senator Inhofe. Lieutenant General Lennox, the report on the 
small arms requirements of the Armed Forces and the Industrial Base of 
the United States is required by the National Defense Authorization Act 
for Fiscal Year 2009, which passed October 2008. To date, this report 
has not been received by Congress. When can Congress expect this 
report?
    General Lennox. The report on the DOD's Small Arms Requirements and 
the Industrial Base of the United States responding to section 143 of 
the Duncan Hunter National Defense Authorization Act for Fiscal Year 
2009, was signed by the Secretary of the Army for DOD on March 25, 
2010, and transmitted to the defense committees.

                                   m9
    17. Senator Inhofe. Lieutenant General Lennox, a 2006 Center for 
Naval Analyses (CNA) study of our soldiers and marines in Afghanistan 
and Iraq showed that 48 percent of the respondents were dissatisfied 
with the M9 pistol, with 26 percent requesting a larger caliber weapon. 
The fiscal year 2011 DOD budget includes new start authority for a 
handgun to replace the M9 and that the requirement may already be Joint 
Requirements Oversight Council-approved. What progress has the Army 
made toward replacing M9 with a more powerful and modern sidearm?
    General Lennox. The Army does not currently have a documented 
requirement for a new pistol.

    18. Senator Inhofe. Lieutenant General Lennox, when is the timeline 
for procuring a new handgun release for proposal, contract award, and 
procurement?
    General Lennox. At this time, the Army does not have an approved 
requirement for a new handgun and therefore is not planning to issue a 
request for proposals.

                                  m249
    19. Senator Inhofe. Lieutenant General Lennox, the CNA issued a 
report stating that more than a third of all soldiers using the M249 
squad automatic weapon (SAW) in combat in Iraq and Afghanistan were 
dissatisfied with its reliability. Over 30 percent of these soldiers 
experienced stoppages with their M249 while engaging the enemy in 
combat. What actions has the Army taken since the December 2006 report 
to replace or upgrade the M249 SAW?
    General Lennox. Early in the war it was recognized that the M249 
fleet was old and worn out, creating many of the problems you 
mentioned. The Army Materiel Command instituted a Repair-and-Return 
program that overhauled 100 percent of deploying unit M249s, and then 
upon return from theater, all machine guns, to include the M249, were 
returned to Anniston Army Depot under the Small Arms Readiness and 
Evaluation Team program to be brought to a high operational standard 
before being shipped back to the unit. The combined effect of these 
programs has been to provide units with well-maintained weapons and to 
eliminate the oldest, most worn-out weapons that were causing units the 
most problems. The CNA study you mentioned is only one data point the 
Army uses to assess the satisfaction of its weapons with soldiers. More 
timely data comes from post combat surveys conducted with each 
redeploying unit that assess weapon reliability and soldier 
satisfaction. In addition, a team recently deployed to theater to 
independently assess weapon reliability. In both cases the reliability 
of the M249 was extremely high. In fact, the reliability data from 
government testing shows the M249 to be over 33,000 mean rounds between 
stoppages, well beyond the requirement of 2,800 rounds. In addition 
there have been numerous improvements and upgrades made to the baseline 
M249 to increase its effectiveness as well as reliability. Examples are 
the addition of a collapsible buttstock, short barrel, 200-round soft 
ammo pack, accessory rail kit, improved bipod and light weight charging 
handle and top cover, and optics. The Army currently has no requirement 
to replace the M249. Also, as part of the Army's effort to lighten 
soldiers' load we are evaluating a limited number of MK48s, the Light 
Weight Machine Gun, in Operation Enduring Freedom; however, we 
recognize that, while lighter, the MK48 does not meet Army reliability 
or range requirements.

    20. Senator Inhofe. Lieutenant General Lennox, is there any planned 
replacement for the M249 in the Future Years Defense Program?
    General Lennox. No. The Army currently has no requirement to 
replace the M249.

                               body armor
    21. Senator Inhofe. Lieutenant General Lennox, given that the 
weight of body armor directly affects soldiers' agility, what is being 
done to give commanders in the field the ability to tailor their 
soldiers' level of armor to a specific threat level?
    General Lennox. The Army provides soldiers with the Improved Outer 
Tactical Vest (IOTV), a modular system that commanders can tailor to 
specific threat levels. Additionally, the Army is fielding the Soldier 
Plate Carrier System (SPCS), a modular light weight body armor 
alternative to the IOTV, to soldiers operating in the mountainous 
terrain of Afghanistan.

    22. Senator Inhofe. Lieutenant General Lennox, are there any body 
armor programs in development that allow for scalability or modularity?
    General Lennox. Yes, the fielded IOTV is a scalable and modular 
body armor system that includes individual components for thorax, 
shoulder, and groin protection, allowing soldiers the option to 
increase areas of coverage when desired. The IOTV may be worn with or 
without the Enhanced Small Arms Protective Insert (ESAPI) front, back, 
and side plates to provide fragment only protection or fragment and 
rifle round protection. Additionally, the Army is fielding the SPCS, a 
modular light weight body armor alternative to the IOTV, to soldiers 
operating in the mountainous terrain of Afghanistan.
    Additional research on emerging threats and injury data is ongoing 
to quantify trade-offs between increased protection and soldier 
mobility with the goal to improve or develop new modular and scalable 
components. This research along with applied research on novel 
polymers, fibers, and ceramics will enable the development of materials 
and systems with optimum load transfer, energy absorption, and 
durability characteristics.

    23. Senator Inhofe. Lieutenant General Lennox, given the intense 
terrain in Afghanistan that our troops are patrolling and the high 
weight carried in body armor and other equipment, are you examining 
new, lighter-weight body armor systems being offered by industry today? 
If so, are you pursuing acquisition of these systems?
    General Lennox. Yes, the Army evaluated, through the competitive 
bid process, industry ideas for lighter body armor and selected the 
SPCS for procurement. The SPCS, a lighter weight body armor system is 
currently being fielded to soldiers operating in the mountainous 
terrain of Afghanistan.

    24. Senator Inhofe. Lieutenant General Lennox, do you anticipate 
budgeting for the next generation of body armor in the next budget?
    General Lennox. We anticipate that research, development, test, and 
evaluation (RDT&E) funding for personal protective equipment, to 
include plates, soft armor, helmets, and eye protection, will compete 
for funding in the next budget cycle. The RDT&E funding will be 
programmed in separate project codes within the existing Budget 
Activity 6.4 and 6.5 lines to support further development of promising 
technology emerging from science and technology efforts. Funding within 
the applied research areas of novel polymers, fibers, and ceramics will 
enable the development of next generation protection for the soldier 
utilizing materials and systems with optimum load transfer, energy 
absorption, and durability characteristics.

    25. Senator Inhofe. Lieutenant General Lennox, this committee 
understands that all the Services are concerned about weight and are 
challenging industry to develop a lightweight solution. Absent 
supplemental funding, how will future systems be paid for?
    General Lennox. The Army will compete for available base funding if 
supplemental funding is not provided for procurement of future body 
armor systems. For the development of future body armor systems, the 
Army plans to program RDT&E funding in the next budget cycle.

    26. Senator Inhofe. Lieutenant General Lennox, last year's National 
Defense Authorization Act required the Services to include budget lines 
for body armor in procurement and for RDT&E. None of the Services did 
so. Can you tell me why the Army failed to follow the law?
    General Lennox. The Army did not create separate body armor funding 
lines in RDT&E and procurement in the fiscal year 2011 budget because 
we were awaiting guidance from the Office of the Secretary of Defense 
(OSD) on how to implement the National Defense Authorization Act for 
Fiscal Year 2010 language. Previously, body armor has been an 
expendable and not an investment item, and therefore purchased with 
Operation and Maintenance, Army funding. The Army is exploring options 
with OSD for subsequent fiscal years and will implement in accordance 
with OSD guidance.

    27. Senator Inhofe. Lieutenant General Lennox, how much money has 
the Army budgeted for RDT&E of body armor and how have you coordinated 
with the other Services on body armor research and development?
    General Lennox. The Army budgeted $5.36 million in fiscal year 2010 
and $1.1 million in fiscal year 2011 for RDT&E for body armor.
    The Army coordinates, on a quarterly basis, with other Services on 
body armor RDT&E through the Cross-Service Warfighter Equipment Board 
(CS-WEB). The CS-WEB is comprised of the Navy, Marine Corps, Air Force, 
Coast Guard, and U.S. Special Operations Command to coordinate joint 
warfighter equipment investments which ensure the most effective 
solutions are acquired and fielded by all Services. The forum provides 
a dialogue on all aspects of life cycle acquisition management: science 
and technology plans; technology transition planning; system design and 
development; initial production; procurement strategies; raw ballistic 
fiber/material usage forecasts and shortage issues; ballistic testing 
protocols; production rates; and operational support concepts. The 
group makes recommendations on technology investments in order to 
minimize duplication and maximize joint investments.

    [Whereupon, at 3:32 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
